<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR 2018</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]












                    LEGISLATIVE BRANCH APPROPRIATIONS
                                 FOR 2018

_______________________________________________________________________

                                 HEARINGS

                                BEFORE THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED FIFTEENTH CONGRESS

                              FIRST SESSION

                                __________

                    SUBCOMMITTEE ON LEGISLATIVE BRANCH

                      KEVIN YODER, Kansas, Chairman

  MARK E. AMODEI, Nevada            TIM RYAN, Ohio    
  DAN NEWHOUSE, Washington          BETTY McCOLLUM, Minnesota
  JOHN R. MOOLENAAR, Michigan       DEBBIE WASSERMAN SCHULTZ, Florida
  SCOTT TAYLOR, Virginia

  NOTE: Under committee rules, Mr. Frelinghuysen, as chairman of the 
full committee, and Mrs. Lowey, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

                        Elizabeth C. Dawson, Clerk
                   Jennifer Panone, Professional Staff
                      Tim Monahan, Professional Staff

                                __________


                                  PART 2

                   FISCAL YEAR 2018 LEGISLATIVE BRANCH
                         APPROPRIATIONS REQUESTS
                         
                         
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                         
                                __________

           Printed for the use of the Committee on Appropriations
                          
                                __________

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-276                         WASHINGTON : 2017 







                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
             RODNEY P. FRELINGHUYSEN, New Jersey, Chairman


  HAROLD ROGERS, Kentucky \1\             NITA M. LOWEY, New York
  ROBERT B. ADERHOLT, Alabama             MARCY KAPTUR, Ohio
  KAY GRANGER, Texas                      PETER J. VISCLOSKY, Indiana
  MICHAEL K. SIMPSON, Idaho               JOSE E. SERRANO, New York
  JOHN ABNEY CULBERSON, Texas             ROSA L. DeLAURO, Connecticut
  JOHN R. CARTER, Texas                   DAVID E. PRICE, North Carolina
  KEN CALVERT, California                 LUCILLE ROYBAL-ALLARD, California 
  TOM COLE, Oklahoma                      SANFORD D. BISHOP, Jr., Georgia 
  MARIO DIAZ-BALART, Florida              BARBARA LEE, California      
  CHARLES W. DENT, Pennsylvania           BETTY McCOLLUM, Minnesota           
  TOM GRAVES, Georgia                     TIM RYAN, Ohio  
  KEVIN YODER, Kansas                     C.A. DUTCH RUPPERSBERGER, Maryland     
  STEVE WOMACK, Arkansas                  DEBBIE WASSERMAN SCHULTZ, Florida
  JEFF FORTENBERRY, Nebraska              HENRY CUELLAR, Texas            
  THOMAS J. ROONEY, Florida               CHELLIE PINGREE, Maine   
  CHARLES J. FLEISCHMANN, Tennessee       MIKE QUIGLEY, Illinois         
  JAIME HERRERA BEUTLER, Washington       DEREK KILMER, Washington        
  DAVID P. JOYCE, Ohio                    MATT CARTWRIGHT, Pennsylvania  
  DAVID G. VALADAO, California            GRACE MENG, New York 
  ANDY HARRIS, Maryland                   MARK POCAN, Wisconsin 
  MARTHA ROBY, Alabama                    KATHERINE M. CLARK, Massachusetts
  MARK E. AMODEI, Nevada                  PETE AGUILAR, California   
  CHRIS STEWART, Utah
  DAVID YOUNG, Iowa                       
  EVAN H. JENKINS, West Virginia                
  STEVEN M. PALAZZO, Mississippi
  DAN NEWHOUSE, Washington
  JOHN R. MOOLENAAR, Michigan
  SCOTT TAYLOR, Virginia
  ----------
  \1\ Chairman Emeritus
  
                           Nancy Fox, Clerk and Staff Director

                                   (ii)

















                            C O N T E N T S

                               __________

                               Testimony

                                                                   Page
House of Representatives.........................................   105
Architect of the Capitol.........................................   209
U.S. Capitol Police..............................................   235
Library of Congress..............................................   283

                          Prepared Statements

Government Publishing Office.....................................   329
Congressional Budget Office......................................   341
Government Accountability Office.................................   345
Open World Leadership Center.....................................   369
Office of Compliance.............................................   373

                                 (iii)
 
               LEGISLATIVE BRANCH APPROPRIATIONS FOR 2018

                              ----------                              


 TESTIMONY OF MEMBERS OF CONGRESS AND OTHER INTERESTED INDIVIDUALS AND 
                             ORGANIZATIONS

                              ----------                              

                                            Wednesday, May 3, 2017.

                   TOM LANTOS HUMAN RIGHTS COMMISSION

                               WITNESSES

HON. JAMES P. McGOVERN, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    MASSACHUSETTS
HON. RANDY HULTGREN, A REPRESENTATION IN CONGRESS FROM THE STATE OF 
    ILLINOIS
    Mr. Yoder. Good morning, everyone. I call the hearing to 
order. It is my honor to chair this hearing. This is our first 
official hearing, so this is a big deal. And we are glad to 
have the Congressman from Massachusetts with us this morning.
    I would like to thank Ranking Member Ryan for his service 
on the committee and the rest of the subcommittee members for 
all their work to help put together the Legislative 
Appropriations Subcommittee bill. We will be working on that 
over the next few months, and this is the beginning of our 
hearings.
    This morning is an open hearing, where we have asked if 
Members and other outside groups to testify on an issue under 
our jurisdiction. So we are kind of kicking things off with 
this broad, open hearing, and then we will move into specific 
hearings on specific Legislative Branch agency budget requests 
over the coming weeks.
    So, although we receive testimony for the record from 
Members of Congress and other outside individuals each year, 
this subcommittee has not had outside witnesses since 2010, so 
we felt it was important to hear from witnesses in this open 
hearing on the front end of our 2018 process. We look forward 
to hearing the testimony today and hope to incorporate the 
witnesses' comments and concerns into our end product.
    The first hearing this morning, we will hear from 
Congressman James McGovern and Congressman Randy Hultgren. 
Congressman McGovern is from Massachusetts; Mr. Hultgren is 
from Illinois.
    We will also hear from Joshua Tauberer, President of Civic 
Impulse, LLC; Kevin Kosar, Vice President of the R Street 
Institute; Daniel Schuman, Policy Director of Demand Progress; 
and Keith Kupferschmid, Chief Executive Officer, Copyright 
Alliance.
    In a moment, we will begin with the joint testimony from 
Congressman McGovern and Congressman Hultgren.
    I would first ask that each of the individuals testifying 
in front of the subcommittee limit your opening remarks to 5 
minutes. Your complete statements will be entered into the 
record, without objection.
    I would like to yield to Ranking Member Ryan for any 
opening remarks he would like to make.
    Mr. Ryan. Thank you, Mr. Chairman. Let me first associate 
myself with your remarks and let you know how excited I am for 
us to kick off this committee. This is our first hearing of the 
fiscal 2018 appropriations process, and I am grateful for the 
privilege to be here with you, work in a bipartisan way to make 
some good things happen.
    While this subcommittee may not appropriate the most money, 
the agencies and offices in our jurisdiction are among the most 
essential to the operation of our, small ``D,'' democracy and 
our, small ``D,'' democratic system. That is why these 
decisions we make, as we write the 2018 legislative branch 
bill, matter to all of us.
    Today, we are going to hear testimony about the proper role 
of the Congressional Research Service, an in-house think tank 
whose nonpartisan experts help ensure we are making informed 
decisions as we write the Nation's laws. And I know we all 
utilize CRS a lot.
    And we will hear about the activities of a congressional 
commission on human rights that serves as a resource for 
Members of Congress making foreign policy decisions in a world 
where not everyone shares our values.
    We will also be joined by a representative of the creative 
community, whose intellectual property is a critical part of 
what drives our economy. He will have the opportunity to weigh 
in on the operation of the Copyright Office from the 
perspectives of artists, software developers, authors, and 
other creators.
    And as we are all witnessing with the fiscal year 2017 
omnibus appropriations bill on the House floor today, making 
decisions about how to spend taxpayer money, on how to give the 
people who elected us the most bang for their buck isn't always 
easy. The more information we have to work with, the better our 
product will be. And so I thank all of our witnesses for 
joining us and sharing your thoughts on how money should and 
shouldn't be spent in the legislative branch of government.
    With that, I yield back.
    Mr. Yoder. Thank you, Mr. Ryan. I appreciate your opening 
comments.
    We are now going to call upon the Honorable James P. 
McGovern from Massachusetts for his 5 minutes of comments.
    Sir, you are recognized.
    Mr. McGovern. Thank you very much, Chairman Yoder, Ranking 
Member Ryan. I am here today in my capacity as the Democratic 
co-chair of the Tom Lantos Human Rights Commission.
    My colleague here, Randy Hultgren, the Republican co-chair, 
I think hopes to be here. He is in a markup. He may show up, 
but, if not, he told me that I speak for him.
    Mr. Yoder. Okay. On all matters.
    Mr. McGovern. So let me begin by thanking you for giving us 
this opportunity to testify, and we deeply appreciate the 
courtesy.
    We are here to request that language be added to the fiscal 
year 2018 legislative branch appropriations bill to provide 
$230,000 for salaries and expenses for professional staff for 
the Tom Lantos Human Rights Commission, an official, bipartisan 
body of the House of the Representatives.
    We know that this request is unusual, but our situation is 
unusual. Although the Commission was established with the 
unanimous support of the House in 2008 and has been renewed by 
every Congress since then, no funds have been specifically 
designated or appropriated for the Commission's operation.
    And here is the background. The Commission has its origins 
in the bipartisan Congressional Human Rights Caucus, founded in 
1983 by John Porter, a Republican from Illinois, and Tom 
Lantos, a Democrat from California, the only Holocaust survivor 
to serve in the United States Congress.
    It was after the death of Tom Lantos that the initiative 
was taken to institutionalize the unique bipartisan entity in 
the House of Representatives focused on human rights and to 
name it in his honor.
    The Commission has a broad global mandate to educate and 
advise Members and staff and to promote international human 
rights in a nonpartisan manner.
    In carrying out its mandate, the Commission is authorized 
to use the resources of the Committee on Foreign Affairs. We 
would like to take this opportunity to express our appreciation 
to the Foreign Affairs Committee for funding administrative 
expenses for the Commission, including office space, supplies, 
computers, and the cost of video recording and transcription of 
hearings. These resources are valuable and very important to 
the Commission's success.
    But what is missing is funding for professional staff. The 
establishment resolution provided that professional staff 
members, nominated by the co-chairs, would be appointed by the 
chairman of Foreign Affairs. To ensure that Commission staff 
would not burden the committee nor interfere with the 
committee's own staffing needs, the resolution specified that 
full-time staff appointed for the Commission would not be 
counted in determining the total number of professional staff 
members the committee may hire under House rules.
    But, as I mentioned before, no funds were specifically 
designated or appropriated for the Commission at the time of 
its creation, and no funding for staff assigned full-time to 
the Commission was allocated in the 113th or 114th Congresses.
    So this is why we are asking for $230,000 to be designated 
for professional staffing expenses for the Commission in the 
fiscal year 2018 legislative branch appropriations bill.
    Now, we see a couple of ways in which our request could be 
accomplished. One would be to support the Commission through 
the reserve fund that is included in the appropriations bill, 
with the expectation that funding for the Commission would be 
regularized in the following year. Another option would be to 
insert a new provision in the legislative branch appropriations 
bill similar to what is done with the John C. Stennis Center 
for Public Service Training and Development.
    One question that you might have is, why not pursue this 
request through the Committee on House Administration and the 
Committee on Foreign Affairs? This is a reasonable question 
that we would answer in two ways. First, we believe that 
funding for the Commission should not come at the expense of 
the standing committees. The Commission deserves funding, but 
we are not seeking to harm other committees in the process. 
Second, Mr. Royce, as chairman of the Foreign Affairs 
Committee, has previously expressed his view that the 
Commission should be funded independently by the committee.
    Mr. Chairman, since the 1970s, the Congress has lent 
support for fundamental human rights and fundamental human 
freedoms as a core part of our U.S. foreign policy. As we look 
around the world today, the need for a strong congressional 
voice in human rights is greater than ever.
    During the last Congress, the Commission held 22 hearings 
and over 40 briefings on topics ranging from religious freedom 
to the protection of civilians in Syria. In the absence of 
dedicated funding for professional staff, the Commission did 
this work and served its bipartisan membership through a 
rotating patchwork of temporary fellows and volunteers.
    The modest request we are making today would allow each co-
chair to hire dedicated full-time professional personnel to 
reinforce the Commission's expertise and further amplify 
Congress' important voice on human rights and foreign policy.
    So, anyway, I thank you for your attention to our 
bipartisan request and would be willing to answer any questions 
or hear any comments.
    [The prepared statement follows:]
    
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
     
    Mr. Yoder. Jim, thanks for your testimony this morning. We 
appreciate your comments. And I think it is a very intriguing 
proposal you have brought before us.
    Twenty-two hearings, that is a lot, you guys have been 
pretty active on the committee. Can you tell the committee some 
of what those hearings have generated, what some of the goals 
are, what you hope to achieve through the Commission?
    Mr. McGovern. Part of what we hope to achieve is a greater 
awareness and understanding of the importance of human rights 
in our foreign policy. And we are not a legislative committee, 
we don't report on legislation, but the Commission has been 
responsible for inspiring legislative initiatives, such as the 
Magnitsky Act and the Global Magnitsky Act. Basically, it was 
formulated to put sanctions on human rights violators in 
Russia, and it has now been expanded worldwide.
    But it is also to give a forum to human rights defenders 
from around the world, who, quite frankly, with the added 
attention, oftentimes it means that their lives are spared, 
that they can actually operate as human rights defenders in 
countries and not have to worry as much about being jailed or 
imprisoned.
    We have done hearings on religious freedom, and on the 
situation in Syria. We have done hearings on challenges to 
indigenous communities around the world, Sudan, China, Russia, 
you name it. Unfortunately, there is not a shortage of human 
rights crises in the world.
    But I would like to also add for the record a letter signed 
by a number of human rights organizations and advocates, 
ranging from Freedom House to Amnesty International to Jewish 
World Watch, who have all supported our request and think that 
it would be helpful to have permanent professional staff that 
is dedicated to this, that can develop the institutional memory 
that can serve not just those of us in this Congress but 
Congresses in the future.
    Mr. Yoder. Without objection, we will add that to the 
record.
    [The information follows:]
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Yoder. Assuming we can find the resources to support 
the committee's work in addition to the resources that Foreign 
Affairs Committee has utilized vis-a-vis new dollars that we 
would be expending, what are the technical changes that need to 
occur to allow this to happen? Is there authorizing legislation 
that needs to pass? House rules that need to change?
    Is it already authorized?
    Mr. McGovern. It is already part of the rules package we 
pass every year. Our hope would be that, the funding would be 
appropriated and the Foreign Affairs Committee could then 
administer the funds.
    Mr. Yoder. So you think this committee could solely do the 
work that needs to be done to allow this to occur.
    Mr. McGovern. Yes.
    Mr. Yoder. And you are under the Foreign Affairs umbrella 
right now. I suppose they are supportive of this.
    Mr. McGovern. Right. I think they would not want the 
funding for these positions to come out of their current 
allocation. They have a full plate.
    Mr. Yoder. Right.
    Mr. McGovern. We have established this commission, it has 
been bipartisan, it has worked. We had 113--how many Members in 
the last Congress?--103 Members of the House were members of 
the Commission last Congress. We continue to solicit new 
membership in this Congress.
    And I should tell you too that I serve on the Rules 
Committee; I am on the Agriculture Committee too. What amazes 
me about the hearings by the Commission is that they are always 
well attended, not only by members, but, we fill the room. So 
there is great interest by staff and by advocates who care 
about human rights. And I think it has been a net positive to 
the work that we do here.
    Mr. Yoder. Okay. Great.
    Mr. Ryan.
    Mr. Ryan. I don't have any questions.
    Mr. Yoder. Mr. Moolenaar.
    Mr. Moolenaar. No.
    Mr. Yoder. Okay.
    Thank you. Anything to add?
    Mr. McGovern. I submitted this letter for the record. If 
there are any other questions, just get ahold of us.
    Mr. Yoder. Jim, we appreciate your testimony today.
    Mr. McGovern. Thank you.
    Mr. Yoder. And my staff will look forward to working with 
you on this proposal.
    Mr. McGovern. Thanks very much.
    Mr. Yoder. Thanks. We appreciate you being here.
                              ----------                              --
--------


                PUBLIC ACCESS TO LEGISLATIVE INFORMATION


                               WITNESSES

JOSHUA TAUBERER, PH.D., PRESIDENT, CIVIC IMPULSE, LLC
DANIEL SCHUMAN, POLICY DIRECTOR, DEMAND PROGRESS
KEVIN KOSAR, VICE PRESIDENT FOR POLICY, R STREET INSTITUTE
    Mr. Yoder. Okay, committee, we are now going to turn our 
attention to a second subject this morning. And I think we have 
three folks that would all like to testify regarding the same 
subject, so our intention is to bring all three folks up. So 
that would be Mr. Tauberer, Kosar, and Schuman.
    Again, gentlemen, welcome to the committee. We appreciate 
your appearance this morning. I know it is a very important 
subject regarding transparency in government that you would 
like to testify to the committee about this morning, and so 
each of you will be recognized for 5 minutes. You certainly 
don't need to use all of that time, but ideally you would all 
testify, and then we could ask questions of any of you or all 
of you.
    So I will start with Mr. Tauberer.
    Welcome to the committee, and please begin.
    Mr. Tauberer. Thank you for having me here today. My name 
is Joshua Tauberer. I am the founder and president of Civic 
Impulse, LLC, which is the company behind the website 
govtrack.us.
    Each year, around 10 million individuals use our free tools 
to research and track legislation in the United States 
Congress. Our users include journalists, legislative affairs 
professionals, and small businesses, Federal and State 
agencies, legislative staff here on the Hill, advocates, 
teachers, students, and, of course, members of the general 
public. And my testimony today on supporting public access to 
legislative information is really on their behalf.
    I would like to begin by commending the subcommittee for 
its support of important programs in the last several years 
that have allowed us to bring more accurate and timely 
information to our users. And I will mention some of those 
programs, and the rest will be in my written testimony.
    The House of Representatives Bulk Data Task Force was 
formed 5 years ago as a joint effort of the Government 
Publishing Office, the Library of Congress, and the Clerk of 
the House to create a database of all legislation before 
Congress that could be shared in bulk with internal and 
external stakeholders. You can think of it like a spreadsheet 
of bills before Congress with hundreds of columns about dates 
of floor votes and so on. And that spreadsheet, remarkably, 
didn't exist beforehand.
    The task force's goal was ambitious, and last year the task 
force delivered. The new data has allowed us to disseminate the 
most accurate information yet about the status of pending 
legislation before Congress using official data published 
through modern means.
    The launch of congress.gov by the Library of Congress 
several years ago and its continual improvement since its 
launch, using what is called agile methodology, is an example 
for the whole legislative branch in how to get the most out of 
a modern information technology investment. Congress.gov has 
greatly improved search results compared to the old thomas.gov. 
And it won't be long now before congress.gov surpasses the 
functionality of my own organization's website, and I look 
forward to that day.
    Lastly, the House Administration Committee's Legislative 
Data and Transparency Conference, which takes place each summer 
here in the Capitol Building, is a unique opportunity for 
outside stakeholders like GovTrack, my organization, and inside 
stakeholders like the Clerk to learn about each other, which 
makes all of our efforts to keep the public informed most 
effective.
    I also want to take a moment to commend the staff at the 
House offices and legislative branch agencies that I named who 
have done remarkable work in producing accurate, durable, and 
timely information within the constraints that an institution 
like the House of Representatives requires.
    The subcommittee's support for these programs which provide 
public access to legislative information ensures that accurate 
information reaches the American public. And my users love that 
information. They want to know what is going on by reading the 
bills, checking the votes, maybe watching some hearings like 
this one.
    But let me be clear: It is not about playing gotcha. Our 
users are professionals who have a job to do, including your 
staff who use our website. Our users are also regular 
Americans, who feel they also have a job to do, which is to 
vote in elections, to stay informed, and to learn what it takes 
to sit on your side of the table as a future, maybe, Member of 
Congress.
    My job is to take the information from Congress, the 
official record, from you and bring that to the widest audience 
I can and teach them how Congress really works so their 
relationship with you is a meaningful one.
    So, to continue the subcommittee's support, I will make the 
following recommendations for the upcoming fiscal year.
    One, create a public advisory committee on legislative 
transparency for stakeholders both on the outside and on the 
inside to engage systematically on this issue, including but 
not limited to access to data.
    Two, make the Bulk Data Task Force permanent and fund the 
participation of the offices and agencies that are members of 
the task force.
    Three, support congressional publication of other important 
information, especially in a structured data format like XML, 
including floor amendments, committee votes, the biographical 
directory, a.k.a. BioGuide, the nonconfidential reports of the 
Congressional Research Service, and other information that 
furthers an open and transparent Congress.
    Four, continue to support information to modernize the 
House's information technology systems, especially with respect 
to the work of committees and efforts to connect constituents 
with their Representatives. Cultivate the legislative branch's 
in-house technology talent, which already exists, as other 
parts of the government are already doing, because information 
technology now plays a role in everything we do--including how 
to read this testimony.
    And, five, increase House staff levels above their current 
historic lows so that the House has sufficient capacity for 
policy analysis, oversight, and constituent services. Direct 
the Congressional Research Service to report on how staffing 
levels impact the House's capacity to function, and make that 
report public.
    I would be glad to discuss these topics further and tell 
you more about how the work of the House on public access to 
legislative information translates into a stronger democracy.
    Thank you for your time and the opportunity to speak today.
    [The prepared statement follows:]
    
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    Mr. Yoder. Thank you for your testimony this morning.
    Mr. Schuman.
    Mr. Schuman. Thank you so much.
    Chairman Yoder, Ranking Member Ryan, Congressman, thank you 
so much for having us come and speak to you today. It is, you 
know, great that you are having open testimony. As you know, 
this is the first time in 6 or 7 years since 2011. I was here 
the last time around. I have gotten older; I now have to wear 
glasses. But we are glad to be back.
    And, Dr. Tauberer, is too modest. His website has 800,000 
looking at it on a monthly basis, and he is responsible for 
literally millions of people having access to information to 
what Congress does.
    Mr. Tauberer. Thank you.
    Mr. Schuman. So it is really phenomenal work, and what he 
has done with other folks.
    So I am here on behalf of Demand Progress, but I am 
actually representing 42 organizations from across the 
political spectrum. And so I have sort of unusual allies. You 
don't often see the American Civil Liberties Union and 
Americans for Tax Reform agreeing; or CREW and Cause of Action; 
my organization, Demand Progress, and Freedom Works. We have a 
lot of sort of unusual allies, you know, a lot of reporters 
groups, all three library associations, all in support of 
public access to CRS reports.
    So I used to work at CRS. Kevin is going to talk a little 
bit about how 25 former CRS employees also have endorsed public 
access to the reports. And unlike me, they have a combined 570 
years, I think, of experience at the agency. So this has, you 
know, pretty broad, bipartisan support.
    And I just want to be clear what we are talking about. We 
are talking about the general distribution reports that are 
made available on CRS's internal website. There are 1,200 or so 
new reports every year and 2,400 or so that are updated. So we 
are not talking about confidential reports. We are not talking 
about the 3,100 confidential memoranda. We are not talking 
about the advice that they give your offices.
    We are only talking about the reports that are generally 
available to congressional offices and that Congress as a 
routine matter makes available to the public. And Kevin will 
talk about this more, but, you know, through committee reports; 
Member offices, of course, release them online, as well. And 
there are a number of services that make them available either 
for free or at cost.
    But there is a problem with the current circumstances that 
we have now, which is that the most recent reports are not, 
sort of, uniformly made available to the public. And you have a 
number of negative consequences that come from this.
    One is that, when the public looks at the report, or 
journalists or lobbyists or academics, they don't necessarily 
know that they have the most recent report, which means that 
they don't know that they have the most recent data, so 
sometimes questions that your office will get or news reports 
or otherwise will rely on older information, and this is a 
problem.
    You also don't know whether you actually have an authentic 
report, since the Congress itself published some of them, but 
many of them, since there is no sort of central place for them, 
you don't know if someone has tampered with it. You don't know 
if there is something that is different.
    And so it is important to have, sort of, access to these 
things generally. And, sort of, this public mission is 
something that Congress has embraced, that this committee has 
embraced. Josh talked a little bit about the Bulk Data Task 
Force, that you guys are making available all the bill 
summaries and bill text; you are making available roll call 
votes on the floor; this, of course, is being live-streamed. 
There is a lot of information about the legislative process 
that is made available to the public. The Law Library of 
Congress publishes CRS-like reports, and, of course, you can 
get GAO and CBO reports. So this is not a new thing for this 
body. We are asking simply that it be a placed in the context 
of CRS reports.
    And I should just say, you know, maybe parenthetically, 
that the House itself, as part of its 114th and 115th rules 
package, has embraced the idea of expanding public access to 
legislative data, access to this type of information as data; 
that the Senate has had a policy since 1998 of encouraging 
Members and committees to release the reports online, so this 
is not exactly new.
    And there was an effort in the late 1990s that was only 
discontinued, I think, last year to make a service available to 
Member offices where they could put the reports on their sites, 
as well, that the Appropriations Committee had supported, but 
since no Members actually knew that it existed, eventually I 
think it was sort of discontinued.
    You know, there are issues that have often raised over time 
about public access to the reports. The testimony goes into all 
the different questions that have been raised. I am not going 
to rehash them here unless folks want to go into it. But I 
should say that there is bipartisan legislation from Lance and 
Quigley and Senators McCain and Leahy that address all these 
concerns.
    The final point that I want to make is about cost. So my 
organization is one of many that republishes the reports. As of 
today, we had 8,671 CRS reports on our website. It cost us 
$4,000 to build the website and to make it available. And we 
have made our code available online, so anybody else can do it 
at basically no cost. So when we are talking about the expense 
of doing this, it is not particularly hard.
    And we are not just republishing them; we are redacting the 
names, the email addresses, and the phone numbers from all the 
staff, from all the reports. We are adding disclaimer language 
around copyright. We are indicating and describing that the 
reports are intended for Congress and that, as a product for 
Congress, are geared towards that audience. And, we continue to 
update as we receive the reports from congressional offices.
    So, with that, I am happy to really talk about any of these 
matters or questions that folks might have. I want to say both 
to the chair and ranking member, we have had great meetings 
with your offices. Your staff have been very kind to take time 
to talk with us about all these things, so thank you.
    [The prepared statement follows:]
    
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
    
    Mr. Yoder. Mr. Kosar.
    Mr. Kosar. Thank you. And bless you for doing this open 
hearing. I know you guys are extremely busy, so to take the 
time is really great.
    Thank you for permitting me to testify today. My name is 
Kevin Kosar. I am the Vice President of Policy at the R Street 
Institute, a free-market think tank here in Washington, D.C.
    I also co-direct the Legislative Branch Capacity Working 
Group, a bipartisan gathering of experts and congressional 
staff who meet monthly on Capitol Hill to discuss ways to 
reform Congress to meet the demands of the 21st century. Our 
aim, as we like to say, is to make Congress great again.
    Mr. Ryan. Are we not already great? I mean, what is the 
problem?
    Mr. Kosar. Well, I think so, but there is this public 
opinion problem.
    Mr. Ryan. I have seen those. I have seen those.
    Mr. Kosar. So I am here today to encourage the committee to 
make public access to CRS reports more equitable. In short, 
lobbyists and others within the Beltway can get copies of CRS 
reports much more easily than the average member of the public. 
This is not fair, as it is the public whose tax dollars support 
CRS.
    So, in my limited time, I am going to make two points which 
I didn't make in my written testimony. I figured I wouldn't 
want to be redundant.
    First, no harm can come of making the reports more 
equitably available to the public.
    I spent more than a decade working at CRS as an analyst 
doing nonpartisan research for Congress and as an acting 
research manager overseeing the work of 10 of our analysts. I 
love the agency, as do the other former and retired CRS 
employees who signed on to the letter. We have 570 years of 
collective experience at the agency. Some of those folks 
started back in the early 1970s. I only left in 2014. We are 
all convinced that this is the right thing to do and that no 
harm will come of it.
    And the second point I would like to make is that Congress 
has always made CRS reports available to the public, but it has 
been in an ad hoc way, and it has become an increasingly 
disorganized way.
    For example, I have a copy of a 1979 CRS annual report 
which lists dozens of CRS documents that were published by 
Congress as public documents in the form of hearings--they were 
included in the hearings--as committee prints introduced into 
the congressional record. And when those are printed as those 
documents, as you all know, they go out all over America, to 
the Federal depository libraries and elsewhere. So Congress has 
been doing this for decades. It is not as if CRS reports have 
been secret.
    When the internet arrived roughly 20 years ago and hit 
Capitol Hill, we still had Congress releasing even more CRS 
reports to the public. Committees, individual Members, various 
offices within the two chambers put the reports online.
    Congressional staff frequently give them out to interest 
groups, constituents, lobbyists, people who ask for them, who 
know to ask for them, which explains why, if you go online, you 
will find thousands upon thousands of CRS reports scattered all 
over the place, some on government websites, some on private 
websites. They are everywhere.
    So, to conclude, what I and other former CRS employees are 
advocating is that Congress continue to publish the reports but 
to do so more consistently. By my light, it makes sense to 
have, say, GPO do it, since its job is to make authenticated 
government documents accessible to the public, and GPO has 
previously published CRS reports, like ``The Evolving 
Congress,'' which was a very thick volume on Congress that it 
published in late 2014, and over the decades it has published 
CRS reports in the form of committee prints and the documents I 
previously mentioned.
    Nobody here is advocating that CRS's mission or fundamental 
nature be changed in any way, shape, or form. Nobody is asking 
CRS even to have to really lift a finger. All we are saying is 
that, Congress, you have been publishing the reports; why not 
publish all of them, and to do so in one central place and on a 
consistent basis? And we think it would be a great service to 
the public.
    And, with that, thank you.
    [The prepared statement follows:]
    
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
     
    Mr. Yoder. Gentlemen, thank you for your testimony this 
morning.
    I think, you know, this committee remains committed to 
finding ways to open up transparency and make the work of 
Congress more accessible to the voters and constituents that 
want to know what is happening here. And as I think Mr. Schuman 
mentioned, or maybe it was Mr. Tauberer, that they want to know 
the votes, the debate, they want to know what is happening, 
because they want to be informed. They also want to be able to 
hold their elected officials accountable.
    So I think the testimony you are bringing today is 
important to me. I know it is important to Mr. Ryan, as well, 
and the whole committee. So we thank you for being here.
    I will deal with the CRS issue maybe with my first question 
for the folks. And, Josh, if you have thoughts on it, you can 
jump in as well. This issue regarding CRS reports has been 
kicked around for a number of years. I think the committee has 
voted on it. Certainly, you mentioned, there is legislation to 
do this. And I think we have heard a couple of different 
objections, and maybe you could address those objections, you 
know, straight on.
    I think one of them has been that the widespread 
dissemination of these reports might increase pressure on CRS 
as groups or lobbyists try to influence the research and 
analysis that comes out. So knowing the impact of this research 
and knowing that a report is coming out, it could, some have 
argued, lead to putting more pressure on the CRS workers 
themselves, might influence their work.
    And I guess as a followup to that question, would you see a 
need for the CRS to establish a public inquiries office to 
manage an increase in outside questions, opinions, and 
influences? Or do you see this issue really as something that 
is a nonissue, that wouldn't actually happen?
    Mr. Kosar. Well, as we all know, the most politically 
interested and active individuals are in this town, for the 
most part. They are the ones who come and lobby, and they 
advocate, et cetera, et cetera. So they have had access to CRS 
reports for years, and I can tell you, my experience, they have 
no effect on the research that CRS does.
    I should also mention that it was about 5, 6 years ago that 
WikiLeaks dumped something like 6,700 CRS reports. It was a big 
to-do. The Washington Post ran a story. You would think that 
this dump would all of a sudden have created some sort of 
public pressures on CRS. I was there. Nothing happened. I was 
worried. Other people who worked there were kind of like, 
``Wow, what is going to happen? Are people going to start 
calling us up?'' No. It didn't happen.
    So I have just seen no empirical basis for this anxiety. 
Especially if we redact the information so that people are not 
contacting analysts directly, that would even further diminish. 
But, like I said, there are tens of thousands of CRS reports 
out there already with analyst contact information. My old 
phone number is on reports that are floating around out there 
from 5 years ago, and it has just not been a problem.
    Mr. Schuman. Yeah, that is right.
    I would just add, I mean, the ship has sailed. You can go 
and buy reports online for 20 bucks a pop from services that 
have been making them available for 15 or 20 years. So if there 
were going to be people who are most interested in the contents 
of the reports going to be the Members of Congress on either 
side of the issue, who, of course, have great incentive to 
pressure CRS if they had concerns, and it is going to be the 
lobbyists. And those folks are already the ones who are in the 
mix. So broader public access is not going to change those 
circumstances.
    And to the extent that there is a concern that people are 
going to start emailing the folks at CRS, that would already 
have been happening, but we can take off the email addresses 
and the phone numbers. We have demonstrated that it is really 
fairly easy to do that, and that would solve the problem.
    The second question had to do with a public inquiries 
office. So there are, sort of, two pieces here. One is that it 
is not entirely accurate to say that CRS doesn't make reports 
available to folks outside of CRS. If you are a journalist and 
you know the report number, current CRS policy is that they 
will provide the report to you. If you are in the executive 
branch or in the judiciary, they often will provide it to you 
if you ask for it. So, you know, they are already responding to 
some sort of level of inquiries.
    But that being said, there should not be a public inquiries 
office. All the reports should have language on it that says 
that the reports are prepared for Congress, that they are done 
you could take the statutory language and sort of stick it in 
there, and that would be sufficient. I don't think that if 
people have questions about CRS, they should talk to their 
Members, which is what they do now.
    Mr. Kosar. I just wanted to add, it would make CRS's job a 
lot easier dealing with the reporters who come, the interest 
groups who sometimes ring up when they see a report, and 
members of the public who occasionally find the agency, it 
would be so much easier if all you had to do is respond, ``All 
reports that CRS has published have been made available by 
Congress through gpo.gov/crs,'' or something like that. It 
would make their lives a lot easier.
    Instead, right now, you have this kind of fish-not-fowl 
sort of situation where, you know, I am sitting in my office at 
CRS years ago and somebody would call up from the media and 
say, ``I have a 2011 report you wrote about the Postal Service. 
Is there a more recent version? I am going to write a story 
about it.'' ``Uh, yes, there is a more recent version, but I 
can't tell you.''
    You know, people in the academic community who reach out to 
CRS, experts, they can't get copies of the report, not without 
an individual having to go through this baroque process of 
responding, going through management and calculating the odds 
of whether this could have negative consequences and if this is 
in the interest of the Congress to release it.
    It would make life so much easier if CRS could probably 
staff down their public affairs office to one person whose job 
would be to say, ``Go to gpo.gov/crs.'' That would be it.
    Mr. Yoder. Okay.
    Mr. Ryan.
    Mr. Ryan. Well, their argument is they would have to beef 
up their public relations department in order to handle the 
incoming calls on this issue. And you are saying, no, go to the 
website.
    Mr. Kosar. Uh-huh. ``It is a publicly facing website. All 
reports that Congress has permitted to be available are 
there.'' Hang up phone.
    Mr. Ryan. What is your response with regard to the 
protections that they would have through speech and debate? 
Maybe their research, would that be--in your outline, would 
that be protected? Would they be protected?
    Mr. Schuman. So, a couple things. One is that reports that 
are being released, the Senate has this longstanding policy of 
encouraging Members and committees to release reports to the 
public. So, you know, if there are concerns about public 
availability of CRS reports and it is already a longstanding 
policy to release them, making them available on a general 
basis wouldn't change the circumstances.
    And what we would advocate is that you would go and have 
GPO publish them all. So, instead of having most of them, you 
would have all of them. It is not going to change the level of 
speech or debate protection, because speech or debate is really 
about my advice to you. I am an attorney in the American law 
division; you call me asking for legal advice, confidential 
advice. I don't talk about it to anybody. Right? You can 
release it if you so choose. I do not. General distribution 
reports that are available to the thousands of people on 
Capitol Hill, that are routinely released by Member offices to 
the public, it is a different kind of issue.
    And when Stan Brand, who is the former Counsel for the 
House of Representatives, looked at this in 1998 when we first 
started debating this issue a long time ago, he thought that 
the arguments around speech or debate were not strong and that, 
to the extent that there are concerns, which he didn't think 
were valid, but to the extent that there were concerns, you 
could simply add disclaimer language saying that, just because 
we are releasing these reports, it doesn't mean that we are 
waiving Speech or Debate Clause protection. You can put that 
into the law.
    So, to the extent that that is an issue, you can 
legislatively solve it in that kind of way. That goes way 
beyond what you would need to do, but if there was that 
concern, that is an easy way of addressing it.
    Mr. Ryan. You talked about the WikiLeaks dump. In the dump, 
were the names of the Members of Congress who requested the 
reports in there, or was it just the name of the analysts and 
researchers?
    Mr. Kosar. The only thing that appeared was the name of the 
analyst who had written the report.
    And I should note that the vast majority of reports that 
get written by CRS are done at the analysts' instigation. When 
Members request written research on a specific topic, they 
typically request that it be delivered in the form of a 
confidential memo--that way, they can consume it and decide 
what to do with the information--or in the form of an email, or 
if they want it in person, it would be delivered that way.
    So there is no way--I mean, all the CRS reports that are 
floating around out there, there is no indication in any of 
them as to whether they were asked for by Congress or any 
particular Member. There is no identifiable information 
whatsoever in them.
    Mr. Ryan. Go ahead.
    Mr. Schuman. I was just going to say, there is a 
nomenclature problem. So ``CRS reports,'' on one hand, could 
refer to all of CRS's products, including the confidential 
stuff, but that is not what we are talking about here. We are 
only talking about the reports that are generally distributed 
to all congressional offices at once.
    And, as Kevin said, like, the vast majority of these 
reports are done at the initiation of the employee, they are 
not done in response to a request. So there is going to be no 
information about who requested it, because most of the time, 
nobody has requested it in the first place.
    So the reports are the general distribution ones. The 
memoranda are the ones that are just for, like, a particular 
office. And it is the memoranda that are confidential.
    CRS usually talks about them all as products, which is even 
more confusing. But the easiest way to think of it is, like, 
the reports are the general distribution ones and the memoranda 
are the ones that are confidential advice, if that helps.
    Mr. Kosar. I should add that the reports are only a very, 
very small percentage of the total written products and 
research load that CRS does. So, again, this is not 
fundamentally changing the nature or affecting the nature of 
the agency in any way, shape, or form. Certainly, nobody would 
advocate making available confidential memoranda or anything 
like that. It is just the reports which are already out there.
    Mr. Ryan. Okay. That answers my questions. Our charge here 
is to, in some ways, protect Members who are kicking around 
ideas, learning. And we don't want stuff to show up on a 
commercial or something that I was thinking about, not that I 
was necessarily advocating, and to in any way inhibit that 
process of learning and educating and trying to see both sides 
of the issue. We need more than that. So I am glad you have 
said what you said about----
    Mr. Schuman. Yeah. And, I mean, I could speak for 42 
organizations that signed on, and Kevin can talk to the 25, we 
would oppose--anything that would go after the confidential 
advice that helps you guys think through this process, we would 
actively oppose it. We would be banging down your door, saying, 
this is a bad idea. We would not in any way want that 
information to be available, except in circumstances where the 
Member offices themselves choose to release it, which they 
sometimes do. But that should be your option. It shouldn't be 
anybody else's.
    Mr. Ryan. I appreciate that.
    I yield back.
    Mr. Yoder. I think, to Mr. Ryan's point, I think there have 
just been concerns raised it would have a chilling effect, and 
the Members would quit requesting research because they might 
get targeted for the research they requested. So I appreciate 
Tim's questions on that.
    Mr. Moolenaar. I am good.
    Mr. Yoder. Mr. Moolenaar is good.
    Gentlemen, do you have anything else to add?
    Mr. Schuman. Just thank you.
    Mr. Yoder. Joshua, we didn't get a chance to ask you a 
question. Let me ask you, what is your top priority? If there 
is one thing we would do this Congress on the things that you 
outlined, what should we focus on?
    Mr. Tauberer. The next thing is floor amendments. There is 
very little good data on what amendments are being considered, 
what the text of those amendments are. So if you go to 
congress.gov, for instance, there is not very good information 
there, and it is hard for me to get that onto my website.
    Mr. Yoder. Okay.
    Gentlemen, thank you for your testimony today. We really 
appreciate it.
    Mr. Schuman. Thank you very much.
    Mr. Yoder. We look forward to working with you on a number 
of these issues.
    Mr. Ryan. Thanks.
                              ----------                              --
--------


                 LIBRARY OF CONGRESS, COPYRIGHT OFFICE


                                WITNESS

KEITH KUPFERSCHMID, CHIEF EXECUTIVE OFFICER, COPYRIGHT ALLIANCE
    Mr. Yoder. Our final witness this morning is Keith 
Kupferschmid, the CEO of Copyright Alliance, who is going to 
testify this morning regarding the Copyright Office, the 
modernization of that.
    Sir, you have 5 minutes to testify before the committee, 
and then we will have some questions for you. So welcome, and 
thank you.
    Mr. Kupferschmid. Okay. Thank you.
    Chairman Yoder, Ranking Member Ryan, Congressman Moolenaar, 
thank you for the opportunity to testify before you here today 
to discuss the funding and IT systems of the U.S. Copyright 
Office.
    I am Keith Kupferschmid. I am the CEO of the Copyright 
Alliance. The Copyright Alliance is the unified voice of the 
copyright community. We represent the copyright interests of 
over 1.8 million individual creators as well as over 13,000 
organizations across a spectrum of copyright disciplines.
    The individual creators and organizations that we represent 
rely on copyright law to protect their creativity, their 
efforts, and their investments in the creation and distribution 
of new copyrighted works for the public to enjoy.
    Core copyright industries add $1.2 trillion to the U.S. 
economy and employ 5.5 million American workers. The Copyright 
Office plays a pivotal role in that copyright ecosystem by 
registering creators' works and recording documents pertaining 
to those works.
    It is essential that the Copyright Office be able to 
rapidly adapt to ensure that it is able to offer the tools and 
resources that all the users of the office's service demand and 
that Congress have a direct line of communication with the 
Copyright Office so the office is answerable immediately and 
directly to Members and their staff. Unfortunately, neither of 
those exist today.
    Many of the challenges the Copyright Office faces can be 
traced back to the fact that the Copyright Office is within and 
under the direction and supervision of the Library of Congress. 
As a department of the Library, the office is obligated to use 
the Library's IT systems. The office does not have its own IT 
infrastructure. It also lacks authority over its own budget and 
staffing because of its current structure.
    For many years, the Copyright Office has sought to 
modernize but has been unable to do so because its priorities 
are subordinate to those of the Library's. If the Copyright 
Office is to successfully modernize, it is essential that it be 
given autonomy over its budget, over its staff, and over its IT 
to carry out its mission going forward.
    Greater autonomy over IT, budget, and staffing recognizes 
the difference between the mission and infrastructure of the 
Library and the Copyright Office while retaining the historical 
connection between the Library and the office with regard to 
deposit of registered works.
    Greater autonomy will enable the Copyright Office to 
implement a more modern, more robust copyright registration and 
recordation system that will facilitate additional business 
investment and entrepreneurship, leading to long-term economic 
growth and cultural benefits.
    In 2015, the House Committee on Appropriations directed the 
Register of Copyrights to develop a detailed plan on necessary 
IT upgrades, with a cost estimate, that are required for a 
21st-century copyright organization. Last February, the 
Copyright Office met this obligation by providing the committee 
with a provisional IT plan, which provided for a lean, nimble, 
results-driven, and future-focused cloud-based system that 
could be implemented within 5 years at a projected cost of $165 
million.
    We thank the appropriators for their support of the 
Copyright Office efforts to implement its own IT plan. And we 
also appreciate the language in the draft explanatory language 
accompanying the omnibus spending bill that states with regard 
to copyright-specific IT systems and larger copyright issues, 
``It is expected that the Library continue to defer to the 
expertise of the Register of Copyrights.''
    We also strongly support funding of the office through 
increased appropriations. Appropriations are an important and 
proper source for funding for modernization since the public is 
the ultimate beneficiary of copyright information retained and 
disseminated by the office and, by extension, of a modernized 
Copyright Office.
    Raising fees should be the last option. Since copyright 
registration and recordation are voluntary, additional costs or 
barriers will serve as a disincentive to participate in the 
system. To the extent any fee increase is warranted as a means 
of increasing the office's budget, that increase should be a 
shared responsibility that is borne by all users of the 
Copyright Office, be in conjunction with improvement in 
existing services and the addition of new services, and be 
invested directly into the copyright system infrastructure.
    We also recommend that the Copyright Office be given the 
necessary authority to build a reserve account from the user 
fees it collects to help the office deal with government 
shutdowns, other emergencies, and fluctuations in incoming fee 
receipts.
    We also support the Copyright Office having access to its 
funds over multiple years through a multiyear budget cycle or a 
revolving fund.
    And I want to thank the subcommittee for its interest and 
support in modernizing the Copyright Office, and I would be 
happy to answer any questions.
    [The prepared statement follows:]
    
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
       
    Mr. Yoder. Keith, thanks for your testimony this morning. 
And I think we share your interest in modernizing the Copyright 
Office and making it more useful for the creative artists that 
are in this country that utilize its services. Probably most 
Americans don't know that it is in the Library of Congress, and 
I am sure that dates back to long before any of our time.
    And, you know, clearly, Congress agrees in terms of the 
modernization. I think there is a $10 million increase in total 
budget authority in the 2017 omnibus bill that we are looking 
at this week. And it increases flexibility using offsetting 
receipts and prior-year funding for modernization. So, to your 
point, I think we are headed in the right direction.
    I guess my question for you would be, in terms of your 
members and those who use the Copyright Office, why having a 
separate entity would allow it to modernize quicker. You might 
just kind of dive into really the crux of that issue there, you 
know, having it under the Library of Congress versus having its 
own entity. Why is that such a significant difference for your 
members in particular?
    Mr. Kupferschmid. I don't know that that is such a 
significant difference.
    Mr. Yoder. Okay.
    Mr. Kupferschmid. We would like to see the Copyright Office 
retained within the legislative branch, whether that is as an 
independent agency or within the Library itself.
    Mr. Yoder. Okay.
    Mr. Kupferschmid. What we ultimately want to see is greater 
autonomy, right? The Copyright Office needs to have autonomy 
and authority over its IT systems, over its budget, and over 
its staffing.
    With regard to the IT system in particular, what the 
Library needs in terms of an IT system is very different than 
what the Copyright Office would need. The Copyright Office is 
dealing with things like financial transactions, making sure 
hard copies of deposits are associated with applications. It 
needs more robust security, things like that that, frankly, 
necessarily, aren't in the interests of the Library.
    And, therefore, what we are pushing for and what the 
Copyright Office needs is greater autonomy, especially with 
regard to IT but also with budget and staffing.
    Mr. Yoder. And could you describe for the committee how 
that autonomy, in whatever form it might occur, whether it is 
an autonomous entity or just more autonomous within the Library 
of Congress, can you describe how that would change the 
interactions between those seeking, you know, copyrights, the 
artists, the folks you represent? What is the practical reality 
of those autonomous changes?
    Mr. Kupferschmid. I mean, so let me give an example, and 
then I will talk further about your question, because I think 
my example will bear this out, that modernization isn't just 
helping the copyright creators and copyright owners, but it 
also is in the best interests of the public, entrepreneurs, and 
others, and what have you.
    If you look at the Patent and Trademark Office, for 
instance, they have an office just like the Copyright Office 
has, where you can record transfers of ownership. So if I have 
a patent and I transfer ownership in that patent to you, I can 
record that at the Patent and Trademark Office. Similarly, if I 
have a copyright and I want to transfer that ownership in that 
copyright, I can record that at the Copyright Office as well.
    Well, the Patent and Trademark Office, because it has a 
very good IT system, is able to process about a half-million of 
those recordations on an annual basis. And they have about 10 
to 12 people, I believe it is, running that small office of 
recordation. The Copyright Office, on the other hand, has about 
the same amount of people--I think it is about 12 full-time 
employees--but yet they are only able to process 11,000 of 
those recordations. And the answer comes down to IT.
    Now, what the Patent and Trademark Office is able to do 
with those recordations, they are able to process them within 
24 to 48 hours and have them up online for people to see, the 
public to see, right? And entrepreneurs would say, hey, I want 
to license this, and contact the person. The Copyright Office, 
it takes them about 18 months to process and make it available. 
That is a long, long lead time, okay?
    So this benefits not only the individual creators, but it 
would be in the best interests of, certainly, small creators 
but also just the public and anyone who has an interest in 
copyright and uses the copyright system, I think.
    So, in terms of, why that is important, I think you ought 
to also look at the Copyright Office's interface. There can be 
vast improvements in the interface to make the process of 
registration more simplified, more efficient, more effective. 
And hopefully that will lead to perhaps more registrations. 
People have shown frustration with the registration system, and 
the last thing we want to do is put a roadblock or an obstacle 
in front of creators who want to register a possible work with 
the Copyright Office. And so I think that is what improvement 
in the IT system would do.
    Mr. Yoder. Okay.
    Mr. Ryan.
    Mr. Ryan. So just so I understand this, so you are sharing 
the IT with the Library. And there are how many people in the 
IT department that you----
    Mr. Kupferschmid. Yeah, I don't know the answer to that. I 
know that the Copyright Office is subordinate and must rely on 
the IT system. I am not sure of this fact, but I do not believe 
that the Copyright Office has their own IT system. I believe 
they rely entirely on the Library's IT system.
    Mr. Ryan. So we would have to pull out X number of IT 
workers or add on a number of IT workers to help make this 
happen, to give you the autonomy that you need.
    Mr. Kupferschmid. Yeah, like I said, I would have to look 
into that, because right now there may be some employees that 
work with the Library at the Copyright Office. So I would have 
to look into that and get back to you.
    Mr. Ryan. So one of the issues, too, is that there is money 
that is being saved, right, if you are sharing services.
    Mr. Kupferschmid. Yeah.
    Mr. Ryan. Is there any way to strike the balance between 
the current system and giving you the autonomy you need, 
knowing that we are protecting the taxpayer money, too, here--
--
    Mr. Kupferschmid. Uh-huh.
    Mr. Ryan [continuing]. By sharing the services?
    Mr. Kupferschmid. I think there absolutely are. I mean, we 
support shared services. Ultimately, though, this should fall 
on the Copyright Office, and we should defer to the Copyright 
Office, this expertise in assessment of where that makes sense, 
where it makes sense to share services.
    Let's say, for instance, in HR, that may make a lot of 
sense, for it to share an IT system and share services with the 
Library, but in terms of the actual, sort of, day-to-day 
activities of the Copyright Office of registration and 
recordation, it likely doesn't make a lot of sense.
    That doesn't also mean that there shouldn't be some level 
of shared services, but probably not with the Library. Maybe 
there are other government agencies out there that it makes 
sense to share those services with.
    So we are not opposed to shared services at all. We just 
think, at the end of the day, that that should be, sort of, the 
Copyright Office's decision, as to whether that makes sense 
and, if so, how that makes sense.
    And the other thing I would be concerned about if you are 
talking about shared services with the Library of Congress, 
that, sort of, the Library not dictate the terms for those 
shared services and not charge the Copyright Office. Because, 
at the end of the day, that might be sort of a de facto 
diversion of fees, right? There might be a budget set out for 
the Copyright Office, but then these shared services would get 
diverted. And the Copyright Office has a fiduciary duty to its 
users, to those creators who pay for registrations and pay for 
the services of the Copyright Office.
    Mr. Ryan. How much are the registration fees?
    Mr. Kupferschmid. I know the registration fees take up 
about two-thirds of the Copyright Office's budget, and so I 
think that is around $43 million or so. The number is here 
someplace, but I think it is about $43 million or so. So about 
two-thirds, maybe a little bit more, of the fees that are 
generated by the Copyright Office are used for its budget.
    And the hope is that, as you modernize the office, they 
will be able to provide more services and be able to charge 
fees for those services and be able to--while there will never 
be--I don't think there will ever be a time where they can be 
fully fee-funded, certainly the Copyright Office could 
hopefully maybe generate more money to put back into 
modernization.
    Mr. Ryan. And how would that happen again? By quickly 
getting things up online?
    Mr. Kupferschmid. Yeah. So let me give an example. I will 
go back to the example I mentioned with the PTO and the 
recordation system.
    The Patent and Trademark Office was able to--they had a fee 
that they were charging for this recordation. They were able to 
zero that out. They don't charge people to file their 
recordations anymore. Well, you could still do that. If you are 
at the Copyright Office and, like I said, to generate some 
money, if all of a sudden you have an IT system that works and 
there is an incentive for people to record those transfers, 
then that makes sense.
    But perhaps a better example would be if you are talking 
about the ownership database. You know, the Copyright Office 
has this ownership database where they collect information that 
is on the registration form today. And that information is 
very, very difficult to access, not only from a time 
perspective, a timeline perspective, but the example, if you 
were to go on to the Copyright Office website and search, for 
instance, ``The Godfather,'' looking for the Mario Puzo book or 
perhaps the movie, you would probably flip through about three 
or four pages before you found it. You would find all these 
other references. And that comes down to the IT system not 
being what it should be.
    So, at the end of the day, if you are able to improve the 
IT system, I think what you will be able to do is perhaps 
create new industries, spur the economy, create new jobs, 
create more licensing opportunities. I think there is a great 
opportunity here if the office is able to modernize, especially 
its IT system.
    Mr. Ryan. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoder. Mr. Moolenaar.
    Mr. Moolenaar. Thank you.
    Thank you for your testimony. And I just wanted to follow 
up a little bit more on this topic you have been discussing. 
And you made the comment, fees should be the last resort. And 
you talked a little bit about trademarks and patents.
    Mr. Kupferschmid. Uh-huh.
    Mr. Moolenaar. And what strikes me--and, you know, other 
ideas come to mind, like an FDA approval of something, where 
you have some new product that someone wants to protect, and it 
seems that the user-fee idea would be the most reasonable for 
that rather than a general appropriation. And I am just curious 
as to why that is different in the case of copyright.
    Mr. Kupferschmid. Yeah. I mean, that is a--thank you very 
much for the question. That is a fabulous question.
    It is very different because copyright owners get rights or 
creators get rights in their creations the moment that work is 
created and fixed in a tangible medium. That is different than 
patents and different than trademarks.
    In patents, for instance, you can invent something, but you 
have no rights unless you go to the Patent and Trademark 
Office, you apply for, and you receive a patent.
    With copyrights, you do not need to register, and you still 
have rights. There are certain benefits to registration, but 
you still get rights in your creation if you don't register. 
And that is an international obligation. So pretty much the 
rest of the world abides by those same rules that don't require 
registration.
    Mr. Moolenaar. And where were those rights established? I 
mean, where did that become that unique right for copyrights?
    Mr. Kupferschmid. I mean, that is going back to the 1976 
act and, more significantly, like you said, the Berne 
Convention, which is an international convention--I think it is 
about over 200 countries--that basically said you cannot attach 
a formality to the granting of these copyright rights. And a 
formality would be registering with the U.S. Copyright Office.
    So what happens is, if you were to increase the fee, that 
would work as an obstacle to people actually registering, and 
it would really come back and bite you, right? So if you end up 
increasing the fee so that the Copyright Office has more money 
to work with, people don't register has often, so you actually 
have less money, perhaps, to work with.
    And that is especially true when you are talking about the 
small creators that, for instance, the Copyright Alliance 
represents, the small individual photographer, you know, the 
individual software coder or songwriter, who really doesn't 
have a lot of resources, and they are trying to make that, you 
know, decision, do I register, do I not?
    And there are certainly some benefits to registration, but 
if an increase in the fees starts to become a roadblock--and it 
is a little bit right now, to be honest, we have heard from our 
members. If it becomes more of a roadblock to registration, 
that is going to come back and haunt us all, I think.
    Mr. Moolenaar. And what are the benefits of registration? 
If it is already a right that is protected, why would I 
register?
    Mr. Kupferschmid. Well, so, number one, I mean, in order to 
get into Federal court, so if you wanted to actually sue 
somebody here in the United States, you would have to register 
beforehand in order to get statutory damages. So you can still 
get actual damages, but in order to get something called 
statutory damages and attorney's fees, you would have to 
register ahead of time.
    There are also several other benefits, including, 
obviously, having your name on a piece of paper, ``Look, I own 
this copyright.'' But at the end of the day, you have creators 
who are weighing those, especially smaller creators who, you 
know, as a totally separate issue, have a very difficult time 
getting to Federal court, because they can't afford Federal 
court--that that becomes a big issue. You think of those 
benefits, are those benefits worth it, and they make a cost-
benefit analysis.
    So if you change that calculus by increasing the fees, 
there is a very good chance that, you know, you might get a 
blowback and just not get as many registrations and, therefore, 
not get as much money coming into the Copyright Office.
    Mr. Moolenaar. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoder. Thank you.
    Anything else?
    Keith, thanks for your testimony this morning.
    Mr. Kupferschmid. Thank you.
    Mr. Yoder. We look forward to discussing this with you 
further.
    The only thing I would ask is, do you have a specific 
proposal that you would like the committee to look at related 
to how you would see this all laying out?
    Mr. Kupferschmid. In terms of?
    Mr. Yoder. In terms of creating the autonomy.
    Mr. Kupferschmid. Yeah, we can provide that. I mean, we 
have information up on our website, and we have also filed 
comment with the House Judiciary Committee and testified 
before. So we are happy to provide that information.
    Mr. Yoder. If you might meet with committee staff about how 
you sort of see this functioning in the best way, and then we 
can sort of look at a proposal that gives us maybe something 
tangible to weigh.
    Mr. Kupferschmid. Yeah. Okay.
    Mr. Yoder. I am sure you have it, and you can send it over. 
Appreciate it.
    Mr. Kupferschmid. Okay. Thank you.
    Mr. Yoder. And, with that, Keith, thanks for your 
testimony.
    The committee stands in recess until Wednesday, May 17, at 
10:00 a.m., when we will hear from the House of Representatives 
concerning the fiscal year 2018 budget request.
    [Testimony for the record follows:]
    
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    
                                           Wednesday, May 17, 2017.

                     U.S. HOUSE OF REPRESENTATIVES

                               WITNESSES

HON. KAREN L. HAAS, CLERK, HOUSE OF REPRESENTATIVES
HON. PAUL D. IRVING, SERGEANT AT ARMS, HOUSE OF REPRESENTATIVES
HON. PHILIP G. KIKO, CHIEF ADMINISTRATIVE OFFICER, HOUSE OF 
    REPRESENTATIVES

                  Opening Statement of Chairman Yoder

    Mr. Yoder. The hearing is now called to order. Welcome, 
everybody. I appreciate your attendance at today's hearing. We 
have a full house today, which shows the importance and value 
that we place on the work of the Subcommittee in making smart 
determinations about funding and operations of the House and 
Legislative Branch.
    Before we move on to today's business, I want to recognize 
the absence of our colleague and committee member Congressman 
Dan Newhouse from Washington. We are all saddened by the news 
of his wife Carol's passing. Dan is a valued member of this 
Committee, and we wish him and his family well. I would ask 
that we have just a brief moment of silence for our friend and 
colleague and his family for their loss.
    Today, we begin our budget justification hearings for 
Fiscal Year 2018. And, I would like to welcome my esteemed 
colleague from Ohio, Ranking Member Ryan, along with other 
members of the Subcommittee, as we start the process of 
reviewing, considering, and ultimately producing a legislative 
branch appropriation bill that satisfies the requirements of 
our agencies while at the same time balancing the fiscal 
realities of the current budget environment.
    I know difficult decisions will need to be made and not 
every increase will be able to be accommodated, but it is our 
job to scrutinize the requests presented to us. And, I look 
forward to working with each member of the Subcommittee in 
doing so.
    We will start this morning with considering the House of 
Representatives' Fiscal Year 2018 Request. And, I am excited to 
welcome the officers of the House to testify today: the 
Honorable Karen Haas, Clerk of the House; the Honorable Paul 
Irving, Sergeant at Arms; and the Honorable Phil Kiko, Chief 
Administrative Officer. I would like to thank each of them for 
their service to our country and to the Legislative Branch.
    The Fiscal Year 2018 Budget Request for the House agencies 
is $1.223 billion, which is a 2.87-percent increase, or $34.1 
million above currently enacted levels. Much of the work each 
of these officers does and their offices do on a daily basis is 
behind the scenes and, when done seamlessly, often goes 
unnoticed.
    Collectively, they are responsible for the services that 
truly keep this place running, the IT network that allows us 
all to communicate, the financial system that pays our bills 
and meets our payroll, the voting system that helps 
authenticate the legislative process, the issuance of IDs and 
parking permits, just to name a few.
    Without the services of these House officers, we could not 
carry out our constitutional duties as Members of Congress. 
Although the three of you probably like the fact that most of 
your operations are behind the scenes and go unnoticed, I want 
to take a moment to recognize the amazing work your 
organizations do and to thank the dedicated staff in each of 
your organizations. Thank you very much.
    I look forward to working with each of you on the 
challenges facing us in Fiscal Year 2018.
    And, with that, I would like to yield to Ranking Member 
Ryan for his opening statement.

                Opening Statement of Ranking Member Ryan

    Mr. Ryan. Thank you, Mr. Chairman.
    And, thank you to our witnesses for being here today to 
discuss the House budget. We often call the House of 
Representatives the people's House, which says something 
important about this Chamber even if the phrase itself has 
become a cliche.
    The men and women of our districts send us to Washington, 
DC, to be their voices and not to lose touch with what is going 
on at home. They expect us to use our experience and resources 
to make their lives better.
    When our constituents think of the Congress, they think of 
me or think of the Chairman or the Members of this Committee, 
but in reality, it takes 10,000 employees to make the world of 
the House of Representatives run smoothly every day. From the 
Capitol Police, who ensure the safety of students on school 
trips, to the men and women who keep the cafeteria running, to 
the congressional staff who advise Members on legislative 
action of the week, the House is the home of thousands of 
employees who are looking to this Committee to ensure Congress 
is operating as efficiently and as effectively as possible. 
Doing this takes serious financial investments into the House 
and into its people.
    We won't help anyone both here in DC or at home by 
shortchanging this important Chamber and nickel and diming our 
way and our ability to be effective. And let's be honest: I 
think there has been a lot of nickel and diming of ourselves in 
recent years. This has resulted in many valuable people leaving 
public service and many others not even considering coming to 
work here in response. And I think this is a shame, both as a 
Member of Congress and as a former congressional staffer. I can 
tell you that there is nothing more exciting than walking the 
halls of Congress and working to help the people of this great 
country and of our own individual congressional districts.
    However, we also owe our constituents scrutiny of every 
dollar we spend, and we need to make sure we are putting money 
into the things that will most benefit the people in our 
districts. And, the 2.87-percent increase that the House 
offices and officers are requesting for the next year isn't 
exactly a jaw-dropping figure, but we do have an obligation to 
ask the tough questions and see whether these requests reflect 
the right priorities.
    I will just close by also thanking the staff in all of the 
offices represented here today, the CAO, the Clerk, Sergeant at 
Arms and the rest, who had to turn around an updated budget 
request almost immediately after the current year's spending 
bill was signed into law.
    So I am glad we can get moving on next year's 
appropriations, Mr. Chairman, after taking 7 extra months this 
last year. So I thank everyone for being here, and I yield 
back.

                     Chairman Outlines Proceedings

    Mr. Yoder. Thank you, Mr. Ryan.
    Do any other members wish to make an opening statement?
    Seeing none, without any objection, the entire statements 
from each of you will be made part of the record. I ask that 
the Clerk, Sergeant at Arms, and Chief Administrative Officer 
summarize your remarks and highlight your efforts of the past 
year, and then we will open up the floor to questions.
    Who would like to begin?
    Karen, how about you?

           Clerk of the House Provides Abbreviated Testimony

    Ms. Haas. Okay. Thank you.
    Chairman Yoder, Ranking Member Ryan, and members of the 
Subcommittee, I appreciate the opportunity to testify before 
you regarding the operations of the Office of the Clerk and our 
Fiscal Year 2018 Budget Request. Thank you for providing the 
resources and guidance to allow us to continue to carry out our 
duties and responsibilities for the legislative and 
institutional operations of the House.

                      CLERK PROJECTS AND PROGRAMS

    I would like to provide you with a brief update on projects 
that were mentioned previously as well as share our priorities 
for the upcoming year. Technical development and testing 
continues on the voting station upgrades to the electronic 
voting system. New cabling was installed in August of 2016, and 
we hope to install the new voting boxes in August of 2017. We 
are on an extremely tight schedule and may need another recess 
period if all testing is not completed in time.
    Later this week, we will launch an alpha version of our new 
Clerk website to solicit feedback from internal users. We plan 
to release the website to the public next month. Between now 
and the end of the year, we will continue to work toward full 
deployment, which will enhance our effort to provide 
legislative data in a more transparent manner.
    For Fiscal Year 2018, we will continue the effort required 
under the Comparative Print Rule to develop a tool that 
illustrates changes a bill is making to current law and also 
document-to-document comparison between different versions of 
bill language. This was not a previously planned project but 
one that we welcome.
    With the additional resources that already have been 
provided, we expect to make the December 31st deadline for 
implementation of this first phase. We would like to expand the 
capabilities of this tool in a second phase and have requested 
additional funding to do so.

                    THE FY2018 CLERK BUDGET REQUEST

    Much of the increase to our Fiscal Year 2018 funding 
request is for the one-time purchase of equipment to allow us 
to transition to the Redstone Data Center. We are following the 
lead of the Chief Administrative Officer and expect to 
implement this move later this year.
    We have also requested additional funding for redesign of 
the biographical directory. This is a searchable directory of 
Members of Congress from 1774 to the present, and it is the 
oldest website hosted on Congress.gov.
    None of this work would be possible without the highly 
professional men and women that work in the Office of the 
Clerk. They strive everyday to provide innovative legislative 
services and to support the House while protecting the 
integrity and traditions of the institution.
    We provide training opportunities for staff to maintain 
current skills and to develop new skills. Because many of our 
positions are highly specialized, we prioritize cross-training 
our team in order to ensure that we can maintain a high level 
of service to the House during unplanned events and vacancies.
    Thank you for your support, and I am happy to answer any 
questions.
    [The Clerk of the House prepared statement follows:]
    
    
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    Mr. Yoder. Thank you.

                 Sergeant at Arms Abbreviated Testimony

    We will go on with our testimony, and then we will take all 
the questions at the end.
    So, Mr. Irving, how about you go next?
    Mr. Irving. Mr. Chairman, thank you. Good morning, Chairman 
Yoder, Ranking Member Ryan, and Members of the Committee. I 
appreciate the opportunity to appear before you to present the 
Sergeant at Arms' budget request for Fiscal Year 2018.
    Before beginning, I would like to say that it is an honor 
to have the opportunity to serve the House of Representatives, 
and I look forward to working with you and other Members on 
this Committee.

                 SERGEANT AT ARMS PROJECTS AND PROGRAMS

    The Office of the Sergeant at Arms is involved in a number 
of important new and ongoing projects, which I would like to 
highlight. With regard to Capitol campus security, the Garage 
Security Enhancement Project will address existing 
vulnerabilities and provide the greatly improved level of 
security in the House Office Buildings.
    We are actively working with the Capitol Police and the 
Architect of the Capitol to minimize the impact of this project 
on Members, staff, and others who work in the House Office 
Buildings. I appreciate the Committee's support in bringing the 
House Office Buildings into the secure perimeter.

                 FY2018 SERGEANT AT ARMS BUDGET REQUEST

    In addition to the garage security initiative, I have been 
prioritizing various other security enhancements to further 
augment our security posture. Carrying over from Fiscal Year 
2017 to 2018, funding for the installation of an underground 
alarm around the perimeter of the Capitol building, to bolster 
the physical structure of the outer planters and the Olmsted 
wall, and to finance a study to upgrade the lighting on the 
East Capitol Plaza all will help to enhance the security 
coverage of the Capitol while maintaining the openness and 
park-like setting of the campus.
    I am also requesting funding for a nominal increase in FTEs 
for the Office of the Sergeant at Arms to assist with support 
functions and to ensure greater service to Members and staff.
    Additionally, my office implements a comprehensive 
Emergency Management Program, planning for the continuity of 
the operations at the House, and the safety of its Members, 
employees, and visitors.
    This year, the House is unrolling the Joint Emergency Mass 
Notification System, or JEMNS, which enables mass notifications 
to House, Senate, Architect of the Capitol staff, and Capitol 
Police staff via multiple devices, such as phone, email, and 
text. However, our existing annunciator system will continue to 
serve as a backup to the new JEMNS system, and I am requesting 
funding for its life-cycle replacement.
    Finally, as you are aware, my office maintains a strong, 
effective outreach program with Member offices regarding 
district office security. Two of our most successful 
initiatives have been the implementation of the Law Enforcement 
Coordinator Program and Mail Hoods in district offices. We also 
offer guidance on best practices, providing information on how 
to obtain a thorough security review and how to coordinate 
security surveys when requested.
    For Fiscal Year 2018, I am proposing a physical security 
package for each district offices primary office, which will 
include a video intercom system and a duress alarm system. So, 
the staff will be able to readily monitor individuals accessing 
district office areas and have the ability to summon law 
enforcement quickly in the event of an emergency.
    I am also proposing a Security Awareness Program for 
district office staff which will entail sending a team of 
security and law enforcement experts to travel to the 
congressional districts to provide hands-on training to staff 
to prepare them to effectively manage crowd control, coordinate 
security for events, and handle potentially threatening 
situations.
    In closing, I would like to thank the Committee once again 
for the opportunity to appear before you. I would like to 
reiterate how grateful I am for the Committee's unyielding 
support as we strive to maintain the delicate balance between 
implementing strong security measures while simultaneously 
allowing free and open access to the Capitol complex.
    I want to assure you of my deep commitment and that of the 
entire office to provide the highest quality of services to the 
House of Representatives while maintaining the safest and most 
secure environment possible.
    As always, I will keep the Committee informed of my 
activities and will be happy to answer any questions you may 
have.
    [The Sergeant at Arms' prepared statement follows:]
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      Mr. Yoder. Thank you for your testimony.

           Chief Administrative Officer Abbreviated Testimony

    Mr. Kiko.
    Mr. Kiko. Thank you.
    Chairman Yoder, Ranking Member Ryan, and Members of the 
Subcommittee, I thank you for the opportunity to present CAO's 
Fiscal Year 2018 budget.

           CHIEF ADMINISTRATIVE OFFICER PROGRAMS AND PROJECTS

    Since taking office in August, I have met with nearly every 
one of the CAO's over 600 employees, who take pride in their 
work and services they provide. From cybersecurity to payroll 
and benefits to logistics, and childcare, the CAO organization 
provides a myriad of services to the House, most often behind 
the scenes.
    For instance, during the transition, our payroll and 
benefits staff processed approximately 30,000 payroll actions. 
During the last 6 months of last year, our logistics shop moved 
roughly 50,000 pieces of House equipment and furniture. The 
CAO's procurement operation processed over 6,200 actions, 
totaling over $105 million, and we processed in 2016 nearly 14 
million pieces of mail.
    In 2016, HIR installed over 670,000 software patches and 
resolved over 3.5 million IT vulnerabilities, and we also 
thwarted 4.7 billion unique cybersecurity attacks in the House 
with 53 percent of those being in the last 2 months of 2016.

         FY2018 THE CHIEF ADMINISTRATIVE OFFICER BUDGET REQUEST

    The CAO priorities and subsequent budget request for Fiscal 
Year 2018 are based on the examination of current operations 
and challenges. Top priorities include cybersecurity, the CAO 
strategic plan, customer service, as well as ongoing 
initiatives like improving food services here on campus, 
expanding our service offerings for District Offices, and 
possibly a more coordinated approach on wellness offerings.
    Our Fiscal Year 2018 Budget for the CAO is $133,635,000, 
which is a 14.1-percent increase over last year. Cybersecurity 
initiatives account for 78 percent of the increase; longevities 
and cost of living account for 10 percent; and the remaining 12 
percent is a combination of maintenance and licensing, 
contractor support, et cetera.
    We are all aware of the increased amount of state-sponsored 
activity waged against the United States. The massive global 
ransomware attack and its aftermath is a sobering reminder of 
what we are up against in the level of sophistication. It is 
imperative to maintain a robust cybersecurity posture.
    In Fiscal Years 2016 and 2017, with the support of this 
Committee, funds were reallocated to strengthen the House's 
cybersecurity posture through dark web monitoring capabilities, 
vulnerability testing, threat intelligence gathering, and 
mobile platform security for smartphones and tablets. The 
proposed increase in cybersecurity funding for Fiscal Year 
2018, if approved, will continue to strengthen our cyber 
posture.
    Another top priority is the CAO's strategic plan, which 
will undergird every aspect of CAO operations. Now finalized, 
we are moving to execute our strategic goals supported by 
objectives that ensure operations better align with current 
needs of House customers in the most efficient, cost-effective 
way.
    Finally, the paramount and overarching priority for the CAO 
is customer service, which will be advanced through the 
implementation of the strategic plan and targeted initiatives. 
We are doing a strategic plan to better provide customer 
services.
    Customer service initiatives include enhancement of the 
Learning Center, improved technology services for Members' 
offices, expanded services for District Offices, et cetera. 
These projects and initiatives will collectively yield cost 
savings, eliminate unnecessary processes, and hopefully provide 
better service to Members.
    I want to thank the Subcommittee for its support, 
particularly over our cyber initiatives last year, and I 
appreciate the opportunity today to present the budget. Thank 
you.
    [The Chief Administrative Officer prepared statement 
follows:]


               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 


    Mr. Yoder. Thank you for your testimony.

                        QUESTIONS FOR THE CLERK

    And, I appreciate all three of you appearing today. We will 
now start questions. And for the Committee, you can ask any of 
the witnesses today questions on a variety of topics.
    I will begin with Ms. Haas. One of the hearings this 
Committee has already held this year was on transparency in 
government, and there were conversations about whether CRS 
reports should be online and a number of different topics. But 
one of the issues that came up relates to the transparency of 
the House of Representatives itself.
    And one of the witnesses suggested that, if there were 
concerns and things that could be fixed, that his top priority 
would be making amendments more readily available and visible 
to our constituents who may not have the text or copy or know 
exactly what we are debating. Can you speak to that a little 
bit in general on that specific one?
    Ms. Haas. Sure.
    Mr. Yoder. And then, just in general, what are your 
recommendations and what are your long-term plans to create 
more transparency for the House of Representatives for the 
constituents we serve?

                     COMPARATIVE PRINT RULE PROJECT

    Ms. Haas. Sure. I think a big step on the amendments 
specifically is part of this Comparative Print Rule that was 
passed as part of the rules package at the beginning of the 
year. And so, under the Rule, by the end of this year, the 
House is required to have in place a tool that will allow you 
to compare bills to current law and also a document-to-document 
comparison of amendments.
    For this initial tool, the Legislative Counsel will be 
heavily involved in that process. As I mentioned in my 
testimony, phase two, which we are interested in pursuing and 
have requested additional funding for, would allow, once it is 
complete, House staff to be able to use the tool to do the 
comparison. Also, as part of the Rule, those comparisons would 
be available on the website. So people would have access to it.

                        THE BULK DATA TASK FORCE

    As far as the larger transparency effort, it is something 
we take very seriously, this Committee has taken very 
seriously, and House Leadership on both sides. It has been a 
priority.
    So, from the Bulk Data Task Force and the origination of 
that and the continued effort there, as well as our website I 
mentioned, our Clerk website that we are rolling out, 
transparency is the key to that. Our focus is the legislative 
data and making it available in a way that can not only be 
viewed easily, but also, so people on the outside can take that 
data and use it in a more efficient way than they can 
currently.

                         DOCS.HOUSE.GOV WEBSITE

    Mr. Yoder. And then amendments specifically, floor 
amendments, how does the public access those?
    Ms. Haas. So, on the docs.house.gov website would be one 
option, if they are available. And the Rules Committee would 
also be posting them there. If there are things, for example, 
when an appropriation bill is considered--and they can come up 
at any time--that makes it more challenging.
    Mr. Yoder. More difficult, okay.

                   QUESTIONS FOR THE SERGEANT AT ARMS

    Mr. Irving, you testified regarding district office 
security. I might ask you a little bit more about that. I think 
the request is for $2.2 million for security enhancements for 
district offices?

                        DISTRICT OFFICE SECURITY

    Mr. Irving. Yes.
    Mr. Yoder. Can you talk about what that $2.2 million could 
accomplish? I know you mentioned some video recognition in your 
testimony; maybe discuss that a little bit more in depth. And 
what do we think the total spectrum of things are that we 
should be considering beyond what maybe we could do with the 
$2.2 million? What is the long term? What would that cost? What 
are the security threats that we are concerned about in terms 
of Member offices in the districts?
    Mr. Irving. Yes, Mr. Chairman.
    Well, we have had quite an uptick in district office 
security issues: a lot of local townhall meetings, a lot of 
calls to my office requesting support. A lot of law enforcement 
support, really, is the bulk of what we manage. In effect, we 
have over 900 district offices.
    We looked at ways to expand our presence and increase the 
security posture of the individual district offices. One way is 
to standardize some of the ways that they implement security. 
Offices now, on a rather ad hoc basis, will ask for a security 
assessment, and will be provided a security assessment, will 
not always implement all of the recommendations provided.
    My goal is to standardize the security posture that we 
provide to each office. So we standardize the main office for 
each district to get a duress alarm system so that, if a Member 
was in his or her office or in the proximity of his or her 
office and needed to summon law enforcement quickly, they 
could, by use of this duress panic button they could have on 
them or in the office, summon law enforcement very, very 
quickly.

                   STANDARDIZED ACCESS CONTROL SYSTEM

    Another item that I would like to implement, if at all 
possible, is a standardized access control system to each 
district office reception area so that doors can be locked and 
staff can actually view who is outside before they summon them 
in. And that would be by a camera outside and a buzzer system 
to allow them in. This would greatly enhance some of their 
security as well.
    So the goal is to standardize, if at all possible--we can 
only, just because of cost, do one main office per Member--
standardize, kind of increase the security posture, you know, 
in light of the fact that many district offices, you know, do 
suffer some security issues.
    And, again, we have seen an uptick over, I think, the last 
couple of years with pressers and townhall meetings and other 
public appearances.
    Mr. Yoder. So the $2.2 million, would that provide security 
upgrades for the district office for every Member?
    Mr. Irving. That would provide, yes, for one office. So 
each Member would get one office. And it would provide the 
duress alarm system as well as the camera and buzzing system. 
About a half a million of that, $500,000, would be a recurring 
cost, a recurring monitoring cost. So, of that, about 1.5, 
almost 1.6 would be just a one-time cost. And then there would 
be a recurring cost for ongoing monitoring.
    Mr. Yoder. I assume this would be voluntary. Members 
wouldn't be required to participate. Do you know how many 
Members we think would want to----
    Mr. Irving. Mr. Chairman, that is a great question. 
Absolutely voluntary. Similar to our Mailhood Program, which is 
very, very successful, we had most Members request mailhoods to 
screen their mail. Some Members chose not to and that was fine. 
So we probably had about 80 percent participation.
    Mr. Yoder. And do we know that--some Member offices may 
already have some of these security upgrades.
    Mr. Irving. Yes, absolutely correct.
    Mr. Yoder. They fund it out of their MRA.
    Mr. Irving. Correct, yes. Some have--a relatively small 
percentage--but, yes, some have----
    Mr. Yoder. But duress buttons and that kind of stuff, that 
may exist----
    Mr. Irving. Again, if that was recommended as part of their 
initial security survey and the Member chose to go ahead and 
pay for that and implement that, then that particular office 
would indeed have it. So some do; some don't. A little bit of, 
again, ad hoc, and I would like to standardize that, if at all 
possible.
    Mr. Yoder. Okay. Thank you.

             QUESTIONS FOR THE CHIEF ADMINISTRATIVE OFFICER

    Mr. Ryan.
    Mr. Ryan. Thanks, Mr. Chairman.
    I have got a couple questions for Phil. The House of 
Representatives, we employ 11,000 people, very fast-paced, 
high-stress environment, in case no one has noticed. A 2012 
Gallup State of the American Workplace Study said that 
employees with high overall well-being have 41 percent lower 
health-related costs compared with employees who are 
struggling.
    And, in my estimation, it is to the benefit of the Federal 
Government and the people we represent to give the 
congressional employees resources to help them manage stress, 
stay active, physically active and fit, and eat healthy, and we 
can do that with an organized wellness program.
    Wellness programs have proven in corporate America and in 
other places that they can increase productivity, employee 
retention, employee morale, while lowering healthcare costs 
overall.
    Do you think it is feasible for us to establish a campus-
wide health wellness program or House wellness program drawing 
on the experiences of corporate America businesses and 
organizations that have benefited from such programs?

               HEALTH AND WELLNESS PROGRAM FOR THE HOUSE

    Mr. Kiko. Yes, I think we could. Currently we have parts of 
a wellness program. We have a physical fitness center. We have 
an employee assistance center, and we have training. And some 
of the training that we have done recently deals with stress. 
We have had a very popular course on mindfulness.
    So I really believe we can. I have looked into this issue 
myself with regards to some research on some large companies, 
and I think it would be worth our while to look into what is a 
successful wellness program, what are the elements of it, 
physical fitness, health education, nutrition, mental health. I 
think all those things are part of a program.
    Personally, and with regards to staff, anything that would 
help reduce stress around here I think would be great--or how 
to manage it--because it does mean less doctor visits, less 
high blood pressure, I think I was reading in--let me see--
there was one company--Forbes recently said that General Motors 
spends more money on healthcare costs than it does on 
purchasing steel.
    So that is sort of an indication of what the private sector 
is doing. I think there is a lot more information out there now 
and data that says that a good wellness program increases 
productivity. I think it is possible with the guidance of the 
committee maybe to come up with some options to see what the 
people would like.

              FOOD SERVICES AND THE FOOD SERVICES CONTRACT

    Mr. Ryan. Thank you. I agree. I think it could be 
beneficial.
    We have already met, you and I and Chairman Yoder, about 
food service, which is a popular topic. Being new to this 
committee, you think, well, what are Members going to ask 
about? And they consistently ask about the quality of the food 
and the service in our cafeterias and the House restaurant. And 
it is a perpetual source of frustration, I think, for a lot of 
staff and Members. What measures are you taking to try to 
improve the situation?
    Mr. Kiko. Well, this sort of reached a crescendo a couple 
of months ago where it seemed like I was receiving nothing but 
negative comments about the food service, particularly in 
discussing this with Members.
    So what the CAO's Office did was basically tasking a whole 
bunch of people in the procurement office, five people, 
individually, to go around, and we created this quality 
assurance surveillance team.
    For the last 2 months, we have been going around to every 
food service facility; and, based on what the contract is with 
the company, we have been measuring performance, whether it is 
food quality, whether it is old food on the shelves, how much 
time did it take to ring stuff up, how long are the lines and 
everything.
    And I think it has had an impact on the vendor. I have had 
meetings with the senior vice president of North America for 
food services for Sodexo. And what I am sort of hoping is--I 
will just show you one thing. We have been keeping tabs every 
week on what we are doing. As you can see, this is when it 
started. Everything was red, which meant there was no 
compliance with the contract at all. Everything was terrible. 
And this is last week's.
    So, at least with regards to trying to improve the service 
as required by the contract--which I think is minimal. I think, 
at a minimum, you should have contract performance. This at 
least gets us a baseline that things are getting better, and 
they are putting more resources up here on the Hill.
    The food is getting better. They have moved different 
managers in, and everything that we are measuring is getting 
better. And they have also had their own team now that is 
coming in and going around and surveilling things.
    We just did a survey. The survey results were not very good 
for the vendor as well. It shows there is room for improvement. 
They said they want to improve. They want to be up here on the 
Hill. You know, we need a good vendor.
    So I am hoping--I am going to give it 6 months to see where 
we are and see where the Members are and where the staff is. Is 
that too long of an answer?
    Mr. Ryan. No. That is good. Well, let's stay on that and 
help you along. I appreciate what you have done already. I 
think that shows, just by us raising this as an issue, we can 
start to make some progress, and we have a little way to go.
    I will yield back, Mr. Chairman, and hopefully catch a 
couple more questions in a second round.
    Mr. Yoder. Thank you.
    Mr. Amodei.
    Mr. Amodei. No questions at this time. I yield back, Mr. 
Chairman.

            TRAINING AND RECRUITING FOR THE NEXT GENERATION

    Mr. Yoder. Okay.
    Mr. Taylor.
    Mr. Taylor. Sure, just a couple.
    Thanks for what you guys are doing. We really appreciate 
it, your hard work.
    Ms. Haas, there are folks on the staff nearing retirement 
age. Is this a pretty decent number? And if so, do we 
anticipate sort of a major shift in training to get people up 
to speed for the next generation of workers?
    Ms. Haas. So, I would say it is probably a little bit more 
than a handful, but we are very fortunate that we do have 
people that come and stay for a long time and are very 
experienced. But we also do a really good job of training 
people and have people waiting. So, I am not concerned about 
the turnover at all.
    And as far as recruiting for some of our positions, we 
recruit nationally, and we get the best people that are out 
there for these positions. So, I am really proud of our 
workforce.
    Mr. Taylor. Great. Thank you.

                        WOUNDED WARRIOR PROGRAM

    Mr. Kiko--Mr. Chairman?
    Mr. Yoder. Please.
    Mr. Taylor. Just a couple quick questions. Again, thanks 
for what you are doing. I am looking at the veterans, like the 
Wounded Warrior Program, and I have seen there is an uptick in 
the budget because you want to have more Wounded Warriors in 
Members offices, which I think is great. And I see that there 
are nine vacancies. How can we help you guys fill those 
vacancies and also move them forward with the Wounded Warrior 
Program?
    Mr. Kiko. I think we have a lot of potential to increase 
the number of Wounded Warriors, and I think what we are trying 
to do right now is go to Member offices and publicize the fact 
that we do have a program here in the House for Wounded 
Warriors.
    And just as a result of getting the word out, we are now 
increasing--sometimes there are newspaper articles. Sometimes 
you can put something in the newsletter. You know, there are 
all kinds of ways. But, I think that we are at sort of a higher 
level now. I think we could expand it much more because it is 
basically for the Members.
    Mr. Taylor. Is there anything you guys have that you could 
share with us that we could share with constituents?
    Mr. Kiko. Yes, we have all kinds of stuff.
    Mr. Taylor. Excellent. I would love to get that.
    Mr. Kiko. We can do that.

                      HOUSE CYBERSECURITY PROGRAM

    Mr. Taylor. I have one more on cyber. This is my own 
curiosity. I know you guys are getting, you know, a lot of 
attacks, of course, like a lot of agencies around the 
government are. And you guys are working hard to prevent those. 
I appreciate that.
    Quick question on that: Is there any sharing going on 
currently, now, interagency, of data of attacks and so there 
can be perhaps an established pattern? And, again, this is just 
my own curiosity for----
    Mr. Kiko. Yeah, we are working with other Executive Branch 
agencies, and the sharing program has gotten a lot better 
within the last year, and we are upping it. And what we would 
like to do is really get something that is not necessarily 
based on who you know in the agency because of previous jobs. 
We would like to really standardize the process on sharing 
information.
    Mr. Taylor. Sure.
    Mr. Kiko. But it has been increased, and there is sharing 
with Executive Branch agencies.
    Mr. Taylor. Just one quick followup: Is there someone that 
is taking the lead on that that is saying, okay, we are 
collecting all the data that is being shared and we can 
establish a pattern? We talked about state-sponsored cyber 
attacks so we can establish a pattern on who it is and 
potential attribution.
    Mr. Kiko. We have the CAO's information security officer 
right here. He has the lead. There are other committees, like 
Committee on House Administration, that have been very 
aggressive in that, as has been the Leadership. So that is what 
we are working toward. But we do have periodic meetings on 
sharing information and stuff like that. We just have to be a 
little more aggressive in nailing it down further.
    Mr. Taylor. Thank you.
    Thank you, Mr. Chairman.
    Mr. Yoder. Thank you, Mr. Taylor.
    Ms. Wasserman Schultz.

                 REVIEW OF HOUSE CYBERSECURITY PROGRAM

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    My first questions are for the IG. So if we could ask her 
to join the table, I would appreciate it.
    Mr. Yoder. If you can state your name for the record, 
please.
    Ms. Grafenstine. My name is Theresa Grafenstine. I am the 
Inspector General of the House.
    Mr. Yoder. Thank you. Welcome to the Committee.
    Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. I wanted to ask you about the 
opportunities that you have had to review cybersecurity in 
general and the challenges that we are facing in the House of 
Representatives.
    Mr. Kiko referenced in his testimony that that is his 
highest priority. It is the biggest portion of his budget 
request. In your review of the cybersecurity of the House of 
Representatives and the vulnerabilities that we have, have you 
examined Members' use of outside applications that are not part 
of the House IT infrastructure?
    Ms. Grafenstine. No, we have not. But that is actually 
something we have been in discussions with House Administration 
to put onto the audit plan. We have not traditionally looked at 
outside applications, whether it is Dropbox or some of the 
other--Gmail, some of the other popular applications.

                         USE OF IT APPLICATIONS

    Ms. Wasserman Schultz. Do we have any sense of--and I will 
ask the same question of the CAO. Do we have any sense of how 
many Members use an outside application that is not subject 
within the infrastructure of the House IT network?
    Ms. Grafenstine. I would have no way to base that estimate.
    Ms. Wasserman Schultz. Is there a rule that is applicable 
that suggests that Members shouldn't be using applications such 
as Dropbox and other applications outside of the IT network?
    Ms. Grafenstine. I would want to research it before I 
answer that definitively. I do not know offhand.
    Ms. Wasserman Schultz. Mr. Kiko, can you answer the same 
questions?
    Mr. Kiko. Is there a rule?
    Ms. Wasserman Schultz. Yes. What is the policy of the House 
of Representatives when it comes to Members' use of outside 
applications that are not part of the House--protection of the 
House IT network?
    Mr. Kiko. Well, we discourage some of that just because 
outside people can then have access to what is in Members' 
accounts. It depends upon, I guess, what is on it. It depends 
upon what would be on the Dropbox and whether people could get 
inside the House network through that.

                       HOUSE IT SECURITY POLICIES

    Ms. Wasserman Schultz. So there are no specific rules 
against Members using applications outside of the House IT 
network and the protection of the cybersecurity--
    Mr. Yoder. Sir, could you come forward and state your name 
for the record?
    Mr. Ramsey. My name is John Ramsey. I am the Chief 
Information Security Officer.
    Ma'am, we have two House IT security policies. House IT 
security policy 2 directs that all House data will remain on 
House devices. And then, within the last 18 months, we 
published House IT security policy 17 on cloud and emerging 
technologies that allows, with the appropriate risk reviews 
from the security perspective, technology perspective, legal 
perspective, financial perspective, that with CHA approval, 
that House data can reside on some cloud services.
    Ms. Wasserman Schultz. So, if a Member is using an 
application outside of the House network, they need to go 
through an approval process in order to do that?
    Mr. Ramsey. Yes, ma'am.
    Ms. Wasserman Schultz. Okay. And that is since when?
    Mr. Ramsey. January of 2016.
    Ms. Wasserman Schultz. So, as of January of 2016, if a 
Member is using an application outside of the House 
infrastructure and the protection of our cybersecurity network, 
they are in violation of House policy?
    Mr. Ramsey. Of the House policy 17, yes, ma'am.
    Ms. Wasserman Schultz. But before that, they would not be 
in violation of the House policy?
    Mr. Ramsey. The House policy before that just indicated--
House policy 2--that the House data should be residing on House 
devices.
    Ms. Wasserman Schultz. So, if an application is being used 
and the information is on a House device, then that was within 
the rules?
    Mr. Ramsey. If the actual application is on premise on a 
House device as far as the origin versus a cloud service, that 
is correct.
    Ms. Wasserman Schultz. Are Members monitored? Does the 
CAO's Office examine whether Members are following these rules? 
How is it enforced? And, you know, how do you make sure that--
if you are concerned, as you say you are, about protecting the 
information on the House IT network, how are you actually 
enforcing that and making Members aware that the policy is that 
they either need to get approval to use an application outside 
of the network or, prior to that, that it needed to be on a 
device within the House network, not outside of it? How did you 
do that?
    Mr. Ramsey. Yes, ma'am. As far as in relation to the risk 
associated with what that external entity might be, our 
firewalls have various categories that are assessed from third-
party vendors that are looking into the security risk 
associated with those outside vendors, and those that are 
classified as critical or high risk to the House----
    Ms. Wasserman Schultz. No. I am asking you, how have you 
communicated with Members of Congress about the use of outside 
applications and whether or not their usage of outside 
applications is compliant with House policy?
    Mr. Ramsey. When the policy came out, ma'am, we sent some 
targeted communications out to the various IT systems 
administrators that services the Members.
    Ms. Wasserman Schultz. But it is safe to say that you have 
not applied any consistent enforcement or checking to make sure 
Members are compliant with the policy?
    Mr. Ramsey. It would be consistent in regards to the risk 
associated with the actual applications that are being used. If 
those applications are considered critical or high risk or 
might be known with state-sponsored actors, those 
applications----
    Ms. Wasserman Schultz. Well, let's say a Members' use of 
Dropbox. If a Member is using Dropbox and they have not gotten 
permission since January of 2016 to use Dropbox, according to 
the policy and prior to January, there wasn't a policy where 
you would have to get permission, but you had to only use 
applications or information on a device inside the House 
network, what was your enforcement policy related to Dropbox 
specifically?
    Mr. Ramsey. The House Administration Committee one was 
enforced with policy 17, ma'am. They had actually authorized 
Dropbox through October of last year. And as of October of last 
year, we have done two security risk assessments of Dropbox, 
and we recently have received additional approval from the 
committee on it starting to enforce the blocking of Dropbox as 
well as a couple other applications.
    Ms. Wasserman Schultz. Starting to enforce the blocking of 
the usage of Dropbox?
    Mr. Ramsey. Yes, ma'am.
    Ms. Wasserman Schultz. So Members are not supposed to be 
using Dropbox at this point?
    Mr. Ramsey. According to the policy.
    Ms. Wasserman Schultz. But before October of 2016, Dropbox 
was authorized for usage?
    Mr. Ramsey. It was, ma'am.
    Ms. Wasserman Schultz. Okay. Thank you very much. I will 
ask questions on the next round.
    Mr. Yoder. Thank you.

                PERSONAL EQUIPMENT ON THE HOUSE PLATFORM

    Mr. Yoder. Ms. Wasserman Schultz raises an interesting 
thought that I would like to follow up on a little bit, and 
that is, as Members of Congress, we go to great lengths to 
protect the data that is on desktop computers in our offices. 
But we know that because many Members use personal emails, 
personal devices, home computers, that there could be 
additional exposure there.
    Mr. Kiko, this would be a question for your offices in 
terms of what sort of steps have we gone through to try to 
protect the data of Members of Congress that have information 
that would be on a personal device or on a home computer that 
isn't going to be protected under the great wall, you know, 
firewalls of the House of Representatives? And are there 
vulnerabilities there, and how can we engage in that?
    Mr. Kiko. I think that if you are using House mobile 
devices, iPads, iPhones, everything, we are fairly certain that 
things are fairly secure. But when you start communicating into 
the House, you know, let's say on a private--it gets a little--
--
    Mr. Yoder. Personal cell phone, personal iPad?
    Mr. Kiko. Right. It gets trickier. And I do think that 
because of all the stuff dealing with cybersecurity, I think, 
going forward, we are going to try to look at these issues in a 
really hard kind of way and basically work with this 
Subcommittee and work with the House Administration Committee 
and other Members to see if there is a way that we can give 
some guidance, to reduce the cybersecurity threats, because we 
are only as strong as our weakest link.

            FY2018 CYBERSECURITY REQUEST AND POLICY CHANGES

    Mr. Yoder. Well, that is right, and this clearly is a very 
emerging issue in politics today and certainly sort of build a 
better, you know, mouse trap situation. This is an issue we 
have to stay on top of.
    And I know that your budget, you have got a 25-percent 
increase in funding for your IT department, $16 million to go 
to cybersecurity. So funding, as we know, is a part of this 
matter. And we know that, as these budgets go up, part of it is 
going to be related to additional support and personnel 
required to build better security measures.
    Beyond the dollars, are there policy changes that you would 
recommend to the House or, you know, structural changes that we 
should be considering?
    Mr. Kiko. Yes. You just can't spend your way out of that. 
But we are looking at ways to strengthen things through--
specifically, in one aspect, through contracts with vendors. We 
want to conduct cybersecurity assessments of their systems and 
their contracts of the vendors. We want to assess them to see 
whether they are in compliance with what our standards are.
    We want them to notify the House of cybersecurity instances 
that they have that could affect us. We want to provide the 
House--them--we want to have the vendors provide the House with 
full access. If they have an incident, we want to know about 
it, and we want to be able to audit it to see. And we want them 
to fully cooperate with our efforts to look at their systems to 
see if there is a vulnerability there.
    We also, with regards to some wireless devices that Members 
have, we want the most up-to-date operating software on it so 
if we do have a situation like we had over the weekend, we can 
patch it real fast or we can patch things and it is not old 
equipment. And we would like to have 100 percent compliance 
with the cybersecurity training that we have. We have close to 
that. But we are really just trying to increase awareness of 
all the staff about what you should do, and it is pretty decent 
training.
    And one thing is, on international travel, we have been 
pushing really hard to have Members and staff not use their 
phones from here on international travel because they can be 
compromised very easy. We may be pushing to have that as a 
requirement.
    And we are also trying to lessen unnecessary access to the 
House network with what is called privileged access because I 
think too many people have access to things other than just 
emails that they really don't need to have. So we are going to 
try and reduce that.
    And, finally, I know we are working with some other Members 
and committees on this, but we would like to have a sort of 
House-wide approach to equipment purchasing and software 
installation. We would like to know of the whole chain of 
procurement, to make sure that it is safe. And I think if we 
have that standardized a little bit more, we can get a better 
bang for the buck, but we can also increase our cybersecurity 
posture better if everything is somewhat standardized.
    Does that make sense?
    Mr. Yoder. Yeah. Thank you for the answer.

                       GARAGE SECURITY INITIATIVE

    I am going to give you a little bit of a break and move to 
Mr. Irving for a second. While we are on the topic of security, 
if you might talk just a little more about the Garage Security 
Initiative and the resources needed for that, timetable, 
completion date, and the achievements that have been made in 
that project.
    Mr. Irving. Thank you, Mr. Chairman.
    We have actually made some huge strides in that endeavor. 
We have just completed the first phase of the security portion, 
which entails the ability to lock down all the doors in the 
House garages if we need to. So, if for some reason we need to 
lock those doors down, if we had an intrusion in the campus, we 
have an ability to do that.
    The next phase of the garage security will be 
contemporaneous with the garage rehabilitation project of the 
Rayburn, which is four phases during the next 4 years. And as 
the garage rehabilitation is unfolding with a lot of the 
Architect's work on refurbishment of the concrete, what have 
you, there will also be buildout of some of the lobbies, 
expanding the lobbies, adding some elevators that will increase 
the people flow for screening, some of those main lobbies that 
would take screening.
    The goal here is to ensure that everyone that comes into 
the garage gets screened just like they would coming in from 
the outside. So that is coming along quite well. We are in the 
first phase of the garage rehabilitation of the Rayburn. So we 
have another three phases, 3 more years, to go.
    Once the construction is done, then the challenge will be 
the FTEs, the Capitol Police full-time equivalents, the Capitol 
Police personnel to actually staff the five screening areas. 
The good news--there has been some discussion early on of the 
volume of people and the fact that we have now minimized the 
number of screening sites in the garage. The good news is, if 
we look at the initial garage security that has taken effect in 
the East and West Undergrounds, we have two screening sites. 
That garage is self-contained, fully secure, and it is 
operating very, very well. So just those two--there was concern 
that narrowing those two from three or four was going to cause 
a backup, and it has not. And the volume of the ratio of people 
in the Rayburn to the five entrances that we are looking at 
will be the same. So we are pretty optimistic that we are 
really going to have a successful program. But it is several 
years away.
    We are in the process now of not only going through the 
second phase of the construction but also beginning to close 
doors to those that eventually will be the ones that the public 
or the staff will use to enter, you know, the building, to get 
everyone accustomed.
    When Rayburn was built, there were 80 or 90 doors. There 
was a door literally every 10 feet. So now one maybe just has 
to maybe walk 15 or 20 feet. So we are just in the process of 
closing off some of those doors and getting everyone accustomed 
to walking a little further or picking another door.
    Mr. Yoder. And one of the things we talked about is that 
Members may have access to doors that are secured that don't 
have screening through a key card system.
    Mr. Irving. Yes, absolutely. Members, as you know, do not 
undergo screenings. So they will have the ability to utilize 
pretty much any door they want. And we will make sure that they 
have a passcard to get them so that--again, the goal here 
really is to minimize the effect on business process of the 
institution while also trying to implement as much security as 
we can.
    Mr. Yoder. When is the completion on that?
    Mr. Irving. The completion would be 2022 actually, 2021, 
2022. So we are a few years off. We have thought about 
implementing and trying to implement an interim garage security 
program earlier than that. But that is a challenge with full-
time equivalents for the Capitol Police, the buildout. So we 
might be able to do something sooner. I will keep you posted on 
that.
    Mr. Yoder. I appreciate that.
    Mr. Ryan.
    Mr. Ryan. Thanks, Mr. Chairman.

               HOUSE OF REPRESENTATIVES CHILDCARE CENTER

    I want to make sure we get our money's worth out of Phil 
today. So I have a question for him. I want to talk about the 
daycare center. I know that is another issue with the wait list 
with regard to staff and their children. And I understand we 
are looking into the possibility of expanding that. Can you 
talk a little about that process, where we are with that?
    Mr. Kiko. The Architect's Office has the lead on looking 
into expanding the daycare center, whether it would be 
expanding it within the Ford Building itself because we have 
space, extra space now in O'Neill, or whether it would be 
O'Neill, or whether it would be a combination of both.
    And I think that the Architect's, they have the lead on it. 
They are doing a study on various options that one would have 
on expanding the daycare center. Personally, I would really 
like to greatly expand the daycare center so we have a lot more 
parents and children up here on campus. It would make it 
easier.
    So I think there is a great opportunity to do that, and 
that is what we are looking at. We are not looking at ways to--
not to do it. We are looking at how can we expand it, what is 
the right way to do it, taking into account working with 
various organizations and stuff on the needs of it and that.
    But I think hopefully there will be a study that will be 
done in the next few months, and then we will be able to sort 
of take a look and make some decisions.
    Mr. Ryan. Great. What is the wait list now? Do you know off 
the top of your head?
    Mr. Kiko. No. I think it might be a couple hundred. It is 
large.
    Mr. Ryan. A couple hundred kids?
    Mr. Kiko. I think so. I don't know the exact number, but I 
think it is around that number, 150 to 200.
    Mr. Ryan. How long do you have to be on the wait list? I 
just thought of this question. I wanted to ask it.
    Mr. Kiko. Sometimes people are on it for several years.

                   THE O'NEILL HOUSE OFFICE BUILDING

    Mr. Ryan. So, Paul, the expansion, O'Neill, how are we 
doing with security with regard to that?
    Mr. Irving. Doing well. Capitol Police has conducted a 
security assessment of the building and is prepared to staff 
it, June 8, when it opens. So that is going well. We are very 
much appreciative of the committee to assist in funding for 
that endeavor.
    So they will take over the building. It will probably--we 
are reviewing right now some of the business process that the 
Federal Protective Service had implemented, you know, versus 
now to see if the door is open. We have to change our business 
process again a little bit now that it is a legislative branch 
building.
    But we are also working very closely with HHS, and I know 
the Architect is working right now on an agreement between HHS 
and the legislative branch. So a few moving parts there--how to 
screen mail. And our mail screening protocol is a little bit 
different than theirs, et cetera. But, all in all, it is going 
well, and we expect to be--we will be operational on the 8th 
and have full security with Capitol Police on that day.
    Mr. Ryan. Great.
    No further questions, Mr. Chairman.
    Mr. Yoder. Thank you, Mr. Ryan.
    Mr. Amodei.
    Mr. Amodei. I think I will take everything I have got 
offline since none of it is--although, I do find it an 
interesting hearing when we talk in one context about wellness 
and then menus and then reduction of stress. It is quite a 
juxtaposition of issues, and I am still trying to get my head 
around that.
    But I do want you to know that I don't know what Dropbox 
is. So I think I am on the right start.
    I yield back.
    Mr. Yoder. Let the record reflect that.
    Mr. Amodei. As it should.
    Mr. Yoder. Mr. Taylor.
    Mr. Taylor. Sure. Thank you, Mr. Chairman.

                    HOUSE RULE ON COMPARATIVE PRINTS

    Ms. Haas, where are we at in our efforts to reach 
compliance with the new House Rule on Comparative Prints?
    Ms. Haas. So we are doing quite well actually. We have 
entered into contracts with two vendors. We meet with them 
weekly. We expect to have a prototype available for testing in 
October. So that is the target. But we are aggressively 
pursuing it.
    One of the positives is that the two vendors that we are 
using have already been doing work in the House. They are very 
far along in the work. So we fully expect to be able to meet 
the December 31 deadline.
    Mr. Taylor. Excellent.

          HOUSE SECURITY FOR PARKING LOTS, GARAGES, AND KIOSKS

    And, Mr. Irving, the consistent presence at garages and 
parking lots, what does that entail, and currently, with 
certain gates and kiosks that are closed at night, will that 
remain the case? Will that change?
    Mr. Irving. Yes. We carefully monitor the usage of the 
various kiosks. We try to enhance our presence on the external 
portion of the campus, especially when we are in session, 
because of the fact that it is a very open campus. We are 
continuing monitoring, again, which kiosks remain open, which 
doors remain open. We work very closely with this committee and 
the Committee on House Administration in furtherance of that.
    I would expect everything to remain as is as we move 
forward. The only difference for the garage security would be 
some of the interior doors. Once you drive into the garage, you 
would be funneled to one of fewer doors than what you have now 
so you can get screened. But no real impact on the exterior of 
the premises.
    Mr. Taylor. That is all I have got, Mr. Chairman. Thanks.
    Mr. Yoder. Ms. Wasserman Schultz.

                  HOUSE POLICIES REGARDING TECHNOLOGY

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Given the IT director's answers to some of my questions, 
Mr. Kiko, I would like to know why, if we established a rule in 
October that Members are not to use Dropbox, why throughout I 
don't know how long we have only been engaging in targeted 
informing?
    If there is a rule and a policy, particularly relating to 
our cybersecurity and protecting our network, wouldn't you 
think that you would have a policy where you inform every 
single Member and that we actually have a meeting with each 
Member's tech person so that you can inform them exactly what 
the rules are, what is allowable, what is not allowable?
    I mean, it would seem to me that we are leaving gaping 
holes in our cyber network, our cybersecurity network, if every 
Member isn't informed and every office isn't well aware of what 
is appropriate for use and approved and what isn't.
    Mr. Kiko. I just want to confirm what I thought that--we do 
inform every IT person, IT administrator, in every 
congressional office of the change. And if that is not enough, 
we can make it every Member.
    Ms. Wasserman Schultz. I am more than happy to admit that I 
use Dropbox. I have used it for years and years and years. It 
is not blocked. I am fully able to use it. And I bet every 
other Member that uses Dropbox is fully able to use it as well. 
So there is a vulnerability in our network in spite of the fact 
that you say that you have taken steps to address it.
    And there is not a policy that applies across the board, 
and you need to make sure that you tighten up your rules and 
policies so that you can really assure us that you take 
seriously protecting our network.
    Mr. Kiko. I will ensure that there is broader dissemination 
in the future.
    Ms. Wasserman Schultz. You were not sure that every Member 
has a tech person and had to ask your director that question 
just now. So it would be imperative, if we are genuinely 
concerned about making sure that we can't have breaches from 
the outside and that data isn't flowing in the wrong direction, 
that you have a formal process, not just lob an email into a 
tech person's inbox----
    Mr. Kiko. Okay.

        CAPITOL POLICE BOARD AND THE CHIEF OF THE CAPITOL POLICE

    Ms. Wasserman Schultz [continuing]. But bring people 
together and make sure Members know what the policy is as well.
    Okay. I have a question of Mr. Irving. So, Chief, you know 
that I have asked questions of you about the appropriate layout 
of the Capitol Police Board. And for the members that aren't 
aware, the Chief is not a full member--the Chief of Police is 
not a full member of the Capitol Police Board. He is an ex 
officio member.
    And that is a setup that has crippled our ability to 
conduct oversight from this subcommittee. The Senate cannot 
question our Sergeant, and we can't question their Sergeant. 
The Chief is left to answer questions that frankly were set in 
motion by the Capitol Police Board.
    And so I would like to know, Sergeant, if you think that we 
should be looking at restructuring the way the Board makes 
decisions so that we can establish a more direct line of 
accountability in our oversight role.
    Mr. Irving. Okay. Thank you for that question. On 
background, the Chief is an ex officio member because, from 
time to time the Capitol Police Board, namely, myself, Frank 
Larkin, the Senate Sergeant at Arms, and Stephen Ayers, the 
Architect, will make a decision that will impact him, namely 
his performance evaluation. So he is not in every meeting.
    Having said that, even though he is an ex officio member, 
he is in every Capitol Police Board meeting, and we treat him 
as an equal member, an equal partner of the board. So he really 
is very, very important.
    Ms. Wasserman Schultz. I mean, at the end of the day, he 
doesn't have a decisionmaking role. He doesn't have a vote. He 
has no ability to actually affect, if there is a disagreement, 
the outcome of a decision made by the Capitol Police Board. He 
just has to execute it.
    Mr. Irving. I will say that we listen to the Chief, and 
when we vote--we rarely vote because most of what we do is on a 
consensus basis--his input is invaluable. I can assure you of 
that, and I want to assure the committee of that.
    We do treat him as an equal partner. He has tremendous 
experience. He has over 30 years of experience in this 
department. And I will say that his opinion is invaluable, and 
we do treat him as an equal member of the Board.
    Ms. Wasserman Schultz. And I am confident that you have 
confidence in this Chief. But there are times through the 
years--and I have been involved with this for over 10 years 
now--that you have not had confidence or we have not had--you 
know, the Board--total confidence in the Chief.
    And when there is an erosion of confidence, wouldn't you 
say that there is less likely to be the ability for the Chief, 
who is in charge of the entire police department and his 
policies, to exercise his or her judgment over what the best 
approach is?
    Mr. Irving. Yes. But I will also say that the Board lets 
the Chief be the Chief: namely, we allow the Chief to conduct 
the daily business of the Capitol Police. We--the Board--only 
get involved with major policy decisions, something the Chief 
may want to do that affects the business process, as I have 
alluded to, of the institution, something that affects Members 
and how we do business here.
    But, generally speaking, day in and day out, we let the 
Chief run his department and manage it and don't interfere with 
that.
    Ms. Wasserman Schultz. How much of the Capitol Police's 
budget would you say is directed by the Board, and how much is 
directed by the Chief and his leadership?
    Mr. Irving. I would say 95 percent is the Chief and his 
leadership. The Chief presents his budget to the Capitol Police 
Board for approval. And most times, I would say 9 times out of 
10, we approve it as is. Sometimes we will tweak it a little 
bit if we think that he needs to go and allocate more resources 
in one area or another.
    An example of that, by the way, a recent example was after 
we had some terrorist attacks overseas in Paris, Brussels, 
several years ago. The Board convened a meeting and requested 
the Chief to look at implementing additional security to 
increase an exterior security posture.
    So many initiatives or a number of initiatives are Board 
initiated, but I would say the bulk of the day--of the regular 
order fiscal year budgets are the Chief's.
    Ms. Wasserman Schultz. Mr. Chairman, we have had 
jurisdictional issues and a challenging time conducting 
oversight because of the structure of the Capitol Police Board 
and there being a dotted line rather than a direct line to us 
in terms of being able to hold the Board accountable, which is, 
at the end of the day, completely responsible for all of the 
policies of the Capitol Police.
    And I know we will have an opportunity to question the 
Chief, except that the reality is that the Chief is hired by 
the Board. So we are almost never able to really get direct 
answers from him in this setting. So I just wanted to bring 
that to the committee's attention.
    Thank you.
    Mr. Yoder. Thank you, Ms. Wasserman Schultz.
    Anyone else have any questions for our witnesses?
    Ms. Wasserman Schultz. I do have one additional question.

                          VOTING CARD CHANGES

    Mr. Yoder. Okay.
    I might ask Ms. Haas a quick question about the voting card 
changes in the House because I am sure our colleagues will ask 
us about that and what the purpose of it is, what the changes 
will be, how it will affect them. Could you just quickly run 
through what we are doing there, what it is costing us, what 
the improvements are, what the upgrades are, and why it is 
necessary.
    Ms. Haas. Sure. So we have, for several years, continued to 
do upgrades to the electronic voting system. This particular 
upgrade is to the voting stations themselves, which includes 
all the cabling that lies under the floor. So, as I mentioned 
in my testimony, the cabling was completed last August.
    We currently are testing the prototype of a new station. 
For the Members' use, once we deploy it, there is not going to 
be a significant difference in the look or the usability. Some 
things that we are adding to it, though, functionally, we are 
going to have braille for visually impaired Members. We are 
also going to have a display panel that we can use for 
different purposes. So that will be--really, the only change of 
the look of it. It will operate the same. The improvements are 
behind the scenes in improved technology.
    There is nothing wrong with our system. We have a wonderful 
system, but the technology has aged. So we want to bring it up 
to speed. And the cards that we have, the voting cards that you 
all use, the technology in those cards are also older. So they 
are more difficult for us to get. So that is part of what 
pushed us to do this latest renovation on the system.
    So the newer cards also will look the same and function the 
same. From a Member's perspective, the hardest thing will be, 
whenever we do deploy this, is you will have to get new voting 
cards. The voting cards that you currently have will not work 
in the new system.
    Mr. Yoder. Do you expect that after the August break, 
district work period, that we would come back?
    Ms. Haas. That is what we are working toward. But, again, I 
am very concerned. Right now, we are testing a prototype that 
hasn't been made smaller yet, and so we have a lot more testing 
to do. So, if the testing is not complete, we are going to need 
another expanded recess period to install.
    Mr. Yoder. All right. Thank you for that.
    Mr. Moolenaar.

              WOUNDED WARRIOR PROGRAM INFORMATION CAMPAIGN

    Mr. Moolenaar. Thank you, Mr. Chairman.
    Just one question. We talked a little bit or you had 
mentioned your Wounded Warrior Project, I wondered if you could 
talk a little bit about that. You mentioned it in your 
testimony, but could you tell us what you are doing to build 
support and expand that in working with different offices?
    Mr. Kiko. Yes. What we are trying to do is we are trying to 
get the word out that there is a Wounded Warrior Program on the 
Hill. And we are trying to encourage Members to get the word 
out, if they hire in the Wounded Warrior Program, to do a press 
release, you know, with the Wounded Warrior when they hire him 
or put out a release that you want Wounded Warriors.
    We are going around to different--like the Veterans 
Administration or other areas, Defense Department facilities, 
pitching the Wounded Warrior Program because we want people to 
apply as well. So it is just not on the Members, but it is also 
on the services. So we are getting in touch with the services 
to have them come to the House.
    And right now, it is basically--we think we have the 
capacity for a while to continue to fund the Wounded Warrior 
Program at the level that it has been. Maybe, in several years, 
it may have to be increased depending upon, how many people 
apply. But we think there is a lot more people.
    And it is equally funded--Republican and Democrat Members 
equally use them. Some use them in the District Office. Some 
use them here in town. And we actually have a program where it 
used to be just a couple of hours, but now we have a 2- or 3-
day orientation program for Wounded Warriors when they come 
into town on what to expect and those kinds of things.
    But we are just trying to get the word out, and that is 
what we are doing. We are very aggressive on this, and maybe we 
need to be more aggressive, and maybe you need to hear from us 
more. Is that fair?
    Mr. Moolenaar. Thank you.

                  HOUSE CHILDCARE CENTER WAITING LIST

    Mr. Kiko. Oh, and I just wanted to answer one question. The 
childcare center waiting list, it is more than I thought. It is 
266.
    Mr. Ryan. We will let it slide this time, Phil.
    Mr. Yoder. Mr. Ryan.
    Mr. Ryan. I am good.
    Mr. Yoder. Mr. Taylor.
    Ms. Wasserman Schultz to wrap us up.
    Ms. Wasserman Schultz. Thank you.

                    COST OF FOOD IN HOUSE CAFETERIAS

    Just a few, last couple of questions because I have spent a 
lot of time over the years dealing with the quality and cost of 
the foods in our cafeterias. And I appreciate you going through 
the efforts that you have made to improve it, but the food is 
still terrible and the prices are still too high.
    And I don't know what the green or the red means on the 
graph that you held up, but if I had the pictures with me of 
some of the barely able to be described as food that some have 
sent me, you would be appalled. The experiences that I know 
staff has had and that I have had, many of their staff are rude 
and not customer friendly; beyond that, the food being really 
of poor quality and the prices being too high.
    In the survey that you have done, are we going to have an 
opportunity to be briefed on the results of that customer 
satisfaction survey?
    Mr. Kiko. Yes. We are putting it together right now. And we 
want to look at the raw data, and we want to look at how they 
use the data, but, yes, we will brief you.
    Ms. Wasserman Schultz. Okay. Do you expect further price 
increases coming from Sodexo?
    Mr. Kiko. I am not sure. I think that--under the contract, 
they are allowed to request the price increase every year. And 
so I don't know whether they are going to, but I think they may 
be--or may not be--under the contract, they could request 
another price increase.

                              FOOD CHOICES

    Ms. Wasserman Schultz. They would have a lot of nerve 
requesting a price increase unless they improved dramatically 
what they offer in the cafeterias.
    Have you examined whether there are adequate healthy 
choices and vegetarian options for staffers? We have a lot of 
vegetarians among our staff.
    Mr. Kiko. No, I will take a look at that. But they are 
supposed to have a healthy food option. But I will dive into 
that a little bit more. I know they are very into wellness in 
their organization.
    Ms. Wasserman Schultz. That would be great.

              CURRENT STRUCTURE OF THE MEMBERS DINING ROOM

    And then on the Members' Dining Room, you were doing a 
review of the current structure of how the Members' Dining Room 
is run. I realize it loses money and isn't frequented very 
much, and I don't think it has gotten any better since the 
restructuring. What is the status of the Members' Dining Room, 
and are there any anticipated changes or formal assessments?
    Mr. Kiko. We have spent a considerable amount of effort on 
the Members' Dining Room. We have a new chef, who is very good. 
We have been trying to have better food offerings. We have been 
trying to have it so that you get your food faster; it is not 
cold. It is those kind of things.
    I would be happy to brief you on it, but I would like you 
just to go over there and see what your thoughts were, because 
there has been a major effort. I think recently we had more 
Members use the Members' Dining Room, I think, right before 
this recess than ever has.
    Ms. Wasserman Schultz. Is it still buffet style and 
unlimited order?
    Mr. Kiko. It is buffet, and you can order--yes. But we are 
trying to make everything better because Members bring a lot of 
constituents in. And we basically said, ``Look, this is 
supposed to be a premier service. It is not supposed to be a 
middle service.'' And we have been emphasizing that. And I am 
sort of hoping--there has been more personal attention by the 
chef and by the people that manage the Members' Dining Room on 
some of this.
    Ms. Wasserman Schultz. Did you include that in your 
customer satisfaction survey?
    Mr. Kiko. I think we did. It is for everything. So I am 
sure it would have been part of that.
    Ms. Wasserman Schultz. Okay. So if you wouldn't mind 
briefing me on the results.
    Mr. Kiko. We will.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman.

                        Chairman Closing Remarks

    Mr. Yoder. Thank you, Ms. Wasserman Schultz.
    Thank you to our witnesses today for your testimony and 
your answering our spirited questions.
    As the Committee knows, we are doing two hearings today and 
two hearings tomorrow, so it is sort of like Ohio State 
football doing two-a-days getting ready for the upcoming 
season. And so, at this point, the subcommittee will adjourn 
until 2 p.m. This afternoon when we will hear from the 
Architect of the Capitol.
    [Further prepared statements for the record follows:]
    
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     


                                           Wednesday, May 17, 2017.

                        ARCHITECT OF THE CAPITOL

                                WITNESS

STEPHEN T. AYERS, ARCHITECT
    Mr. Yoder. I now call to order the hearing on the Architect 
of the Capitol. We have the Architect, the Honorable Stephen T. 
Ayers with us today. Thank you for your appearance this 
afternoon. We look forward to hearing your testimony.
    This is the second hearing we have held today. Earlier this 
morning, we heard from the House of Representatives, and we had 
some great questions and good witness testimony. I look forward 
to another good session with you this afternoon as we work 
toward building our 2018 budget.
    So I would like to welcome Stephen Ayers, the 11th 
Architect of the Capitol, to our committee. The AOC has been 
very busy. They successfully supported the Presidential 
inauguration, hosted 2.2 million visitors to the Capitol 
Visitor Center, and 1.2 million visitors to the U.S. Botanical 
Gardens in 2016, all the while managing several large projects 
around the campus, including several on the House side: the 
Capitol dome and rotunda, of course, in the Capitol; all work 
in the Cannon House Office Building and the Rayburn interior 
garage as well. So congratulations on all your work and 
projects.
    Mr. Ayers. Thank you.
    Mr. Yoder. Excluding the Senate Office Buildings, the 
Architect of the Capitol is requesting $660.5 million. This is 
$131 million above the current year. If we include the Senate, 
the entire Architect of the Capitol budget request is $773 
million, which is $155 million above the current year 
appropriation.
    The larger ongoing multiyear projects include the Cannon 
House Office Building renewal, which totals $752.7 million, 
with a total of $440.9 million appropriated to date. Also 
included is the Rayburn Interior Garage Rehabilitation Project, 
which totals $130 million, of which $68 million has been 
provided.
    The Architect of the Capitol has estimated that it would 
cost $1.5 billion to address the campuswide deferred 
maintenance and capital renewal backlog. We understand fully 
that, when the backlog is not addressed, that that cost will 
continue to go up.
    The subcommittee has always had as a top priority those 
projects that have life safety implications. We understand the 
ability to maintain and keep in appropriate working order the 
buildings and grounds, which cover more than 17.4 million 
square feet of facilities and more than 570 acres of grounds on 
and off the Capitol campus, has been a difficult full task.
    Also, before we begin, we would like to express our 
condolences for the loss of one of your own, Matthew 
McClanahan. Our heart goes out to his family and the entire AOC 
organization.
    Mr. Ayers. Thank you.
    Mr. Yoder. And, with that, Mr. Ryan, do you have an opening 
statement?
    Mr. Ryan. Thank you, Mr. Chairman, a very brief one. None 
of us could do our jobs without you here, and we know when we 
get our visitors and we take selfies with the Capitol behind 
them, we know that is your handiwork there. The Botanic Garden, 
we have you to thank. So we appreciate all of your good work.
    We know that several thousand people that you supervise do 
everything from maintaining office buildings, caring for 
hundreds of acres of landscape, as the chairman just mentioned, 
executing major construction projects, operating a power plant, 
to restoring historical artwork on the walls of the Capitol. 
This is our home. This is where we work. My 3-year-old says, 
``Daddy, are you going to Capitol?'' That is where daddy works, 
and it is a pretty cool thing, and it is cool that everyone has 
access to this beautiful facility. So we thank you.
    We have got a lot of work ahead of us in the tough budget 
year, but we look forward to hearing from you and working with 
you.
    Mr. Ayers. Thank you.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Yoder. Thank you, Mr. Ryan.
    Do any other members wish to make opening remarks?
    Seeing none, then Mr. Ayers, your entire statement will be 
submitted for the record. We have it here before us, but please 
feel free to summarize your testimony at this time.

                           Opening Statement

    Mr. Ayers. Thank you. Mr. Yoder and Ranking Member Ryan and 
members of this subcommittee, I appreciate the opportunity 
today to present to you our fiscal year 2018 budget request. 
Our request of $773 million prioritizes people and projects 
that are required to fulfill our mission to serve the Congress, 
the Supreme Court, and America's Capitol, and to inspire 
memorable experiences every day for those 2.2 million people 
you mentioned.

                       MONUMENTAL ACCOMPLISHMENTS

    Over the last two decades, our footprint has increased 
substantially, and today, we operate and care for more than 
17.4 million square feet of space across 36 different 
facilities and 570 acres of land, and the complexity of our 
work has also changed significantly.
    In 2016, we hosted more than 4.5 million visitors through 
the Capitol and the United States Botanic Garden from the 
United States as well as from around the world. And during this 
time, not only has our office kept up with, but we think we 
have staked a leadership role in using innovative technology in 
addressing the important security concerns that face us every 
day.
    Our employees work around the clock to maintain our 
buildings and to ensure the health and safety of those who work 
and visit the Capitol campus each day, and we couldn't be 
successful without the hard work and skill and commitment of 
the more than 2,100 employees that make up our workforce.
    Last year, at this hearing, I promised that 2016 was going 
to be a banner year for us, and I am delighted to report that 
we delivered on all of our projects. We successfully completed 
the Capitol Dome restoration and Rotunda restoration on time 
within budget with minimal disruption to the building 
occupants.
    We conducted the post-election biennial office moves for 
199 Members of Congress in the House of Representatives in just 
24 injury-free workdays. And as we have for more than 150 
years, we supported the work of the Presidential inauguration 
this past January.

                      IMMEASURABLE RESPONSIBILITY

    As substantial and historic as some of our recent 
accomplishments are, regular preventive maintenance is the best 
defense against deterioration and rising costs. Budget 
constraints continue to slow our ability to perform regular 
inspections and regular and routine maintenance to improve the 
functionality of our facilities and infrastructure. We often 
rely on temporary fixes to buy time, and often that is just not 
quite enough.
    Our fiscal year 2018 budget includes $25 million in overdue 
operational increases to meet the demands of mandatory cost 
increases and address critical repairs to reduce the risk of 
future failures.
    Our request will provide for the resources necessary for 
day-to-day maintenance, thereby avoiding costlier fixes in the 
future, and it will also slow the growth of the $1.55 billion 
in backlog of deferred maintenance the chairman mentioned 
earlier.
    In addition, using our risk-based prioritization process, 
we are requesting $240 million in capital projects this year. 
Nearly 70 percent of those are specifically for repair or 
replacement projects that are past due or for systems that are 
approaching the end of their useful life.
    We are requesting funds to replace obsolete chillers at the 
Capitol Power Plant that date back to the 1970s. Our efforts to 
eliminate water infiltration through the stone restoration on 
many of our buildings is also part of our budget.
    We are requesting funding for the next phases of the Cannon 
House Office Building renewal, as well as the Rayburn House 
Office Building Garage project, and these jobs continue to 
progress on time and on budget.
    We are also making an important priority of security 
improvements that you will see in our budget this year as well. 
We continue to drive down injury rates, drive up our energy 
efficiency and drive down our energy costs at every 
opportunity. With your support, I think we can continue to make 
the Capitol campus accessible to all and ensure that it remains 
a vibrant display of our democracy. Thank you.
    [The prepared statement follows:]
    
    
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                  CANNON HOUSE OFFICE BUILDING RENEWAL

    Mr. Yoder. Thank you for your testimony. At this time, we 
will turn to questions. I wanted to follow up a little bit on 
the Cannon House Office Building project.
    To date, $440.9 million of the project projected budget has 
been provided. For fiscal year 2018, you are requesting $62 
million in no-year funds for the project. Can you tell the 
committee the amount of prior year funding that is currently 
available for the AOC's use on the project, what are the 
specific significant actions that require funding for next 
fiscal year we expect you to actually spend on that next year, 
and I think what we all want to know, is the project on time, 
and is it going to stay within budget?
    Mr. Ayers. We have developed a budget for that project of 
$752.7 million, and that budget that has been in place for 6 or 
8 years. We continue to maintain that cost estimate, and we 
have done very complicated quantitative and qualitative cost 
and schedule analyses using the best technology available. We 
continue to have more than 80 percent confidence rate that we 
will meet both schedule and cost on that project.
    This was an important year for us as we transitioned from 
the initial phase, the work in the basement, into phase 1, 
which is the west side of that building. We completed the 
initial phase under budget. We probably have $8 million left 
from that phase that we will roll over into, and may need to 
utilize during phase 1. So that initial phase was done on time 
and under budget.
    We are 15 percent into phase 1, and we are continuing to 
track right on time and right on budget. All of our indicators 
today say we are going to meet our schedule and meet our 
numbers, and we are pretty confident in it.
    Mr. Yoder. You said you used some technological 
advancements in phase 0 that have sort of advanced the project 
and saved you a little bit of money on phase 0. Do you 
anticipate changes over the coming years that might be able to 
save us money on this project? I mean, ideally, we would love 
to come in under budget to be able to save the taxpayers money, 
and I guess, what is the process to do that as you are 
examining this? Is that something that is feasible? I don't 
want you to raise the bar here and then not be able to meet 
that, but I am just getting an idea of what the future looks 
like.
    Mr. Ayers. On a construction project like this, we have a 
series of risks that could potentially materialize, and 
included in our budget are funds to help us mitigate those 
risks. If those risks don't come to fruition, that money 
remains available either to go back to the Treasury when this 
job is finished or to roll into some other project.
    Mr. Yoder. Part of this is risk aversion, too.
    Mr. Ayers. Everything about construction is minimizing 
risk. If we do a good job minimizing risks and ensure that the 
potential risks don't come to fruition, we think that it will 
come in considerably under budget.
    There are a couple of things. Phase 1 is our riskiest phase 
of all of the five phases of that project. The most important 
thing we needed to do on phase 1 is to award that phase early. 
As you know, we didn't start it until January 2017. Well, we 
awarded the contract for that phase of work in April 2016, and 
that allowed our contractor to spend several months before 
physical construction work, getting all of their contracts and 
subcontracts awarded, getting all of their submittals and 
engineering work done. That was a really important risk 
mitigation.
    I think also, on phase 1, the second riskiest operation, in 
my opinion, is about to take place next month when we put on a 
temporary roof structure over the fifth floor roof and then 
begin to demolish and reconstruct that fifth floor under that 
temporary roof structure. If we can do that successfully on the 
first phase, learn some lessons as we then begin to incorporate 
that on phase 2, 3, and 4, I think that could save us some 
money as well.
    Mr. Yoder. So you are completely demolishing the fifth 
floor?
    Mr. Ayers. Yes.
    Mr. Yoder. What are you doing to it in terms of higher 
ceilings, or are the offices going to look different in some 
way?
    Mr. Ayers. Yes. They will look completely different. In 
fact, on the fifth floor today, you have offices on one side 
and storage cages on the other side.
    In the new design, you will have offices on both sides. 
They are generous, nicely sized, appropriately designed offices 
for a Member of Congress, many of them with a great view of the 
Capitol, by the way.
    Mr. Ryan. When do we put our request in?
    Mr. Yoder. Starting now.
    One of the challenges I know you have is an occupied 
building. If you might just tell the committee how you 
negotiated around a construction project in a building that is 
occupied, what specific sort of challenges that has brought on, 
how that has been handled, have there been any disruptions that 
the committee should know about that have been overseen or that 
you have had to resolve?
    Mr. Ayers. Well, of course, doing a major construction 
project in an occupied building is the worst thing you could 
do. We can start with that.
    Mr. Yoder. Right.
    Mr. Ayers. But that is what we are faced with doing. And so 
I think, number one is communicating to building occupants 
about what is happening, what is coming up, what to expect, and 
no surprises. We have a team of communication specialists 
dedicated to this job that do just that, that spend their day 
talking to building occupants, making the rounds, keeping our 
social media and electronic messaging system up to date, making 
sure we have good signage around the building so people know 
what is about to happen before it happens.
    Third, since it is an occupied building, we drive all of 
our noise-making activities to nighttime. That adds about a 10-
percent in labor cost to any project, but it is an important 
and necessary thing for us to do as construction is, in many 
respects, inherently noisy.
    Fourth, making sure we carefully monitor the air quality, 
water quality, odors and things like that that could emanate 
from the construction activities and make sure we monitor them 
and abate them as necessary.
    Mr. Yoder. Okay. Thank you. Mr. Ryan.

                           URBAN AGRICULTURE

    Mr. Ryan. Thank you, Mr. Chairman.
    First, we want to, on behalf of my whole staff, thank you 
for the ramps you put up for the ducks that get into the 
reflecting pond. It has been a topic of conversation in our 
office. So we want to thank you for that.
    I have got a couple of questions, and I actually want to 
get in the weeds on a couple and just kind of get your 
thoughts.
    First, we know that the United States Department of 
Agriculture has a program they call the People's Gardens, and 
they set up gardens at Federal agencies all around the country 
to help grow healthy food and get people and communities 
engaged. The first one was in 2009. So several members--Ms. 
Pingree, myself, Ms. Kaptur--have suggested that your office 
partner with USDA to start one of these People's Gardens on the 
Capitol Grounds. I think it is a good idea. We had some earlier 
conversations about bringing a slightly healthier culture to 
the employees here on the campus.
    Is that feasible? Are you exploring anything along those 
lines?
    Mr. Ayers. I think we are doing a couple of things. Let me 
share them with you. First, this is the centennial of the Great 
War, World War I, and we are putting together exhibitions in 
the Capitol Visitor Center to educate the public about that 
war. We have also installed three victory gardens at the Thomas 
Jefferson Building, and there are three of them in place now. 
We are growing food and educating the public about how to grow 
food that was typical for about 1917, 1918. There is great 
signage over there, and much of the food that we harvest we 
donate to local food banks.
    Second, for the last 3 years, we have been focused on urban 
agriculture. We think that is an important thing to educate the 
public about, and that is really our mission at the United 
States Botanic Garden--to educate the public about the value of 
plants in our society. For our director there, Dr. Ari Novy, 
urban agriculture is a particular passion of his. We have had 
three shows the last 3 years, and our current show is actually 
indoors, where we are teaching people how to grow vegetables 
and vegetable gardens in towers, sort of vertical gardening. We 
have a current exhibit in the garden about that now.
    That is what we are doing today, and we are certainly open 
to continuing that kind of effort. I think educating the public 
about the value of urban agriculture and the value of plants is 
important.
    Mr. Ryan. Yeah, I know, that is very cool. How much of the 
technical expertise--so the Library of Congress, for example, 
they try to help libraries in Kansas and Ohio with some 
technical expertise, I guess, for lack of a better phrase. What 
do you--like with the Botanic Gardens, is there any kind of 
program that would help people in Youngstown, Ohio, learn how 
to do a vertical garden? Is that something that you guys 
participate in, and if you do, what level do you participate?
    Mr. Ayers. We have a couple of things. One is a botanic 
hotline. If you are having plant issues or plant problems or 
pest problems, we do have a hotline that you can call in to our 
really talented plant specialist, and they will help you 
diagnose and find ways to fix problems that you might be having 
with plants.
    Second, we have a number of partnerships across the country 
with other botanic gardens to put on symposia about things like 
urban agriculture or to host shows about backyard gardening or 
to host a show about a particular plant variety, and we have 
some appropriated dollars that enables us to reach out to these 
partners across the country. We have four or five or six of 
them now that we do, and we change them every few years.
    Mr. Ryan. There is such a huge interest now across the 
country in urban ag in older cities, you know, like in Ohio and 
Toledo and Youngstown and Akron, that we have come in and 
cleared out a lot of the old homes, and they are in food 
deserts where there is not a grocery store for a couple of 
miles. So I think this is an opportunity to help, you know, 
after school and the whole 9 yards, but we will be in touch on 
some of that stuff.
    Mr. Ayers. Great.

                     CONSTRUCTION PROJECT FINANCING

    Mr. Ryan. So, on the construction side that Mr. Yoder was 
talking a little bit about, I know, when we do local projects 
in Ohio, that we are involved in--construction projects--we use 
a lot of different tools that are in the toolbox for private 
investment.
    So, for example, a business will come in and use the local 
port authority. The port authority has capacity to buy material 
and not pay tax on it. And so the business will work with the 
port authority. The port authority will go and buy the bricks 
and the mortar and the wood and the nails and all the stuff 
that would be needed and save the private investor, you know, 
potentially tens of thousands, if not, depending on how big the 
project is, hundreds of thousands of dollars just as kind of a 
passthrough.
    Do you guys use any tool like that here in the Capitol that 
would allow you to save some money and get more money into 
projects? Do you get everything tax-free? I mean, you contract 
it out. Can you walk me through that process?
    Mr. Ayers. It is not tax-free, but DC does have a sales tax 
exemption process for equipment and materials purchased in DC.
    Mr. Ryan. So you guys--you guys--your office goes out and 
buys all the material for a--you are going to build this fifth 
floor. You are going to redo it. You are going to buy all kinds 
of stuff to construct that. Do you buy that yourself?
    Mr. Ayers. No, the contractor buys that.
    Mr. Ryan. The contractor buys that. So the contractor will 
pay sales tax on stuff that they would buy, right?
    Mr. Ayers. We direct the contractor to request an 
exemption. The Cannon Project is an example of where the 
exemption was requested and applies.
    Mr. Ryan. I mean, in the normal course of affairs, course 
of business, so I am just trying to think of ways that, you 
know, we can get more bang for our buck here, and if there are 
opportunities for us--I don't know if you have some people on 
your staff that you could maybe charge to look into those 
things, because 4 or 5 or 6 percent of $100 million, you know, 
could build a few extra offices.
    Mr. Ayers. Yes.
    Mr. Ryan. So if you could do that.
    Mr. Ayers. Sure.
    Mr. Ryan. And look into that. The other thing--and I know 
we have the historic trust fund.
    Mr. Ayers. Yes.
    Mr. Ryan. Where we are putting some money in. Is there--I 
am literally thinking out loud here, as you can maybe tell. 
But, again, for local construction projects, we use the port 
authority and the bonding capacity of the port authorities. 
Have we looked into like floating some bonds and expediting a 
lot of this work that needs to get done and then paying it down 
over time? Is that--you are straight appropriations, right? You 
get money in, money out?
    Mr. Ayers. No, not 100 percent. We do have limited 
statutory authority to enter into public-private partnerships. 
Our statutory authority permits us to do that on energy-related 
projects.
    We have three of them in place--actually four in place 
right now. The first three are valued at about $90 million to 
$100 million of private money, and they came into the House 
Office Buildings, the Senate, and the Capitol and made 
investments in our infrastructure, which saves money. You 
continue to appropriate the same amount for our utility costs, 
but our costs go down. So we pay them back with that 
differential.
    Since those three have been in place for 3 or 4 years, that 
have been incredibly effective for us and have paid back their 
guaranteed savings every year, we are going to do a fourth one 
at the Library of Congress. We are in negotiations right now 
for that. And a fifth one we have in construction for about 
$108 million at the Capitol Power Plant where a private company 
will come in and put in a new combined heat and power system, 
and we will pay them back over the course of 20 years for that 
investment with the energy savings they prove for that.
    Mr. Ryan. So the private business gives you the money 
upfront.
    Mr. Ayers. Correct.
    Mr. Ryan. Is there any way----
    Mr. Ayers. A contractor installs it, and they get private 
financing to do it.
    Mr. Ryan. Right.
    Mr. Ayers. And sometimes they do that through bonds or they 
do it through direct loans.
    Mr. Ryan. Is there any way to expand that program into 
other sort of more traditional construction?
    Mr. Ayers. I think there is. I do think it would require 
statutory authority, though. The statute today only allows us 
to do that for energy-related projects.
    Mr. Ryan. I yield back, Mr. Chairman.
    Mr. Yoder. Mr. Taylor.
    Mr. Taylor. Not right now.
    Mr. Yoder. Okay. Ms. Wasserman Schultz.

           HOUSE HISTORIC BUILDINGS REVITALIZATION TRUST FUND

    Ms. Wasserman Schultz. Thank you. Mr. Ayers, thanks for the 
really incredibly good job that you have done and your 
stewardship over the Architect of the Capitol, and thanks to 
your staff because I think they are among the finest in the 
country.
    Mr. Ayers. Thank you.
    Ms. Wasserman Schultz. You are welcome. How much is in the 
historic buildings preservation trust fund right now?
    Mr. Ayers. The House Historic Revitalization Trust Fund 
available balance is approximately $38.5 million.
    Ms. Wasserman Schultz. Mr. Chairman, I don't want to 
presume that you are unfamiliar or familiar with, a number of 
years ago, we established a House Historic Buildings 
Preservation Revitalization Trust Fund for the very reason that 
drove the question because--and I alluded to Mr. Ayers' 
predecessor. When we built the Capitol Visitor Center, the cost 
overruns were astronomical. It was not on time, not on budget, 
and there was nothing fiscally responsible about it, including 
any process or protocol or accountability in place to make sure 
that we could stay on top of it.
    And we took over the oversight of that project, along with 
GAO, which we assigned oversight to, and brought in, you know, 
sort of reigned it in and got it finished, but then we 
established this trust fund, given that we were going to go 
through Cannon, Longworth, and Rayburn's renewal, the garages, 
and you know, we have got really billions of dollars of 
revitalization to do. So we have been banking that money.
    And a couple of fiscal years ago, we separated out the way 
we line item it in the Architect's budget so we could see what 
we were banking for this particular fiscal year into the 
historic trust fund and what they were--and what they had that 
they were spending so that we could make sure we could see it 
more clearly.
    So what is your proposal in your budget for fiscal year 
2018 to add to the trust fund?
    Mr. Ayers. Our 2018 budget requests $10 million. Can I take 
a minute to expand on that?
    Ms. Wasserman Schultz. Yes, please.
    Mr. Ayers. You and I have had some discussions about what 
is the right investment scenario that we should be investing 
in.
    Ms. Wasserman Schultz. Correct.
    Mr. Ayers. We have spent, as I committed we would do, we 
spent last summer looking at that. I was briefed on it a few 
months ago, and I am not comfortable that we have thought of 
every possible option yet. The investment strategies that I saw 
were impractical and unsustainable, and I think we need to go 
back to the drawing board.
    Ms. Wasserman Schultz. As in we are investing too little?
    Mr. Ayers. Correct.
    Ms. Wasserman Schultz. Yes, that has been my concern, as 
well.
    Mr. Ayers. Correct. Clearly I think $10 million----
    Ms. Wasserman Schultz. So we need more savings.
    Mr. Ayers [continuing]. Is too little, but I also think 
that I can't come to you and say I need $200 million a year, 
which is roughly what our proposal said.
    I have asked our team to go back to the drawing board and 
bring in some different kind of thinkers for us, some 
developers and some real estate professionals to help us think 
differently about the investment structure and what we need to 
do and when.
    With the 2017 omnibus, we now have money to bring those 
experts on, and we will continue with that. I think when we get 
something that we are comfortable sharing with you, we will. We 
are working on it.
    Ms. Wasserman Schultz. That is great. Last fiscal year, at 
these hearings, we initially, when we created the trust fund, I 
think put in $50 million or $70 million, and we had----
    Mr. Ayers. Seventy.
    Ms. Wasserman Schultz. Seventy, and then, I think 50--or 
maybe 50 the next year. We put much more significant amount of 
funding initially, and we have only been doing $10 million 
increments in the last few. And given the very significant 
amount of money we are going to have to spend in increasing 
amounts over time, I asked Mr. Ayers last year to take a look 
at what was the right amount. And so it is just something that, 
in terms of our accountability and oversight, that we should 
monitor.
    Mr. Yoder. Okay.
    Ms. Wasserman Schultz. Thank you.
    Mr. Ayers. You are welcome.
    Ms. Wasserman Schultz. Also I thank you for taking care of 
the ducks.
    Mr. Ayers. Thank you.

                               DUCK RAMPS

    Mr. Yoder. How is that going, by the way? The ducks?
    Mr. Ayers. The ducks are terrific. There are four broods 
out on the Capitol reflecting pool today. The duck ramps are in 
use.
    Mr. Yoder. Do they have names, these ducks?
    Mr. Ayers. Not yet.
    Mr. Yoder. Okay. Well----
    Mr. Ayers. Twitter has been active for a few days. They 
will have names soon, I am sure.
    Mr. Ryan. Hey, naming rights we can generate in revenue.
    Mr. Yoder. There you go. We can put that in the trust fund.

                         LEAD IN WATER TESTING

    Mr. Yoder. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. I wanted to just ask you about the 
lead issue in Cannon and where we are. If you could give us an 
update on where we are with the lead abatement.
    Mr. Ayers. Sure. Two things. First, I just want to 
acknowledge that Mr. Moolenaar and I spoke earlier, and he 
suggested that perhaps it is time for us to go back and 
communicate to staff with an update of where we have been.
    We did a great job, I think, communicating with the 
Congress through the crisis, and we have not communicated since 
then. Perhaps now is a good time to communicate back to the 
Congress maybe with some townhalls or something about where we 
stand, and we will do that.
    We brought in a consulting team to help us figure out what 
happened and where the lead was coming from. As we anticipated, 
there is no sort of smoking gun, but we did find a number of 
things: One is that it is very likely that the construction 
activity on all of those water pipes contributed to a lead 
problem. Two, the consulting team found pretty significant 
variability in the chemical makeup of the water in the 
building. Water pipes, especially those with lead content, like 
very stable pH and very stable chlorine amounts in water. The 
test result showed that those things, both the pH and the 
orthophosphate and the chlorine levels had very significant 
variability which could result in lead leaching from pipes.
    They recommended that we take some action to better control 
the variability of those things, and we have done some of that. 
They suggested that we implement a significant and regular 
flushing program. We have started that. And I would point out 
that they said that the lead problems in the building persist 
today. From my perspective, they do continue to persist. I 
think it is the best plan for us to leave the water turned off.
    Ms. Wasserman Schultz. You are still providing bottled 
water?
    Mr. Ayers. We are continuing to do that and will do so 
until the end. And you know, throughout the basement, we 
replaced all of that piping. As we finish phase 1, we will 
replace all of that piping. From an engineering perspective, we 
don't see any reason why we couldn't turn the water on when 
Members move back in, because everything is completely new. It 
should be okay. So I think that is the first opportunity.
    Ms. Wasserman Schultz. And when is that?
    Mr. Ayers. That is the next election move cycle, which is a 
year and a half from now.
    Ms. Wasserman Schultz. Got you. Thank you.

                             RAYBURN GARAGE

    Mr. Yoder. Mr. Ayers, we have talked a lot about the Cannon 
project. We know the Rayburn Garage project is continuing. I 
have had a chance to tour that. Last year, we provided $30.8 
million for that project. This year's request includes $31 
million for the third phase of four. You might give us a little 
update on its progress: on time, under budget, same sort of 
questions we had on Cannon.
    You are also taking responsibility on the O'Neill Building; 
if there are any specific updates the committee should be aware 
of there. And then the Capitol Power Plant, we know we deferred 
the revitalization of the West Refrigeration Plant for several 
years now due to funding constraints. Your fiscal 2018 request 
includes $19.19 million to continue this project. You might 
update us on the situation there and what would occur if we are 
not able to provide those funds and the impact.
    And then, lastly, so it is sort of three separate 
questions, and then the last thing would just be the deferred 
maintenance list. So we have alluded to $1.5 billion. Ms. 
Wasserman Schultz has brought up some of the long-term 
projects.
    What else is out there? What is next after Cannon, Rayburn, 
taking over O'Neill, the chillers, what are your other big 
projects both in the coming years and long term?
    Mr. Ayers. So Rayburn Garage first. We are undertaking a 
complete renovation of the Rayburn Garage. The concrete floor 
decking in the garage was unsafe. Concrete was falling off and 
the steel rebar inside the concrete was rusting and causing the 
concrete to fall off. It was in a very unsafe condition. We are 
well into phase 1 of four phases on that project, which is on 
budget and on time.
    Each of those phases will take about 14 months to complete, 
and we don't see any issues with turning over those phases one 
after the other. We are pretty comfortable on that job.

                     O'NEILL HOUSE OFFICE BUILDING

    The O'Neill House Office Building moves over to our control 
on June 8, and we have been incredibly busy the last few months 
putting together a comprehensive plan and schedule of what we 
need to do when to make that happen. This includes the people 
we need to hire, contracts we need to award, working with the 
United States Capitol Police, the Chief Administrative Officer 
and all of our legislative branch partners who all have a piece 
of that. We have been working together extremely well.
    We think we are ready for June 8. I know the Capitol Police 
believe they are ready for June 8 as well. We haven't hired all 
the people we need, but we have hired many of them. We are 
partnering and have spent a considerable amount of time with 
GSA understanding how they run and operate the building, 
including what contracts they have in place to things as 
mundane as cleaning, trash collection and getting the trash out 
of the building to the right place and taking care of the green 
roof on the top of the building. We think we have a handle on 
what we need to do to make that successful. We feel pretty good 
about that.

                          CAPITOL POWER PLANT

    At the Capitol Power Plant, as I mentioned in my opening 
statement, we still have two chillers from the 1970s. This is 
equipment that is now 37 or 38 years old that just is not 
efficient. Chillers today are at least 50 percent more 
efficient than chillers of the 1970s era. We are sitting in a 
nice cool room today due to the chillers at the Capitol Power 
Plant that are making chilled water and sending it out through 
underground tunnels to create air conditioning throughout all 
of our buildings.
    I know I am quite convinced--and we often talk about it 
because it is such an anomaly--how important the Capitol Power 
Plant is to congressional operations. We have many other 
buildings that we think could go offline and that Congress 
could continue to do its business, but rest assured, in July, 
if we are not able to air-condition any building, I don't think 
the Congress is going to be able to undertake its business.
    So it is important, and this equipment regularly fails, 
regularly fails to start when we need additional chilling 
capacity. We start the equipment, it fails to start and we have 
considerable trouble with it. I am looking forward to that 
investment. And I know we have funded part of that already, and 
we are hopeful that----
    Mr. Yoder. What is the total project cost of concerns 
there?
    Mr. Ayers. I think it is $227 million, the total cost.
    Mr. Yoder. How much have we already appropriated?
    Mr. Ayers. I don't know the answer to how much we have 
already appropriated, but I can send you that.
    Mr. Yoder. You got 19.19 in your 2018 budget request.
    Mr. Ayers. Correct.

                     PROJECT PRIORITIZATION PROCESS

    Mr. Yoder. And then what is on the horizon? What are the 
deferred maintenance projects that create--I have looked 
through the list of that, but can you give the committee sort 
of a broad brush, the $1.5 billion in deferred projects?
    Mr. Ayers. Absolutely. I think one of the interesting 
things in our budget, for those that might have a budget book 
here, we do give you a list of projects that we think need to 
go in the budget, and there are 21 of them. But we also give 
you a list of projects that we have deferred, projects that 
need to be done, that are ready to be done, but we have 
deferred them to another fiscal year because, through our 
project prioritization process, they don't rise to the top.
    Many of them continue to be infrastructure projects. There 
are some electrical projects, some transformer projects wiring 
replacements, piping replacements for the Capitol Building, 
projects like that.
    In the House, we have taken a little bit of a different 
approach. Instead of doing individual line-item projects, we 
will take many of these and group them together like we are 
doing with the Cannon project. The Cannon renewal is really 10 
or 20 other projects lumped into one big renewal project. We 
think that is probably the right approach to continue with the 
House. We have not made decisions yet whether the Rayburn or 
Longworth is appropriate to move toward next, but I think for 
the House, that is the next big thing, after the Cannon 
Building runs out, to undertake one of those.

                      DEFERRED MAINTENANCE BACKLOG

    Mr. Yoder. Okay. Mr. Ryan.
    Mr. Ryan. You know, as I hear, just to reiterate my point 
last time, these projects, $1.5 billion today, in 10 years are 
going to be a hell of a lot more.
    Mr. Ayers. Yes.
    Mr. Ryan. And how we can use, potentially use some bonding 
capacity to be able to get this stuff done when labor is 
cheaper, products cheaper, you know, all this stuff is a lot 
cheaper, I think that is worth us digging a little deeper in 
trying to explore the opportunities, Mr. Chairman. I mean, you 
know, I can only imagine what things are going to cost 10 years 
from now if we keep on the trajectory we are on now.
    So I want to reiterate that point. Also, if you can give us 
an update on the investigations to the tragedy that Mr. Yoder 
mentioned in his remarks with Matthew McClanahan. I know there 
were two or three different groups looking into it. If you 
could give us a little bit of an update on, you know, lessons 
learned, I guess.
    Mr. Ayers. Sure, happy to, and we will follow up with you 
on the bonding and other ideas that----
    Mr. Ryan. I mean, if we are doing it for energy, we are 
able to do it.
    Mr. Ayers. Yes. Exactly.
    Mr. Ryan. And so, you know, clear the deck--not clear the 
deck, but make a little bit more headway. So anyway, thank you.

                            TREE MANAGEMENT

    Mr. Ayers. Thank you for recognizing Matt McClanahan. That 
was a tragic accident and a tragic event for us. I think we as 
an agency are continuing to reel from that a little bit and 
working toward to get ourselves refocused. Most importantly, 
taking care of Matt's family, which I think we have 
appropriately done. I know they are incredibly appreciative of 
the work that we did and the support of the Congress as well.
    We have 4,300 trees across Capitol Grounds. After this 
incident, we thought it appropriate that we have one of our 
certified arborists--we have several certified arborists on 
staff--go out and look at every single one of those trees. That 
has been done. It has been done for 2 weeks now, 3 weeks now. 
We laid eyes on every single one. That led us to remove seven 
trees. We thought seven of them probably ought to come down, so 
we took action and took those seven trees down.
    After we looked at those 4,300 trees, we identified a 
little under 200 of them that we should come back and take a 
more indepth, or what we call a level 2, investigation on. We 
are halfway through that investigation. We will have that done 
by the end of the month, and I think that will give us a much 
better handle on where we stand on our tree program.
    We do have--and I have told the group this so many times--a 
really good and dedicated and professional set of tree care 
professionals that take care of our trees across the Capitol 
campus. They are really taking this news hard, but I can assure 
you they have nothing but the public's safety in mind in the 
work that they do, and they continue to go about their work. 
Thank you.
    Mr. Ryan. Thank you. That is it. I mean, it is just so 
beautiful to just walk through, and I remember when Mr. Murphy 
died, and we went out and dedicated a tree to him. It really 
hit home how much thought goes into every little detail of the 
campus, and I want to thank you for that, and I appreciate your 
work, so thank you.
    Mr. Ayers. Thank you.
    Mr. Yoder. Mr. Taylor.
    Mr. Taylor. All my questions are answered.
    Mr. Yoder. Okay. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Nothing else.
    Mr. Yoder. Okay. With that, I remind the committee we have 
a hearing tomorrow at 10 a.m. And we have a hearing tomorrow at 
2:30 p.m. So, at this point, the subcommittee will adjourn 
until tomorrow at 10 a.m. When we will hear from the U.S. 
Capitol Police.
    [Questions for the record follow:]
    
    
                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
      

                                            Thursday, May 18, 2017.

                      UNITED STATES CAPITOL POLICE

                               WITNESSES

MATTHEW R. VERDEROSA, CHIEF OF POLICE
STEVEN A. SUND, ASSISTANT CHIEF OF POLICE

                      Statement of Chairman Yoder

    Mr. Yoder. Good morning, everyone. Thanks for attending our 
hearing this morning. Good to see everybody. I would like to 
call the hearing to order.
    This morning we will hear testimony from the United States 
Capitol Police regarding their fiscal year 2018 budget request. 
I would like to welcome Chief of Police Matthew Verderosa, who 
is testifying before this committee for the first time in his 
capacity as Chief of Police. Chief Verderosa has had an 
extensive career within the United States Capitol Police, 
rising through the ranks and ultimately becoming chief last 
March. Congratulations.
    Also joining the chief today is Assistant Chief Steven 
Sund, who joined the department in January after a 
distinguished 25-year career with the Metropolitan Police 
Department. Congratulations to you as well.
    I would also like to take a moment to thank all the 
officers and civilians of the Capitol Police for their service. 
Their presence allows Members and staff to safely conduct the 
people's work and ensures that visitors can safely enjoy their 
time on Capitol Hill. You are the ones who put your lives on 
the line every day to protect Capitol Hill in the same way that 
our brave law enforcement officers protect our communities all 
across America. You are the ones who run into trouble as others 
are running away seeking safety. You are heros, and we thank 
each and every one of you and your folks for their service.
    This week is National Police Week, and Congress has 
welcomed many of those policemen and women to D.C. to recognize 
them for their heroism and to remember those we have lost. The 
United States Capitol Police was the host department for the 
Peace Officers Memorial event on Monday, which officers from my 
district in Kansas attended. My community back home was all too 
aware of the sacrifices that law enforcement makes to keep us 
safe.
    Over the last year, three police officers have given their 
lives in the line of duty in my district alone. Brad Lancaster, 
Dave Milton, and Brandon Collins made the ultimate sacrifice, 
and they are on my mind this week, along with all their other 
fallen officers across the country.
    With all that in mind, we turn to the issue at hand in 
today's hearing. Chief, your budget request for fiscal year 
2018 is $426.6 million. That is approximately 8 percent 
increase from the enacted level. We understand the importance 
of the critical mission and the role that Capitol Police plays 
in ensuring the safety of all of us.
    I also understand that as the mission of the Capitol Police 
increases, so do the required resources to fulfill that 
mission. To that point, in less than a month, the O'Neill 
Federal Office Building will be transferred to the legislative 
branch, and the Capitol Police will be charged with securing 
the building.
    Additionally, the police department is working towards 
enhancing garage security and adding prescreening capabilities 
all while maintaining current operations. However, our job is 
to scrutinize this requested increase and make informed funding 
decisions. In a tight fiscal environment, many competing 
priorities exist across the legislative branch that must be 
ranked and stacked in a holistic approach, which this 
subcommittee will do over the next coming weeks.
    I look forward to hearing your testimony.

                  Statement of Ranking Member Tim Ryan

    With that, I yield to Ranking Member Ryan for any opening 
remarks he may have.
    Mr. Ryan. Thank you, Mr. Chairman.
    Good morning, Chief, and Assistant Chief Sund. Thank you 
for being here, first time as head of the department. Thank 
you.
    First let me say thank you for your service. I mean, those 
of us who have been here for a while or new to the Congress, 
you are always there and not there all at the same time. And I 
know you are always trying to balance having access to Members 
of Congress, access to the government, but also provide 
protection for us both sometimes in our congressional district 
as well as here, so I want to say thank you for that.
    We want to make sure we get you the resources that you need 
to be able to do your job. We have school groups coming through 
here all the time, a lot of our constituents come here, at the 
same time, balance that security with accessibility, and that 
is what we are going to try to juggle here with this budget, 
but we want to make sure you have the resources that you need.
    Finally, let me just extend my condolences on the loss of 
Ryan Lee, a canine technician, who had been with the Capitol 
Police since 2003. And please extend to his family our thoughts 
and prayers are with him.
    Chief Verderosa. Thank you.
    Assistant Chief Sund. Thank you.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Yoder. Thank you, Mr. Ryan.
    At this point we will call on Chief of Police Matthew 
Verderosa to testify. Your remarks will be made part of the 
record. We have them in our--before us, and you may summarize 
your remarks for the committee.
    Chief Verderosa. Thank you, sir. Good morning, Mr. 
Chairman, Ranking Member Ryan, and members of the committee. I 
am honored to be here today, and I appreciate the opportunity 
to present the United States Capitol Police budget request for 
fiscal year 2018.
    I am joined here by some members of the executive team and 
executive management team, including Chief of Operations, 
Assistant Chief Steve Sund; Chief Financial Officer Jay Miller; 
General Counsel Gretchen DeMar; Inspector General Fay Ropella. 
And also with us is the president of the Fraternal Order of 
Police Labor Committee, Officer Gus Papathanasiou.
    I would like to thank the committee for its unwavering 
support of the United States Capitol Police and for providing 
the necessary funding to support our personnel and operations. 
As we have seen over the past several months, our officers are 
well prepared and highly trained to deal with any circumstances 
that they may encounter. What at first may appear to be 
routine, may in fact be a threat to the safety and well-being 
of the Capitol Complex.
    Accordingly, we have developed our fiscal year 2018 budget 
request of $426.6 million, with a focus on continuing to equip, 
train, and prepare our workforce to protect the U.S. Capitol 
and the Congress and to ensure they remain safe and secure.
    As you know, starting next month, the department will begin 
protecting and securing the O'Neill House Office Building. This 
new mission requirement is one of our primary focuses, and we 
are confident that the transition from the Federal Protective 
Service to the USCP will be seamless for both us and the House 
community.
    Additionally, due to the global threat environment and the 
tactics of terrorist organizations attacking public venues, we 
have worked in close coordination with the Capitol Police Board 
to determine that additional screening of various means must be 
employed to continue to keep the Capitol Complex safe.
    As a result, our fiscal year 2018 request includes funding 
for an additional 72 officers and 48 civilians for the purpose 
of enhancing and completing broad security, add increased 
capabilities, and civilianizing certain sworn positions as part 
of a multiyear plan to bolster the overall security of the 
Capitol Complex.
    Lastly, our request also addresses investments in training, 
recruiting, and outfitting new employees, replacing key 
equipment and systems that are becoming obsolete, and restoring 
annual levels reduced in previous fiscal years to meet vital 
department needs.
    Our commitment to the mission and our steadfast dedication 
to ensuring the safety and security of Members, staff, and the 
millions of visitors who come to the United States Capitol is 
our top priority. This would not be possible without the 
dedicated men and women of the police department. I continue to 
be impressed with their overall performance and professionalism 
every day.
    We continue to work closely with you and your staff to 
ensure that we meet the needs and expectations of Congress as 
well as our mission in a reasonable and responsible manner.
    Once again, thank you for the opportunity to appear here 
today, and I would be pleased to answer any questions that you 
have.
    [The prepared statement of Chief Verderosa follows:]
    
    
                [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Yoder. Thank you, Chief.
    Assistant Chief Sund, do you have testimony to bring this 
morning?
    Assistant Chief Sund. No, sir.
    Mr. Yoder. Okay.
    Assistant Chief Sund. Nothing----
    Mr. Yoder. You are just available for questions?
    Assistant Chief Sund. Yes, sir.
    Mr. Yoder. All right. We will grill you a little bit.
    Thank you for your testimony. We will now turn to 
questions.

           ADDITIONAL POSITIONS REQUESTED IN FISCAL YEAR 2018

    Chief, I have noticed in your budget request for fiscal 
year 2018, you have asked for 72 new sworn officers and half 
year funding for 48 civilian positions. You might discuss a 
little bit the purpose of those new positions, why do you need 
them, and why they are a priority?
    Chief Verderosa. The focus for the next several years of 
the Capitol Police is to enhance our ability to accomplish 
three major initiatives plus staff the O'Neill building with 
regularly assigned personnel.
    The three major initiatives are completing the House garage 
security, providing prescreening and additional screening at 
entrances at all the office buildings, as well as enhanced use 
of the portal scanners, which are currently only used during 
major events in the House Chamber, such as joint meetings, 
joint sessions, or major votes. The thought is to use those and 
employ those as a supplemental effect on our current screening, 
which gives us another capability to detect any types of 
threats that may be entering the chambers.
    Mr. Yoder. How much of this increase is related to the 
Rayburn House Office garage and other garage security projects?
    Chief Verderosa. The garage security projects would equate 
to 39 full-time equivalents. Once we begin the O'Neill 
transition, which I believe will go seamlessly, we have been 
working very closely with the transition team to begin that 
process, and I don't think anyone will even notice the 
difference other than our staff will be in place, all the 
systems that we need will be in place.
    Secondarily, since that is primary and that is occurring in 
June, that will be the first initiative, the garage security 
implementation is subject to funding of those additional 
personnel.
    In order to effectuate the change, as we did in both 
underground garages, the Longworth and the Cannon underground, 
you have to implement the security project all at once, you 
have to do it completely. Otherwise, there is really no point 
in starting security unless you can do the whole building. Once 
we have those personnel onboard, we would be able to begin to 
cover those open lobbies inside the Rayburn, subject to the 
construction schedule. And then once it is done, we would 
complete the fifth phase.
    Mr. Yoder. I am interested in the timing on that----

                         HOUSE GARAGE SECURITY

    Mr. Yoder [continuing]. Because yesterday we had the 
Sergeant at Arms here and we were talking about the completion 
of that project and when that security would be necessary. He 
thought completion of the project would be in calendar year 
2022. So do you see this being a need for those officers to 
secure those doors in 2018, because obviously your point is if 
you are not done, then there is no point in having partial 
security.
    Chief Verderosa. Correct. It will take approximately 1 year 
to hire, train, and deploy new officers. If funding for these 
positions were to occur in fiscal year 2018, we would likely be 
able to initiate security at the number of venues inside the 
Rayburn which would be open. This would be three or four 
places, while the building is still under construction.
    It will take about a year from the time that the funding 
comes in to actually get the officers in the field. So we could 
start prior to 2022.
    Mr. Yoder. Okay. And then once garage security is 
implemented, how is congressional staff going to flow through 
this? I noted that in the Senate, they have garage security, 
but as a result, when the Senate staff goes from the Senate 
office buildings to the Capitol, they actually don't go through 
screening again.
    Chief Verderosa. That is correct.
    Mr. Yoder. So in the House side, if we had screening at 
every entrance into the House office buildings, would the House 
staff then have to get screened again to go into the Capitol?
    Chief Verderosa. No, they wouldn't.
    Mr. Yoder. Okay.
    Chief Verderosa. One of the offsets or benefits would be 
that once the Cannon and Rayburn are completed, then everyone 
entering the buildings, whether it is through a door or through 
the garage, would be screened, and that would alleviate the 
need for staff to be rescreened to go over to the Capitol.
    The staff-led tours, the citizens who would be subject to 
the tours would still need to be screened for prohibited items. 
This is a different level at the Capitol. So we realize the 
offset once both the Cannon and the Rayburn are completed, and 
we will be able to eliminate some posts, and that is how we got 
it down to the number that we----
    Mr. Yoder. So because of that, you have already factored in 
the reduction in screening posts for staff----
    Chief Verderosa. Yes. Ultimately at the end.
    Mr. Yoder. Okay.
    Chief Verderosa. Yes.
    Mr. Yoder. Okay. Mr. Ryan.

                         CIVILIANIZED POSITIONS

    Mr. Ryan. Thank you, Mr. Chairman.
    I just have a follow-up on the budget request. You say that 
you want to hire 48 new civilians in order to turn some current 
positions filled by sworn officers in the command center and 
the background investigations, et cetera.
    Chief Verderosa. That is right.
    Mr. Ryan. So does this mean over the course of the next 
year, you want to effectively increase the number of officers 
to over a hundred?
    Chief Verderosa. We would get utility out of approximately 
120, 72 new plus the 48 that are currently in command center, 
communications, Rayburn range, firing range. Once those are 
civilianized, we would take those sworn officers at a much 
quicker rate than we would a new hire and put them in the 
field.
    Mr. Ryan. Okay. And it is a half a year because of the 
training? Is that----
    Chief Verderosa. Hiring and training, it takes a little bit 
of time to----
    Mr. Ryan. Okay.
    Chief Verderosa [continuing]. To complete the position 
descriptions and get that number of personnel onboard. We would 
hire positions in a group, we would hire X number of command 
center technicians, X number of communications. Rather than 
hiring one or two positions at a time, we would hire a class of 
command center technicians so that we could effectuate the 
move.

             QUALIFICATION STANDARDS REQUIRED FOR NEW HIRES

    Mr. Ryan. So just to help me understand, so before you even 
hire and get to the training piece, Capitol Police training, 
what needs, what level of training or education do they have to 
have before they even apply for the job? Is there a certain 
standard, a certain level?
    Chief Verderosa. It depends on the job for the civilians. 
For the command center technicians, we look for personnel who 
have experience in running a JOC, a Joint Operations Center. 
For communications, we currently do hire civilian dispatchers 
and they do three functions: they do alarm monitoring, they do 
call taking, complaint call taking, and they also do 
dispatching.
    We would eliminate the sworn position once we had a 
sufficient number. The command center is a larger number, so we 
would want to bring people on and train them all at once.

                        COST TO TRAIN AN OFFICER

    Mr. Ryan. What do we spend per officer to train? Do you 
have that number?
    Chief Verderosa. I don't have it with me, but I do have 
that number, and I can submit it for the record.
    Mr. Ryan. Okay. I would like to get that.
    [The information follows:]
    
                   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    Chief Verderosa. Sure.
    Mr. Ryan. Thank you, Mr. Chairman.
    Mr. Yoder. Mr. Amodei.
    Mr. Amodei. Thank you, Mr. Chairman.

     MANDATORY RETIREMENT AND RE-HIRING SWORN IN CIVILIAN POSITIONS

    Chief, there is something, and I apologize. Because of the 
schedule, I didn't get a chance to get with you guys before, 
but I would kind of like to--these are all mostly in the 
context that I would like to follow up with you on some things.
    The first one is my understanding is that in certain--your 
mandatory retirement age is 57, I think?
    Chief Verderosa. It is, yes, sir.
    Mr. Amodei. So in some instances, and it kind of gets into 
what you talked about in your opening statement about 
civilianizing certain positions, stuff like that, and I think 
there is also a waiver where you can, under whatever your 
circumstances are, which I am not familiar with, although I 
would kind of like to get those if I could----
    Chief Verderosa. Sure.
    Mr. Amodei [continuing]. You can extend somebody to 60, but 
the question revolves around, if there are instances where 
people are retiring and then being rehired in civilian 
positions to kind of do their same thing.
    Now, I am not coming to any conclusion. I will say, hey, if 
somebody is pretrained or whatever, maybe, but I am also 
wondering about, so does that slow down the opportunity for 
folks still in the system for promotion? I know that your 
funding isn't the Federal retirement system stuff, so you can 
say, well, they may be getting two Federal checks, but it is 
not out of the stuff we are talking about here.
    So I would kind of like to get an idea of the scope of the 
issue in terms of how often has this been done, like, say, in 
the last year, and just what the thinking was in terms of, hey, 
we decided to rehire Amodei in a civilian capacity because, you 
kind of fill in the blanks. So that is one, just to get an idea 
of how that is working.
    Chief Verderosa. Sure.
    Mr. Amodei. Obviously my concern, if there is one, under 
full disclosure is, if this is knowingly or unknowingly 
prohibiting the opportunity for promotion from within, I just 
kind of want to know that you guys have thought about it in 
terms of for folks that are--and since----
    Chief Verderosa. Sure.
    Mr. Amodei [continuing]. I am north of 57, you know, I 
don't know why I am sensitive about folks under 57, but just 
for the heck of it, let's take a look at that and what the 
waiver is meant for in case there are reasons why the waiver 
wasn't used.
    Then the other thing that I--my understanding is, is that 
your counsel for the department, when you do personnel matters, 
you have advice of counsel, which is appropriate and all that 
other sort of stuff, but that the Police Board uses the same 
counsel when they are appealed to. I don't know if that is true 
or not, but if it isn't true, then you can just get me back the 
information and say, no, the Police Board uses Yoder and Ryan, 
Inc., for their counsel or something like that.
    But if they do use the same counsel, my concern is this, in 
a due process sense, where it is, like, if they are acting as 
the appellate authority, then it would seem to me that if they 
are in fact using the same counsel, you are kind of combining, 
if you will, the prosecutorial with the judicial thing in terms 
of separation of--so that is the thought there.

               ROLE OF USCP IN DETERMINING DOOR CLOSURES

    The final one is, since I am a continual griper about doors 
at Cannon, which isn't specifically your jurisdiction, but you 
guys play a part in it, I would like you guys to just get me a 
short thing saying, when somebody is talking about access to 
buildings and whether we open a door, don't open a door, how 
long it is open, here is the role the Capitol Police play in 
it. And I am not trying to sneak around on the Sergeant at Arms 
or anybody else, but if I want to have a discussion as this 
goes on throughout the construction in Cannon, I just want to 
make sure that I start out at least a little bit educated.
    Chief Verderosa. Certainly.
    Mr. Amodei. So we will get back with you off-line and get 
that information from you, and I appreciate it.
    Chief Verderosa. Sure. I will say that the Capitol Police 
Board does have the authority to waive mandatory retirement up 
to age 60. We have done it. As a matter of fact, we have a 
blanket waiver in place until September 30 of 2017, this year, 
for those who are mandatory this year. Because of the budget 
situation and continuing resolution, we wanted to maximize our 
ability to staff.
    And we are also contemplating, based on the initiatives and 
the need for personnel, extending the waiver again to those who 
are under 60. I think in 2017, it affected, I believe 16 
people, some took advantage of it, some did not. In 2017, it is 
a smaller number, I believe it is 12 that are mandatory. We 
have a number of people who reach that 25-year at any age and 
decide to go and change options.
    When we civilianize, what will happen is these individuals 
will convert over to a civilian position. So they are not going 
to retire and then obtain additional salary. If someone on the 
sworn side wants to put in for a civilian position, they are 
free to do so. And some do that.
    We have had that in a number of instances where people for 
whatever reason, sometimes they are tired of shift work and 
they want some steady duties. We had an official become a 
background investigator, met the qualifications, hired on as a 
civilian employee and they are converted over, as opposed to 
collecting retirement and becoming a paid civilian employee.
    Mr. Amodei. Okay. Great.
    Chief Verderosa. But I will get back to you on those other 
things.
    Mr. Amodei. We will get on your calendar.
    Chief Verderosa. Absolutely.
    Mr. Amodei. Thank you.
    Mr. Yoder. Ms. McCollum.
    Ms. McCollum. Thank you.
    Well, good luck with the accreditation coming up.
    Chief Verderosa. Thank you.
    Ms. McCollum. You have been successful with receiving the 
Gold Standard accreditation in the past, so I am sure you will 
do well this time.

                  SPECIAL EVENTS PLANNING COORDINATION

    Mr. Amodei and I are both on the Interior, and so one of 
the things that I was noticing that you were talking about in 
here with some of your overtime is some of your unscheduled 
events, and one of them is listed as the holiday concerts, but 
you kind of know when they are coming, they are not too 
unscheduled. Memorial Day is Memorial Day and----
    Chief Verderosa. That is true.
    Ms. McCollum. With what is coming up now with the Folk Life 
Festival in July down here, how much of a planning goes on 
between you, the Park Police, and the Smithsonian with some of 
the upcoming events so that you know you might be having extra 
visitors coming through the Visitors Center and things like 
that? At one point the conversations were pretty good, and I 
haven't followed up to hear how well it is going.
    Chief Verderosa. That is a great question. Thank you, 
ma'am.
    We work very closely, almost on a daily basis, with our 
partners in the Park Police, Park Service, and Metropolitan 
Police. The three most prominent permit issuers for 
demonstration activity, events, special event planning are the 
Park Service, Metropolitan Police, and the Capitol Police on 
behalf of the board controls the traffic regs.
    So we work very closely, we look at the intelligence, we 
look at open source information, all the information that is 
available to us to determine crowd sizes, movements of crowds, 
determine whether or not streets need to be opened or closed to 
accommodate large numbers of attendees.
    Fourth of July is a good example of multi-agency planning. 
We work very closely with all of the entities to make sure that 
the flow of people to particular areas is smooth. We share 
information about any possible issues, whether it is law 
enforcement or other--otherwise in terms of are there any 
threats or any types of dangers that the public needs to be 
aware of, and it could be as simple as weather related. We 
certainly coordinate very closely.
    For all of these major events, large events that encompass 
the entire National Mall or large demonstration activity, we 
have our partners in our command center so that we have direct 
communication. We will have a command official from the 
Metropolitan Police or the Park Service or the Park Police, 
sometimes the military, depending on what the issue is, the 
D.C. Fire Department has dispatched all of their medical calls 
for events that are occurring on Capitol grounds right out of 
our command center.
    Ms. McCollum. Right out there.
    Chief Verderosa. We have a very great working relationship. 
You know, in the year preceding the election and all of the 
various events and demonstration activities, I have never seen 
the coordination any better in at least the last 10 years. We 
really have a great operating relationship with our partners, 
and I think it benefits everybody, it benefits the entire city.
    Ms. McCollum. Okay, and the air support, the one helicopter 
that you rely on is provided through U.S. Park Service.
    Chief Verderosa. That is correct.
    Ms. McCollum. We have talked about that----
    Chief Verderosa. Right.
    Ms. McCollum [continuing]. Before and working on constantly 
approving that.

                    NON-REIMBURSABLE OVERTIME EVENTS

    Could you tell me a little more, on page 5 you have--at the 
bottom, you talk about some of your missions and personnel, and 
you have a line in here, it says, this amount will cover--the 
amount of $40.7 million--will cover our base mission 
requirements and our support of nonreimbursable events at the 
Library of Congress.
    What are the nonreimbursable events at the Library--I know 
we go--we were just over there on Monday night, and so you 
probably have more staff on providing security for us. Are 
there other nonreimbursable events at the Library of Congress 
that wouldn't have a high attendance of members that you are 
not being reimbursed for?
    Chief Verderosa. The reimbursement goes to any security 
initiatives that are over and above what we would typically 
have for those buildings.
    Ms. McCollum. Well, what would be an example? One example 
is when we go to the dinners, when--and it is a highly attended 
event by members, but what would be another--I can ask the 
Library too, but----
    Chief Verderosa. Sure. If we open----
    Ms. McCollum [continuing]. You are the one picking up the 
tab, not the library, it sounds like.
    Chief Verderosa. If we open additional doors--as a part of 
the regular cost of doing business, if it is something that we 
would do, whether it is a congressional building or another 
building that we would have a normal number of patrols or a 
normal number of doors open, then we would not seek 
reimbursement.
    If it was a private fundraising issue at the Library and we 
had to provide extra access, doors open, those are the types of 
things that are reimbursed. And there is an analysis that is 
done between the Library and the Capitol Police to determine 
whether or not it is reimbursable.
    Ms. McCollum. But it says in here your support of 
nonreimbursable.
    Chief Verderosa. Which is the typical overtime. So if it is 
a Presidential arrival at the Library, we will----
    Ms. McCollum. Oh.
    Chief Verderosa [continuing]. Provide X number of officers 
to ensure that the security is adequate. If it is a large 
congressional event, that may be one that was not reimbursable. 
We may spend extra additional duty on the event, but it is not 
one of the deemed reimbursable events.

               SALARIES FUNDING FOR HOUSE GARAGE SECURITY

    Ms. McCollum. The last question I have is kind of a follow-
up to what the chairman was asking about staff in the garages. 
If I heard you correctly, you are not going to open up and 
start doing any of the security until you are ready to open up 
the doors for everything, that it is going to take hiring and 
training on here.
    So my question is, the dollar figure that you have for the 
personnel for the garage, is that based on a full year, is that 
based on a half year? If you don't have it with you--I am not 
trying to play Stump the Band. Could you break that down, 
because I am wondering if a year from now when we are doing 
this, that column line is going to go up another 3 or 5 percent 
because now everybody is on full-time, or have you figured it 
full-time and you might not use it all, which is fine, because 
you get gold stars from the accounting office, so you keep good 
track of all your pennies.
    But I am just wondering if that might be an increase that 
we should take in account as we go through and plan our budget 
for this year, that that actually might be more expensive in 
the pending years?
    Chief Verderosa. Right. I believe it is half year. It is 
half year funding.
    Ms. McCollum. It is half year funding.
    Chief Verderosa. Yes.
    Ms. McCollum. Okay. That makes more sense. Thanks.
    Chief Verderosa. Sorry.
    Ms. McCollum. Thank you, Mr. Chairman.
    Chief Verderosa. Sorry if I confused the issue.
    Mr. Yoder. Thank you, Ms. McCollum.
    Mr. Taylor.

                       ALTERNATIVE COMMAND CENTER

    Mr. Taylor. Thank you, Mr. Chairman.
    Thank you guys for being here today. I appreciate 
everything that you do to keep us safe.
    Your request for the $2.1 million to invest in a fully 
functioning alternative command center, at what functioning 
level would you say the current alternative room is and what 
needs to be done to get it to 100 percent functionality?
    Chief Verderosa. We have minimal ability. We have very 
basic ability to continue to function. The addition would be 
systems that we have in place at the command center, some of 
which are unclassified, some of which are classified. We would 
want that capability in the alternate, which I think is easily 
done with the requested amount. The capability we have now is 
less than perfect. It is a vulnerability that we want to close.
    We have redundancy in our communications, we have 
redundancy in our data, and this is the third component of the 
redundancy. This would give us the ability to get that room hot 
in 5 minutes, 5-minute response time.

         PERCENTAGE OF OVERTIME FUNDING ATTRIBUTED TO TRAINING

    Mr. Taylor. Okay. And the second question, the $40.7 
million to cover off-line trainings and overtime, can you 
explain what allocation percentage, roughly, is for trainings 
and what type of trainings?
    Chief Verderosa. The training that is covered, and the 
Congress and committee has been very generous with us, and we 
are--we are not like a typical police department where we can 
pull some cars off the street and send people to training. We 
still have to staff doors at the level and the expectation and 
controls.
    Congress has allowed us--has afforded us in the past 24,000 
hours of additional duty backfill. We would take people off 
posts and fill those positions that they are vacating at the 
cost of 24,000 hours.
    Typically, the training is active shooter training, 
experienced officer training, which provides also legal 
updates, handcuffing, and physical training, various entity 
training. Certain elements have different requirements based on 
what their job function is. Investigators are different than 
the field officers. It is all these types of trainings that 
should be done periodically that we really want to get everyone 
properly trained.
    Mr. Taylor. Just one quick question. What roughly 
percentage-wise is that at the $40.7 million and how does that 
compare to last year's?
    Chief Verderosa. The training was $1.5 million of the 
overtime.
    Mr. Taylor. Is that roughly the same as last----
    Chief Verderosa. Yes.
    Mr. Taylor. Okay. Thank you.
    Chief Verderosa. That is an annual request.
    Mr. Taylor. Thank you, Mr. Chairman.
    Mr. Yoder. Ms. Wasserman Schultz.

                        SWORN STAFFING PLANNING

    Ms. Wasserman Schultz. Thank you, Mr. Chairman.
    Chief, welcome. And it is a pleasure to work with you.
    Over the last number of years, particularly the last three, 
and during my tenure on this committee, I can't remember a 
fiscal year in which the Capitol Police didn't request a 
substantial increase in sworn officers.
    In fiscal year 2016, your actual sworn was 1,769, your 
inactive sworn in fiscal year 2017 is 1,871, your request for 
fiscal year 2018 is 1,943.
    What kind of planning is done over multiple years that 
would ultimately one day result in you not needing a 
substantial increase in sworn officers? I realize there are 
unique needs that we have, as this is not a typical police 
force, but the Capitol Police gets a substantial increase, much 
more than any other agency in our jurisdiction, every year, a 
substantial increase in equipment, substantial increase in 
sworn officers. It never seems like your mission is reached.
    So how do you come up with the number of additional 
officers that you need? Is it based on a formula? Is it based 
on threats? I would like to know, in what fiscal year are we 
going to not seek an increase in sworn officers, because there 
are--there is a sense that you will never believe that you have 
a sufficient amount of sworn officers. And I don't mean this as 
criticism, I certainly want us to meet the needs of security, 
but you do say in your testimony that we, as we know--where is 
the--I am going to find it.
    As you are aware, the Department's current sworn staffing 
levels do not provide the complete and necessary resources to 
meet all of our mission requirements within the established 
sworn officer utility or the number of work hours in a year 
that each officer is available to perform work.
    Each year, frankly, when these come--when the Capitol 
Police leadership has come, I presume that the request that you 
are making, if we grant it, is going to meet the needs that you 
have.
    Chief Verderosa. Sure.
    Ms. Wasserman Schultz. So I am not aware that we have not 
previously met your needs. When we fund your request, to me, we 
have met your needs.
    Chief Verderosa. Well, thank you for the question. I 
appreciate that. I will give a little background.
    In terms of the number of 72 recruits, 72 plus the 
projected number of attrition is what we can physically handle 
through our training academy. Based on the three initiatives, 
prior to the O'Neill coming into play, we had a multi-year 
plan, and the multi-year plan was to cover what the Department 
and the board believe are vulnerabilities to the complex in 
terms of the additional screening in the garages, the 
additional pre-screeners at the office buildings, and the 
enhanced use of the portal scanners for daily use. All of the 
FTEs and civilianizing positions to get the utility out of 
those sworn that are in positions that could be civilianized 
will support those initiatives. The 72 positions, and the 48 
positions, the total of 120, would not reduce existing 
overtime.
    We have an FTE shortage and we have looked at validation 
through various studies we have done on our manpower that dates 
back to the GAO days on how we utilize our manpower. In regard 
to our formula and our processes, we examine vulnerabilities, 
we look at what we want to accomplish with the staffing, and 
then we add--we seek the staffing to secure those 
vulnerabilities.
    Ms. Wasserman Schultz. It feels like that changes every 
year.
    Chief Verderosa. It does, and it can be based on the type 
of attacks that are occurring in the world. We certainly react 
to known information and also classified information, but this 
is more about a bicameral approach to the entire Capitol 
grounds to make the campus safe, to prevent attacks and to keep 
the issues that occurred at the CVC last March outside the 
building to the extent that we can.

                              OVERTIME CAP

    Ms. Wasserman Schultz. Are you still exceeding your 
overtime cap?
    Chief Verderosa. I think we did not have to--and I will 
look at my CFO on this--make any type of transfer last year.
    Mr. Miller. We didn't have to transfer. We just had minor 
adjustments to it for some excess, but still within our salary 
levels.
    Ms. Wasserman Schultz. But you had more overtime than you 
are authorized for? Is that it?
    Chief Verderosa. We were within our salary appropriation, 
but we had to make notification based on the expectation of 
what it would be used for.
    Ms. Wasserman Schultz. Mr. Chairman, this has been a 
problem for a long time. I totally support the Capitol Police 
and meeting their needs, but I have been concerned for a while 
that you don't have a long-term plan that at least is apparent.
    It feels like your mission changes every year, and it 
should change based on the needs that we have and shifting 
security challenges, but more toys and more officers--the quest 
to continue to grow is not appropriate, and so I really think 
we need a better sense of at what point and at what level does 
this committee need to fund you so that you have the adequate 
footprint that you need to meet your mission so that we can 
better plan for your funding needs and not get hit with a 
substantial increase.
    This is the smallest bill of all of them, and while we have 
been flat funding, or essentially flat funding many of the 
agencies in our bill, the Capitol Police continues to get 
substantial increases, and I would just like to make sure that 
those increases are planned for.
    I have additional questions in the future.
    Mr. Yoder. Mr. Moolenaar.

                 KEEPING THREATS OUTSIDE OF THE CAPITOL

    Mr. Moolenaar. Thank you, Mr. Chairman. And welcome, Chief. 
It is nice to see you again.
    Chief Verderosa. Nice to see you, sir.
    Mr. Moolenaar. I want to thank you and your team for 
allowing me to kind of see your operations and kind of 
understand how you work here at the Capitol. I very much 
appreciate you for that.
    Just as kind of a follow-up to some of those discussions 
and some of the discussions you were just having, one of the 
things that struck me is you have a perimeter that you are 
covering, and I think there has been tremendous progress where 
people around the Capitol area feel much safer and secure, and 
I want to commend you and your team for that, but you also made 
a point just now about keeping incidents outside of the 
Capitol.
    And one of the things you shared with me is, you know, when 
there is an incident, sometimes it is already in process in the 
Capitol by the time you become aware, and one of your goals is 
how you kind of move that barrier out.
    Chief Verderosa. Right.
    Mr. Moolenaar. Could you speak to that a bit, because I 
think that is pretty compelling?
    Chief Verderosa. Sure. The goal is always to keep the 
threats far away from the body, the icon, the Capitol, and the 
various many, many thousands of people here on a given day, the 
members, obviously.
    Certainly our robust presence influences whether or not 
there are negative or criminal acts occurring. In any given 
year, we process anywhere between 10--that includes staff and 
our members, but between 10 and 15 million people, and there 
are many more who walk through the grounds.
    It is an open campus and it is a very difficult task to 
provide a level of security that assures that the Congress and 
the Members can do their work while still fostering that 
relationship with the public and having it be a welcoming 
environment. We try to do so as unobtrusively as we can and 
with as minimal impact to the business process or the functions 
of Congress.
    What we want to do is we want to keep the bad guy away and 
we want to have a deterrent in place. By having pre-screening 
at doors, and keeping the threat outside and having the ability 
to more easily lock down a door if necessary to engage the 
threat outside of the door or in the street or on a border 
street. This is preferred to getting close to the campus, that 
is the goal. Sometimes we are able to do that and sometimes we 
are not.
    You can walk up close to the building and eyes are watching 
and we have other technology, but the goal is to keep threats 
as far away as you can. This takes a significant amount of 
personnel. I am certainly very aware of the impact that we have 
on the rest of the legislative budget, and the committees have 
been very gracious with us in terms of providing us resources. 
I do want to be completely transparent in how we operate.
    The number of 72 positions over multiple years will 
accomplish the goal of getting to the end result of achieving 
those three mission sets plus O'Neill, the completion of the 
garage security, pre-screeners outside each open access point, 
and the portal scanners. That total package will help make this 
campus safer.
    Mr. Moolenaar. Great. Thank you.

                           NEW COMMAND CENTER

    Mr. Yoder. Chief, in your budget request, you are asking 
for $2.1 million for a new command center.
    Chief Verderosa. Yes, sir.
    Mr. Yoder. And I believe that is in the Fairchild 
Building----
    Chief Verderosa. It is.
    Mr. Yoder [continuing]. Which, as we know, is a building 
that is privately owned that we lease. And I wonder what your 
thoughts are about why that is the preferred location, and 
would it make more sense to have that new command center in a 
building we own. It is a $2.1 million investment. And so maybe 
you could speak to that.
    Chief Verderosa. Sure. It is mostly technology. It is 
actually in a space that would be dually used. It would be 
vacated by the Chief Administrative Officer. There would be 
some minor alterations. Well, I don't want to say minor. There 
would be some alterations to that space, but it is four 
systems, the cost to bring the systems in, to run a pathway and 
to have that capability, and we believe we will have that 
ability to do it much sooner if we were to outfit this portion 
of the Fairchild Building. If we were to vacate that space, it 
is likely most of this technology would be ready for lifecycle 
at that point. I think it is a good investment. It is more 
immediate. Rather than wait for that capability, we determined 
that it would be appropriate to ask in this request.
    Mr. Yoder. What about a site that we own? Did you look at 
other sites? Like, what about the O'Neill building, for 
example?
    Chief Verderosa. Well, that is an option, but it is really 
dependent on the tenants that are in that space now and people 
vacating that area as opposed to--so if it is going to be 
extended for a year or two. I am really not sure what the 
length that the current tenants would be in that space.
    Mr. Yoder. But if the space was available there, that would 
also be an acceptable site for you?
    Chief Verderosa. Yes.
    Mr. Yoder. Okay.
    Chief Verderosa. Absolutely.
    Mr. Yoder. Okay. You know, one of the things that we have 
seen around the country is more concerns with district office 
safety. We discussed that yesterday at a hearing we had, and 
there are some measures that have been requested in the House 
of Representatives budget to allow additional security measures 
within district offices.

                USCP COORDINATION WITH DISTRICT OFFICES

    And what role does the Capitol Police play in that? You 
know, in many cases when Members of Congress attend events, 
sometimes the local city police will be there just to have a 
presence.
    Do you coordinate in that in any way? Is there anything in 
the budget request that would request some of the additional 
concerns that Members have with district office security?
    Chief Verderosa. Absolutely. One of the things that we do 
is the law enforcement coordination at the request of Members. 
Members can work through the Sergeant at Arms or request us to 
do an analysis on an event that is at a district office, an 
outside event. Thus far this year, we have done 184 member-
related law enforcement liaisons with district offices, and 
that also includes reaching out to the local law enforcement.
    We do it for both House and Senate. Without requests 
reached out to 178 offices when we found something that was 
occurring, that was planned to be occurring either at a 
district office or at a Member's event. The advent of a lot of 
the technology and the information that is out now helps us 
with that, but we have investigators that actually look at 
these events to determine whether or not there is a threat, at 
what level of concern that these events are occurring. That 
certainly is something that we do. We also provide threat 
assessment and security awareness briefs, not only through D.C. 
member offices, but we will also do that for district offices. 
A lot of times we can do that through technology, through video 
teleconferencing or webinar as opposed to going, but we can 
also physically go out there.
    Mr. Yoder. Is there anything in your budget that reflects 
some of the growing concerns? Is this sort of standard work 
that you have always done to protect, or do you see changes in 
your----
    Chief Verderosa. We are doing that at a much greater rate, 
so we are spending some additional duty on that, some overtime.

                   IMPACT OF NEW OFFICERS ON OVERTIME

    Mr. Yoder. And there has been some discussion, Mr. Taylor 
brought this up and Ms. Wasserman Schultz, regarding overtime. 
And I noticed in the request, $40.7 million in overtime 
request, while at the same time we are asking for the 72 new 
officers.
    Is there a point at which the new officers, if granted, 
would reduce that, or is the assumption that if we didn't grant 
the officers, you would need more overtime? You know, where--I 
assume at some point there would be an offset.
    Chief Verderosa. Right.
    Mr. Yoder. Like, if we had--what would be the optimal 
number of officers where we wouldn't have as much overtime?
    Chief Verderosa. Right. Well, you know, that is a great 
question. In this request, there will be some offset when the 
new hires take over the O'Neill. We do have some additional 
duty that is set aside for the O'Neill building. I think 
annually it is about $5 million. Once we get utility out of the 
officers we hire based on the bill for O'Neill, they will be 
able to subside some of that overtime. The 72 positions would 
go to new mission sets, as some of the members have indicated, 
and those would go to those three initiatives.
    To reduce the current mission, whether it is FTE shortage, 
unscheduled events, we do plan----
    Mr. Yoder. Because that is about 10 percent of your total 
budget----
    Chief Verderosa. It is.
    Mr. Yoder [continuing]. Is overtime.
    Chief Verderosa. It adds up in my recollection of all the 
of the studies, to about 150 FTE that are overtime. There is 
some level--you want to get it to about 90 percent staff, 10 
percent overtime. You know, it is a balance.
    Remember, we are paying overtime to cover positions when we 
are going to hire people. That overtime will stop once they are 
out of the academy. That is for existing mission. One of the 
things we want to do is perhaps extend the mandatory 
retirement, which would reduce the need for overtime and keep 
people working for an additional year at a regular rate.
    Mr. Yoder. Okay.
    Chief Verderosa. It is a balance.
    Mr. Yoder. So if you extended the date of retirement, that 
would allow you to reduce costs on the overtime, because you 
would be training less new individuals?
    Chief Verderosa. That is correct. Then we would have people 
in the field.
    Mr. Yoder. What are the pros and cons of that?
    Chief Verderosa. Well, it is at a higher rate. We are 
paying people at a exhibit regular rate. It is cheaper----
    Mr. Yoder. So the pros and cons of extending the----
    Chief Verderosa. Oh. Well----
    Mr. Yoder [continuing]. Age of retirement.
    Chief Verderosa. At some point you get to the point where 
we have to started looking at, you know, the vigorous workforce 
and the reason we have the 57 mandatory retirement. I think, 
some people would want to raise it, some people don't. I think 
it helps keep the workforce ready and prepared to deal with 
eventualities. That is a larger law enforcement benefit 
picture. If we were to raise our retirement age, for instance 
to 60, what affect would that have on other law enforcement 
agencies that are under the FERS system that get law 
enforcement benefits, as we do.
    Right now, given the fiscal situation, I think it is one of 
the best options because it could save having to hire half a 
class.
    Mr. Yoder. Even though they are being paid more, it 
actually stills saves you more money, because you are not 
hiring and training and going through the process.
    Chief Verderosa. Right. We get more utility immediately----
    Mr. Yoder. Right.
    Chief Verderosa [continuing]. Out of them.
    Mr. Yoder. Okay.
    Chief Verderosa. Because again, it takes about 8 months to 
really train, equip, field training, and get them to the field 
on their own after, it takes about 4 months to hire.
    Mr. Yoder. Thank you. Mr. Ryan.
    Mr. Ryan. Thanks, Mr. Chairman.

                    OPTIMAL STAFFING LEVEL FOR USCP

    So as I am listening to all the questions about staffing, 
and I am new to the committee, so are you--the number, the end 
number, Ms. Wasserman Schultz was saying, okay, what is the 
number----
    Chief Verderosa. Right.
    Mr. Ryan [continuing]. Is that number based on kind of day-
to-day, yeah, we have these events and the Folk Festival and we 
have got all this stuff going on, it is kind of--it is already 
in the works, this stuff we handle all the time, tours, it gets 
busy in the summer, is the number based on that or is the 
number based on 9/11 happens and/or there is a major incident 
at the Capitol, which I assume you want to be prepared for?
    Chief Verderosa. Correct.
    Mr. Ryan. So what is your number based on? And as I am 
listening, I am thinking, yeah, we have our daily maintenance, 
and in Niles, Ohio, there are 50 cops or whatever, and----
    Chief Verderosa. Right.
    Mr. Ryan [continuing]. No one's going to be--you know, 
there is not a lot of threat----
    Chief Verderosa. Right.
    Mr. Ryan [continuing]. As opposed to here.
    Chief Verderosa. Right.
    Mr. Ryan. So can you help me understand what you are 
thinking.
    Chief Verderosa. The number is to accomplish the tasks that 
we do today, the level of service we provide today, plus the 
new initiatives.
    If we fill the billets, if it is deemed appropriate, to 
meet those mission requirements for the portal scanners, for 
the pre-screeners, for the----
    Mr. Ryan. Day-to-day security.
    Chief Verderosa [continuing]. Broad security, then I am not 
going to ask for additional personnel once that is done. If the 
mission requirements expand beyond that, and I don't know if 
they will or they won't, based on world events, new mission 
requirements, whether it is internally driven, whether it is 
Capitol Police Board driven, or however it is designated that 
this is the mission and this is the mission requirement that we 
need to have an additional building or we need to have 
additional asset or this type of coverage, then I will ask for 
those.
    The alternative is, and we have done that in the past, we 
have worked overtime to cover the new mission requirements, and 
we do that basically every day with sort of routine shortages, 
but these are new mission sets.
    We get to that number, and we are trying not to increase 
the level of overtime, we are trying to get to the level that 
we need to have to meet the requirement to handle those mission 
sets. We believe those mission sets will enhance our ability to 
secure the facility.
    There is going to be unknown mission all the time. If we 
had a demonstration or an event that pops up. The Pope visit 
was an example of that was an unplanned event, and it was 
basically an all-hands event and drove a lot of additional 
duty, drove a lot of personnel. We can handle that on an ad hoc 
basis.
    We wouldn't plan for that just to have those people around 
in case we have those types of events, but those are the 
perfect opportunities to use overtime to fill the need. This is 
the day-to-day requirement to have additional eyes at doors to 
be able to secure the outside.
    Mr. Ryan. So we get through all this, we get through the 
Rayburn, the Cannon, and the pre-screening and all of that 
stuff, and you will be at a level that you think you can 
sustain, and then should the threat level increase, you would 
come back to us and say, look, X, Y, and Z is happening.
    Chief Verderosa. Right.
    Mr. Ryan. We may need a classified briefing about it, 
whatever the case may be, but we need an additional----
    Chief Verderosa. We would do a business case----
    Mr. Ryan. Right. Okay.
    Chief Verderosa [continuing]. And we would either be 
successful in demonstrating that there is a need or not.
    Mr. Ryan. Right.
    Chief Verderosa. Again, it is really in consultation with 
my bosses and having the big picture for the entire campus.

                             OFFICER MORALE

    Mr. Ryan. One final question just to get an idea of what is 
happening within the force. So I mentioned Ryan Lee----
    Chief Verderosa. Yes.
    Mr. Ryan [continuing]. And the tragedy there. How are we 
doing with our rank and file as far as, you know, health and 
wellness and, you know, stress issues?
    Chief Verderosa. Right.
    Mr. Ryan. Because it is--you know, it is expensive to live 
around here and people have families and there are a lot of 
economic issues, plus the stress of being a Capitol Police 
officer. Are we doing enough to help in that regard so that 
maybe we can prevent any kind of future incident?
    Chief Verderosa. Sure. That is a very common and great 
question. Very tragic. You know, we are a close-knit 
department, probably more than some. In some respects, we are 
like a family. I have had very close contact with my troops, 
particularly those units that are really affected, closely 
affected, and they are handling it. It is tough. We will get 
through it.
    We do have great support from the CAO and the Office of 
Employee Assistance, also from some of our brother and sister 
police departments, particularly in this case Fairfax County 
Police have been outstanding in terms of peer support and those 
types of things. The community has been great and the Congress 
has been great, the committee staff have been great, in terms 
of helping us through those things.
    I think that morale is kind of a fickle thing. It can go up 
and down and it can turn on a lot of things. I think the troops 
are generally in a good place. They are generally pretty happy. 
They really understand the mission. They love the mission. All 
you have to do is look at the dome, and you understand what 
your mission is. It is very simple. We are here to protect you 
all and what you do, and I think they take great pride in that.
    I think that we have what we need. We can always sort of 
expand on our wellness and look to improve communication and 
make sure that we are really talking about issues, serious 
issues that we need to talk about.
    Some issues you need to confront, some issues you really 
need to talk about, and we have been fairly fortunate, but it 
is a societal thing and I think it is a law enforcement thing.
    There is stigma and there are all kinds of emotions 
involved. I think that we are very cognizant of our troops' 
feelings and attitude, and we foster the conversation, and I 
think we try to confirm it, at least the Assistant Chief and I 
have been--that is our position on it. I think we can always 
use some help, and we look to our partners to really support 
us.
    Mr. Ryan. Okay.
    Chief Verderosa. I don't know if that answers your 
question.
    Mr. Ryan. Well, you know, you are there for us, you know, 
we need to be there for you. And we know this is a tough job, 
and we just want to make sure that whether it is on the 
training side or on the wellness side day to day----
    Chief Verderosa. Sure.
    Mr. Ryan [continuing]. That, you know, the men and women of 
the force are getting what they need from a wellness 
perspective----
    Chief Verderosa. Right.
    Mr. Ryan [continuing]. From a mental health promotion 
perspective.
    Chief Verderosa. Right.
    Mr. Ryan [continuing]. Not that there is anything wrong 
with anybody, but it is a high stress job----
    Chief Verderosa. Right.
    Mr. Ryan [continuing]. And in addition to, as I said, your 
normal high stress family life and living in the most expensive 
place in the world, you know. Like, it all adds up. And we 
just--I want to make sure you guys are okay and that we are on 
the cutting-edge of making sure you got what you need and the 
programs you need to take care of the men and women. So that 
is----
    Chief Verderosa. Yeah. I am very appreciative of all the 
support. I will be honest. The officers do get to know the 
staff here, they get to know the Members, and they have been 
very supportive, particularly in this particular case. We look 
to our friends at the DAV and OEA. We do have seminars and we 
do talk about things and do have some HR programs available.
    We are certainly going to look at it and we are going to 
foster the conversation and make sure that everyone understands 
what happened and understands, if you can ever understand why, 
and then move on and make sure that everyone is at least 
talking about it and we are responsive to people's needs.
    Mr. Ryan. Thank you.
    Thanks, Mr. Chairman.
    Mr. Yoder. Yes. Mr. Amodei.
    Mr. Amodei. I have nothing further. I yield back, Mr. 
Chairman.
    Mr. Yoder. All right. Ms. McCollum.
    Ms. McCollum. Just to follow up on the office.
    Chief Verderosa. Yes, ma'am.
    Ms. McCollum. I had mentioned early in January when we were 
doing our organized meeting that I had a 40 percent rent 
increase and, of course, couldn't afford that on our budget, so 
I then tried to find a place that would sign less than a 2-year 
lease.
    We did it, but we worked with both the Sergeant and with 
Capitol Police on moving, and it was very much appreciated with 
my staff. And I am sorry that I--I am not sorry--I am ranking 
member of Interior and I missed the meeting yesterday because 
we were having public witness, but I know that that sometimes 
moving district offices overlaps between the Sergeant's office, 
your office, as well as mail security and working with the U.S. 
Post Office and everything else.
    Again, so not that we need lots of little handbooks, it 
doesn't have to be something that gets put out, but I had 
seasoned staff, so they kind of knew how to work through that.
    Chief Verderosa. Right.
    Ms. McCollum. We actually had a conversation around our 
conference table about who we notify about the security camera, 
we need to call St. Paul PD, we need to do this, we need to do 
that. We had our own check sheet. I know people don't like 
moving their district offices a lot, but if at some point--I 
think we are going to write down what we did and maybe give it 
to you, and that might be a template to use for moving, but I 
did want to follow up on the offices too.
    I know that it seems like there are a lot of things going 
on right now with some of the townhalls. Those things happened 
in 2006 and 2007 with townhalls, so for some of the newer 
members, they might think this is a brand new experience that 
Capitol Police and our local police departments are dealing 
with, but it is not. It is a lot of the same, but you need to 
be there in coordination and working with that.
    What is the follow-up, though, on the Metro? You and I have 
talked about this a little bit----

                        COMMUNICATIONS AND METRO

    Chief Verderosa. Yes, ma'am.
    Ms. McCollum [continuing]. Mr. Chair, and we are really 
close to a Metro stop, and we have had a lot of breakdowns, we 
have had more fires, more episodes, and the rest. A lot of our 
staff are down there, we have got constituents down there. We 
had talked about, doing training, figuring out how to train 
either with Metro or with you on, what is the right side, how 
do you get out of one of the subway doors, what is the best way 
to exit.
    Chief Verderosa. Right.
    Ms. McCollum. Where are we on that, because we are paying 
close attention in my office, and I haven't seen much come 
through yet? Is it Metro holding that up?
    Chief Verderosa. No. Actually, we have a meeting today, a 
planning meeting on a communications and response capabilities 
demonstration at the Capitol South Metro. That will be 
occurring some time in July, early July.
    Ms. McCollum. Okay.
    Chief Verderosa. We have been busy. And I believe the 
obligation plan has been approved to provide communication 
capability in the tunnels, on the platforms for our radio 
systems, because once you go down, you are out of touch.
    Ms. McCollum. That is right.
    Chief Verderosa. But we will have the capability to be able 
to communicate at all three of the Close in Metros, Capitol 
South, Federal Center Southwest, and Union Station, and all the 
rail tunnels between the stations. And that--it is basically 
1.8, and it was on new year 2007, I think it was radio 90 
equipment required to be interoperable between WMATA and us.
    And also radio coverage into the Third Street tunnel, which 
is another area where we frequent, we traverse, and we are 
looking for interoperable communication. We have attended many 
of the regional--the Metro exercises.
    Ms. McCollum. Yeah. Because Metro sometimes sends--I know 
you are working on it.
    Chief Verderosa. Yeah.
    Ms. McCollum. That is why I was wondering if--Metro seems 
to have some dysfunction with getting their----
    Chief Verderosa. They have been very cooperative.
    Ms. McCollum. They have been cooperative?
    Chief Verderosa. We have also, based on our conversations, 
worked with, I mentioned to Chief MacLean of the Park Police 
that that was one of the issues that, you know, we also need--
--
    Ms. McCollum. The Smithsonian.
    Chief Verderosa. We also need to look at, you know, 
interoperability with the Park Police, which we do have. I 
think we are moving along. I don't think there is any holdup--
--
    Ms. McCollum. Good.
    Chief Verderosa. I think we are progressing to a point 
where we will be ready to talk about training.
    Ms. McCollum. Thank you.

            CAPITOL POLICE BOARD ROLE IN MISSION ASSIGNMENT

    Mr. Yoder. Ms. Wasserman Schultz.
    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Just a 
couple of additional questions.
    Chief, you referenced your bosses----
    Chief Verderosa. Yes.
    Ms. Wasserman Schultz [continuing]. Who are the Capitol 
Police Board. And I asked the sergeant yesterday about the 
dotted line that we have here, which is unfortunate, that 
leaves us with, a more difficult situation in trying to conduct 
oversight over the Police Board. You are not a member of the 
Police Board with a vote, and you referenced that some of your 
mission is assigned by them.
    What percentage, how much of your mission is assigned by 
them, and are you generally aligned with the assignments to 
your mission that they have given you as opposed to what your 
plans and vision are for the department? And to what extent 
does your request result in things that they have added that 
you would not have?
    Chief Verderosa. Right. The board and I have a very good 
relationship. I go to the board much more than they come to me 
in terms of any requests, any needs, things that we are looking 
at doing, whether it is initiatives or training. The board 
initiatives are things that we talked about, at least the three 
that I have discussed here, the portal scanners, the garage 
security, obviously.
    Some of it is driven by, whether it is the House Sergeant 
at Arms or whether it is the Senate Sergeant at Arms, the board 
collectively and I agree that these three initiatives, 
including garage security, the prescreening, the portal 
scanners are things that will enhance our ability.
    It has been my experience with the board that they have 
been very supportive of me. They basically leave the running of 
the police department to me. They do provide great counsel. I 
have very frank discussions with the board about whatever the 
issue is. I give my opinion.
    The board generally, in almost 99.9 percent of the time 
comes to consensus, and they include me in that conversation. I 
don't vote on final initiatives, but I think that, you know, in 
terms of these initiatives, I am fully supportive, and it is--I 
wouldn't say that it is direction directly from them, it is 
more of an integration of the conversation.
    We are looking at the best ways to provide security on the 
campus in light of Paris, in light of Berlin, and all the other 
various types of threats that are out there, and always with 
the mind-set that this is an open campus, so what are the 
things that we can do to enhance our ability to protect us at 
the vital points.

                         MANDATORY BUDGET ITEMS

    Ms. Wasserman Schultz. What happens when you have a 
disagreement with the board on the direction that your mission 
should take? And how much of your budget is nice to have, 
versus got to have?
    Chief Verderosa. I think what we have asked for is the got 
to haves. I think, in this day and age, and last March's 
incident highlights, the need to not have the confrontation in 
the building. The confrontation in March occurred at the CVC, 
and that was designed for it, and it worked. The CVC performed 
flawlessly. The officers performed exactly how they should 
have.
    What we want to do is we want to be able to keep it at 
arm's length, keep the fight out if we have to rather than 
inside. Obviously, the buildings were never designed for the 
multitude of screening that we do, the office buildings, so it 
is difficult, particularly with such cumbersome equipment. The 
more we can do to keep it isolated out is better.
    I think we are pretty much in lockstep, the board and I, in 
terms of the need to think out of the box, be imaginative. For 
example, with the portal scanners, you don't want disruption on 
the floor. We want to be able to detect things that the regular 
magnetometers can't.
    Using those in concert and being complementary with the 
typical magnetometer and now the portal scanners, I think it 
creates a much greater ability to stop things from getting to 
the places we don't want them to get, and some very serious 
items and other things that just aren't detectable.
    Ms. Wasserman Schultz. Mr. Chairman, I just think that the 
Capitol Police over the years needs to do a better job of 
predicting for us and planning over multiple years what it is 
their needs are going to be, because it does appear that we get 
a new significant request with expanded missions even in--even 
considering that we are always going to have unanticipated 
needs because of the shifting security issues that we have. And 
so I----
    Chief, I really think that you need to spend some time with 
your leadership team, because it is not just you. Your 
predecessors have also faced that challenge.

                             OFFICER MORALE

    I do want to ask you about the overall morale of the 
Capitol Police, because there was significant tension under 
your predecessor, particularly with minority officers. And what 
steps have you taken to improve that morale and how do you 
think it is going?
    Chief Verderosa. Again, it is hard to put your finger on 
the pulse. It depends on who you talk to. You know, I think 
morale has been fairly positive. I may not be the best person 
to ask. You can ask--the rank and file, I am sure they will 
talk to you and talk to----
    Ms. Wasserman Schultz. That is why I am asking.
    Chief Verderosa [continuing]. Talk to the members. I have 
an advantage in that I have worked many, many of those posts 
that the rank and file work. I have walked the foot beat, I 
have driven a police car and ridden a motorcycle, and, the 
specialty assignments, and done, building security.
    I think that, generally when I am out and about, I think 
the troops come to me and they tell me, they tell me the good, 
they tell me the bad. When we look at, what is going on, I am 
always open to looking at things a different way.
    I think the Assistant Chief is the same way. He comes from 
the outside with a fresh set of eyes. He is an operationally-
based individual. He ran special operations for the 
Metropolitan Police for a number of years.
    In terms of all of those things and, the effect they have 
on the officers day to day, and that is really what it is 
about, we are talking about a day-to-day attitude, I think the 
officers are in a good place, I think--they certainly have my 
respect. The troops have my respect. I respect what they do 
every day. I am impressed with the operational ability of 
officers.
    No one likes to be held accountable. Some people may think 
I am a disciplinarian. I think limits and accountability is 
good and it validates everything that the officers who come to 
work to do their job every day appreciate that, and I think 
that is a very small part of what we do.
    You are always going to have people who may have been 
through the process, the discipline process, and they are 
upset, but I think generally, by and large, we are in a good 
place. I think people are motivated to come to work. We do talk 
quite a bit with the troops.

                       DIVERSITY IN THE WORKFORCE

    Ms. Wasserman Schultz. Just to drill down a little bit, and 
then I have one more question and then I am done, Mr. Chairman.
    What about diversity? It really has been a challenge that 
the Capitol Police have faced systemically with diversity, 
diversity in your leadership, diversity in recruitment. How are 
you focusing in on improving that?
    And, I don't mean any disrespect, but it is hard to take 
your word for it. As you said, you are not--you are in 
leadership now----
    Chief Verderosa. Sure.
    Ms. Wasserman Schultz [continuing]. You are in not in the 
rank and file.
    So, Mr. Chairman, it might be helpful for us to have an 
open, you know, an informal meeting with the Capitol Police 
union leadership so that we can hear from them. We don't have 
to do it in a hearing, but it would be, I think, good for 
members to hear from the union leadership, we have done that 
from time to time, and give them an opportunity without the 
Capitol Police leadership here to talk to us about, you know, 
some of their challenges, but----
    Chief Verderosa. Certainly.
    Ms. Wasserman Schultz [continuing]. Diversity has been a 
problem.
    Chief Verderosa. We have a great diversity officer, Natalie 
Holder, who comes to us from the private sector, and she has 
done a lot of work with municipalities, including New York 
City. We include people.
    Ms. Wasserman Schultz. Do you have goals to increase 
diversity?
    Chief Verderosa. Absolutely. We want to broaden our--
everyone's perspective and we want to be able to----
    Ms. Wasserman Schultz. I mean----
    Chief Verderosa [continuing]. Provide opportunities----
    Ms. Wasserman Schultz. I mean numerical goals. Do you have 
the goal to, say, take the leadership of the Capitol Police 
diversity from where it is now to a higher number?
    Chief Verderosa. We are always trying to build a bench with 
a very diverse workforce.
    Ms. Wasserman Schultz. So, no.
    Chief Verderosa. So, yes.
    Ms. Wasserman Schultz. So you don't have specific goals----
    Chief Verderosa. I don't have number specifics----
    Ms. Wasserman Schultz [continuing]. Written down.
    Chief Verderosa [continuing]. But, what I have is a policy 
of inclusion and being able to expand the bench for----
    Ms. Wasserman Schultz. Okay. But without a plan--I mean, 
does your diversity officer have a plan that she is following--
--
    Chief Verderosa. Sure.
    Ms. Wasserman Schultz [continuing]. To increase----
    Chief Verderosa. We just started mentoring with outside 
agencies and internally. We also are providing opportunities 
for people. Of course, they are all validated promotional 
processes.
    We look at all of the aspects of promotion that we should. 
And I think that we are very inclusive. And I think that you 
could look at the numbers in the promotions. It is a very 
diverse group and we have given opportunities for----
    Ms. Wasserman Schultz. I----
    Chief Verderosa [continuing]. Women and minorities all 
along the line.
    Ms. Wasserman Schultz. I mean, through the history of my 
career, I have never really seen significant changes in 
diversity without a specific written plan on how to accomplish 
it. And so are you planning on developing a specific written 
plan?
    Chief Verderosa. Yes, through our diversity office, we are.
    Ms. Wasserman Schultz. Okay. If you could share that plan 
with me----
    Chief Verderosa. Sure.
    Ms. Wasserman Schultz [continuing]. And the process that 
you are going through to develop it, that would be great.
    [The information follows:]
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
                      LOST EQUIPMENT RETURN POLICY

    And then lastly, I would like to know how Capitol Police 
handle equipment that belongs to a member or a staffer that has 
been lost within the Capitol Complex and found or recovered by 
one of your officers. What happens?
    Chief Verderosa. Sure. Well, it is processed on what is 
called the PD-81, which is a property record. And depending on 
the property, depending if you can legitimately determine 
ownership, then it is generally turned back over to the owner 
of the property.
    If it is part of an ongoing case, then there are other 
things that have to occur for that to happen.
    Ms. Wasserman Schultz. So if a Member says that they have 
equipment that has been lost, and you find it, it would be 
returned to the Member?
    Chief Verderosa. In the general sense, yes.
    Ms. Wasserman Schultz. Okay.
    Chief Verderosa. You have to be able to positively identify 
the property and be able to establish ownership.
    Ms. Wasserman Schultz. Right. And if ownership is 
established----
    Chief Verderosa. If it is part an ongoing case, then there 
are additional things that need to be done.
    Ms. Wasserman Schultz. But if the Member owns the equipment 
and there is no ongoing case related to that Member, then the 
equipment is supposed to be returned.
    Chief Verderosa. Right. In the general sense, yes.
    Ms. Wasserman Schultz. No. I mean in the specific sense. If 
the Member loses the equipment, says they lost the equipment--
--
    Chief Verderosa. Yes, ma'am.
    Ms. Wasserman Schultz [continuing]. And it is found by the 
Capitol Police, it is supposed to be returned.
    Chief Verderosa. If ownership has been established----
    Ms. Wasserman Schultz. Right.
    Chief Verderosa [continuing]. It will be returned. If it is 
subject to an ongoing investigation or additional things----
    Ms. Wasserman Schultz. Okay.
    Chief Verderosa [continuing]. It needs to be----
    Ms. Wasserman Schultz. Okay. But not an ongoing 
investigation related to the Member. If the equipment belongs 
to the Member, it has been lost, they say it has been lost, and 
it has been identified as that Member's, then the Capitol 
Police is supposed to return it, correct?
    Chief Verderosa. Well, I can't give a yes or no answer on 
that, because I know----
    Ms. Wasserman Schultz. It is a simple yes or no answer.
    Chief Verderosa [continuing]. No parameters.
    Ms. Wasserman Schultz. If you lose--if a Member loses 
equipment----
    Chief Verderosa. Yes, ma'am.
    Ms. Wasserman Schultz [continuing]. And it is found by the 
Capitol Police or your staff, and it is identified as that 
Member's equipment, and the Member is not associated with any 
case, and that is their equipment, it is supposed to be 
returned, yes or no?
    Chief Verderosa. It depends on the circumstances. And if 
the circumstances are----
    Ms. Wasserman Schultz. I don't understand how that is 
possible. Member's equipment is Member's equipment. It is not--
under my understanding, the Capitol Police is not able to 
confiscate Member's equipment when the Member is not under 
investigation. It is their equipment and it is supposed to be 
returned.
    Chief Verderosa. Well, I think there is extenuating 
circumstances in this case. I think that working through my 
counsel and the necessary personnel, if that in fact is the 
case, and through the investigation, we will return the 
equipment, but until that is accomplished, I can't return the 
equipment.
    Ms. Wasserman Schultz. I think you are violating the rules 
when you conduct your business that way, and should expect that 
there would be consequences.
    I yield back.
    Mr. Yoder. Gentlemen, thank you for your testimony today. 
Assistant Chief, we let you off easy.
    Chief, you answered all the tough questions. But we 
appreciate both of your leadership and service to our country.
    We appreciate the many officers that are out guarding the 
Capitol right now that are away from their families, putting 
themselves in harm's way; all the support personnel, civilian 
personnel. It is a dedication to service, and we really respect 
what you do. We want to make sure we have a fine tuned budget, 
that we are putting money in the right places, and so we will 
work with you and the Members in both parties here to come up 
with a right budget going forward. We look forward to 
successful service and safety in this Capitol campus.
    With that, the subcommittee will adjourn until 2:30 this 
afternoon, when we will hear from the Library of Congress.
    Chief Verderosa. Thank you.
    Mr. Yoder. The meeting is adjourned.
    [Questions for the record follow:]
    
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     
      

                                           Wednesday, May 18, 2017.

                          LIBRARY OF CONGRESS

                               WITNESSES

HON. CARLA D. HAYDEN, LIBRARIAN OF CONGRESS
BERNARD (BUD) BARTON, LIBRARY OF CONGRESS, CHIEF INFORMATION OFFICER
ROBERT R. NEWLEN, DEPUTY LIBRARIAN FOR INSTITUTIONAL ADVANCEMENT
MARY B. MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE

                  Opening Statement of Chairman Yoder

    Mr. Yoder. I call the hearing to order. Today, this 
afternoon, we are having a hearing on the Library of Congress. 
We would like to welcome Dr. Carla Hayden, the new Librarian of 
Congress to our committee hearing today and your trusted team 
here, Mr. Newlen and Mr. Barton. Thank you all for attending.
    And we look forward to an excellent hearing and lots of 
good conversation about the wonderful things you are doing at 
the Library of Congress, and how we can be supportive, and 
continue to improve upon the great work there.
    The Library's requesting $493.2 million, an increase of 
$36.2 million above fiscal year 2017. In fiscal year 2017, we 
started positioning the Library so that it can make critical 
improvements to its information technology systems with funding 
for the outstanding Government Accountability Office IT 
recommendation and the relocation of the Library's primary 
computing facility. The Library's current primary computing 
facility built in the 1970s can no longer provide a sufficient 
level of data center reliability resiliency. We continue to 
make this a priority for fiscal year 2018.
    The Copyright Office request is $72 million, an increase of 
$3 million above fiscal year 2017. The subcommittee feels 
strongly that the modernization of the Copyright Office is 
still a very important initiative, and as long as it falls 
under our jurisdiction, we will continue to focus on the future 
of the Copyright Office within the Library of Congress and 
support what is needed to ensure that they are able to meet the 
demands of the digital age.
    The Congressional Research Service request is $119.5 
million, an increase of $11.5 million over fiscal year 2017. 
Thank you for providing Congress with an in-depth research 
concerning a wide spectrum of diverse issues there as well.
    Lastly, the books for the blind and physically handicapped 
request is $52.9 million, an increase of $2.7 million over 
fiscal year 2017. So lots of work to do here, and we welcome 
you to the committee and look forward to your testimony in a 
minute.
    Before though, I would like to recognize Mr. Ryan for an 
opening statement.

                Opening Statement of Ranking Member Ryan

    Mr. Ryan. Thank you, Mr. Chairman, I appreciate it. Thank 
you. Welcome. We had a great tour when we came over to see you. 
We enjoyed the inner workings of the Library. I want to thank 
Ms. Lowey for being here, gracing us with your leadership and 
your presence. Thank you. I am excited to see your whole team 
here as well, and as well as every Democrat here on our 
subcommittee. This is a pretty nice crowd we have here that you 
bring with you.
    The Library of Congress is home to some of our Nation's 
most valuable resources, and it is a repository for books on 
every conceivable subject for historical objects and records 
from throughout our history, maps, photographs, films, music, 
interviews with veterans, and everyday Americans talking about 
their lives an much more. And we need to see ourselves as 
trustees of all of these collections, taking care of them for 
our children and their children. And you can't put a price on 
these national treasures, although that is exactly what this 
subcommittee has to do every year.
    The Library is also someplace we can turn when we want to 
talk to an expert on some area of policy coming up in Congress, 
and it is where people who create things turn to help protect 
their intellectual property. I am pleased to see that the 
Library's budget request prioritizes IT modernization, because 
information technology ties in with everything the Library 
does. Upgrading the Library systems will help serve Congress' 
research needs, serve the needs of copyright holders, and make 
it easier for people across the country to access the Library 
materials remotely.
    The Library has also absorbed a lot of the effects of 
inflation in recent years, trying to maintain their current 
services, while covering all the new expenses, and not 
necessarily receiving the funding to do all of it. For example, 
CRS has tried to provide Congress with the same level of 
assistance while staffing levels have dropped by 13 percent 
since 2010. I hope we will reverse or further slow that trend 
if we are able to do so.
    Finally, I want to thank you for proposing to increase 
investment in the Veterans history Project by 6.2 percent. I 
think that would be money well spent in all of our districts. I 
think this would have quite an impact. I look forward to 
hearing what Dr. Hayden and her colleagues have to say. And I 
yield back the balance of my time.
    Mr. Yoder. Thank you, Mr. Ryan.
    We are also honored today to have the ranking member of the 
full committee, Mrs. Lowey, in attendance. Mrs. Lowey, welcome 
to the committee and we would love to hear your opening 
statement as well.

                    Opening Statement of Mrs. Lowey

    Mrs. Lowey. Thank you. I would like to thank Chairman 
Yoder, Ranking Member Ryan, for holding this important hearing 
today. Let me also congratulate you on your new position as 
ranking member and chair. And I welcome Dr. Carla Hayden, 
Deputy Librarian Robert Newlen, Chief Information Officer 
Bernard Barton. Thank you for appearing before us today.
    And I also want to take the opportunity to thank your whole 
staff. I must say for many of us, besides the essential 
elements of the Library of Congress, we have some of the most 
spectacular evenings, which you host for so many of us. So I 
want to thank you again, and acknowledge your wonderful staff 
for being so gracious.
    This subcommittee provides the critical security and 
support necessary for the House of Representatives to function. 
It is essential that these agencies receive robust funding so 
Congress can operate effectively and respond to the needs of 
our constituents.
    The Library of Congress has the difficult task of balancing 
many competing priorities, such as preserving the cultural 
heritage of our Nation, maintenance of the U.S. copyright 
system, and responding to requests from congressional offices, 
all while handling over a million visitors each year.
    The Library is an important resource that provides valuable 
information to Members and staff alike and. It enjoys 
bipartisan support. Although I am pleased that the fiscal year 
2017 spending bill included $631.96 million for the Library of 
Congress, a $32 million increase from the previous year, this 
subcommittee will need to commit even more funds to ensure the 
Library does not fall behind.
    The Library is undergoing a major overhaul of its 
information technology; the Copyright Office is facing numerous 
challenges, and is in need of modernization; and the 
Congressional Research Service is under pressure to keep up 
with the demands of congressional offices, all of which 
requires significant investment. It is up to this subcommittee 
to ensure the Library is provided with sufficient resources to 
achieve its goals.
    Dr. Hayden, I want to thank you again for your leadership, 
and I am pleased that your fiscal year 2018 budget request of 
$687.7 million recognizes the various challenges the Library 
faces, and that you are committed to the efficient use of the 
resources available to you. I look forward to your testimony.
    Thank you.
    Mr. Yoder. Thank you, Mrs. Lowey. And Dr. Hayden, now we 
turn to you. Your statements, as well as the statements of the 
Acting Register of Copyrights and the Director of Congressional 
Research Service have been provided to the members of the 
committee and they will be included in the record.
    We now turn to you to summarize your statement and address 
the committee.

             Opening Statement of the Librarian of Congress

    Dr. Hayden. Thank you, Chairman Yoder, Ranking Member Ryan, 
and members of the subcommittee, and Mrs. Lowey for having me 
here today, and giving me an opportunity to provide testimony 
in support of the Library's 2018 budget. And it is my 8th month 
into my tenure, I continue to be inspired by the breadth of the 
collections, the services, and also working with the staff 
members of the Library of Congress. We did an estimate of their 
collective tenure, and it goes to 80,000 years of combined 
expertise and special services. And so today, the Library holds 
more than 164 million items in over 470 languages, and it is 
the world's largest collection of materials, and it is 
recognized as such.
    Last year, we did greet and serve nearly 1.8 million 
visitors, with 93 million visits to the website. And the 
Copyright Office registered more than 400,000 claims. We also 
took 10 million preservation actions on the collections and we 
responded to over 1 million reference questions from Congress, 
the public and other Federal agencies.
    I would like to express my sincere support and I know I 
speak for the entire staff for your support for the fiscal year 
2017 funding. It will allow us to implement modernization, IT 
modernization that will propel the Library forward in many 
ways, strengthen our ability to serve Congress and also to make 
sure that we have the most modern and efficient copyright 
process and also making sure that our collections are 
preserved.
    A modernized Library growing in reputation and the Library 
of Congress' reputation is worldwide and well-known. Our budget 
request reflects our priorities in terms of expanding our 
access to Congress and to the public, as well as being good 
stewards of our physical collections and making sure that we 
have a technology infrastructure that supports all of our 
efforts.
    One of the first things we did this year was to strengthen 
our oversight and management internally. And I was very 
pleased. And I have to say that the Government Accountability 
report provided a blueprint for IT modernization and I have 
been working very closely with Mr. Barton. In fact, he reports 
directly to me, and we meet weekly to make sure that we act on 
the GAO recommendations and that we are building an 
infrastructure that will support the Copyright Office, CRS and 
our other specialized services.
    Also, the Director of Strategic Planning and Performance 
Management now reports directly to me as well so that all of 
our planning and performance management efforts are aligned. 
Our requests, as you mentioned, was $38 million additional over 
last year, and IT modernization is the primary focus of my 
efforts and our request.
    The stewardship of the physical collections is not just a 
storage aspect, but it is also preserving our collections. We 
have multiformat collections, and there are many ways that we 
can preserve and conserve those efforts.
    In closing, the modernized information technology, being 
good stewards of our collections, and also making sure that our 
unique workforce, the expertise that I mentioned earlier, 
continues into the future is a major focus of this budget 
request.
    I look forward to opening up to questions and getting into 
more specifics with Mr. Newlen and Mr. Barton here.
    [The prepared statement follows:]
    
    
                 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
     
                   INFORMATION TECHNOLOGY MANAGEMENT

    Mr. Yoder. Thank you for your testimony this afternoon. We 
will now turn to questions. I will begin then we will move 
through the other members of the committee.
    In May 2015, the GAO made 31 public recommendations to 
improve the Library's management of IT. Can you just briefly--I 
have sort of gotten them before me and we could probably talk 
about them for days, but can you briefly just summarize where 
you are on these and how we are doing addressing these 
recommendations?
    Dr. Hayden. I am smiling because I can report that just 
this morning, three of the 31 recommendations were closed. The 
GAO report gave us the blueprint to follow for modernization. 
Yes, the document that you have and that we have been working 
on, I mentioned working with Mr. Barton directly. I received a 
full report from GAO last week and they--even though it takes 
about a year to close out one of the recommendations--they are 
very pleased on the Library's progress on the remaining 
recommendations, and there are two others that have been closed 
already, so it is a total of five out of the 31 that have been 
closed so far. And this morning, I must say, we did celebrate a 
little bit, that most of the other recommendations, including 
making sure that the Library had shared services across its 
infrastructure. That was part of my effort to centralize all IT 
efforts in the Library are leading to at least 30 to 40 percent 
of the remaining recommendations, that is a completion rate for 
the rest and they are on track to be closed out.
    In the estimated time that originally had originally been 
scheduled, we are looking at and working on some other 
adjustments to the scheduling of the closeouts. However, they 
seem very pleased, and were very complimentary of Mr. Barton 
and his staff. They meet with them every week to go over the 
recommendations. This is a success story in terms of having 
that GAO report as a blueprint and a way that we can go 
forward.
    Mr. Barton, if you want to add anything to it.
    Mr. Barton. I would just add that the staff across the 
Library and all the IT departments that are working on the 
recommendations from GAO have proven to be very dedicated, very 
committed to advancing the mission of the Library, and it has 
been very successful so far. As Dr. Hayden mentioned, the 
weekly meetings that we have had with the GAO have been very 
productive. There is a little bit of a learning experience for 
us on the requirements to close out recommendations, but we are 
making a significant progress. And I expect that we will have 
most of these recommendations closed out in very short order.

                       COPYRIGHT PROCESSING TIME

    Mr. Yoder. Thank you for your report.
    Earlier this month, we heard testimony regarding making the 
Copyright Office autonomous. I am sure you have some thoughts 
on this. But it was stated in the hearing that the Patent and 
Trademark Office can process about half a million recordations 
on an annual basis with 10 to 12 people. They can have them 
online for people to see within 24 to 48 hours. It also stated 
the Copyright Office has the same amount of people, can process 
about 11,000 recordations, and it takes 18 months to process. 
Do you agree with that assertion? And what do you think the 
contributing factors are and the difference between the Patent 
and Trademark Office and Copyright Office are in terms of the 
number of records being processed, and the timeliness of the 
process? Twenty-four hours versus 18 months is a pretty big 
difference.
    Dr. Hayden. IT modernization systemwide for the Library 
includes a concentration on the two major specialized units 
Copyright, and CRS actually has special IT needs, the National 
Library for the Blind and Physically Handicapped as well as 
Library Services so there are a number of units that require 
mission-specific IT concentration.
    The submission for this fiscal year includes staffing for 
registration to allow the Copyright Office to reduce the number 
of backlogged registrations and to begin to make that an 
acceptable number in terms of their workload. The IT 
modernization for copyright is a major priority and having not 
only the staff, but also the capacity to have an IT system that 
supports their mission is one of our major focuses.
    Mr. Yoder. What do you think an acceptable turnaround time 
would be?
    Dr. Hayden. Well, shorter.
    Mr. Yoder. Right.
    Dr. Hayden. Definitely shorter. And in looking at combining 
the special needs of registration, and because all types of 
items are being registered. And also with the electronic 
registration, and that is a special area as well. So we are 
working diligently to make sure that the IT component of 
registration is more than adequate and efficient and then the 
human component of registration is being addressed and working 
in this submission as well.

            CONGRESSIONAL RESEARCH SERVICE STAFFING REQUEST

    Mr. Yoder. Okay. Mr. Ryan.
    Mr. Ryan. Thank you, Mr. Chairman. I have a couple of 
questions on CRS. So if Dr.----
    Dr. Hayden. Mary Mazanec. The Special Forces.
    Mr. Yoder. If you would introduce yourself for the 
committee.
    Dr. Mazanec. I am Mary Mazanec, the Director of the 
Congressional Research Service.
    Mr. Ryan. We have a face with a name now. We all need to 
spend a lot of time utilizing your services.
    I have a couple of questions. The junior analyst position 
that you are requesting, I could see, in some sense, how this 
would increase capacity, but I think it also may have the 
potential to be very cumbersome. So if you can talk a little 
bit about how this may affect the quality, will it affect the 
quality of the CRS product? Could it potentially create more 
work than it saves? So can you just talk us through what you 
are thinking about that?
    Dr. Mazanec. In the budget, we are requesting eight 
temporary employees. These would be entry level analyst 
positions to bolster the high-demand areas. The perennial high-
demand areas are health care, education, defense and budget and 
appropriations. This will give us flexibility to be responsive 
to the needs of Congress. It also will allow us to start 
training people who may eventually join our staff on a more 
permanent basis. So it is also, part of our succession plan. I 
don't think the quality of the work will be impacted. I think 
that these individuals would be part of a team and that they 
would be working with more senior analysts who would train them 
and mentor them.
    Mr. Ryan. And so I would assume that the senior analysts, 
then, would have less time to do the work? Is that a concern at 
all?
    Dr. Mazanec. Actually, part of the intent of this is to 
relieve senior analysts so that they can focus on the more 
sophisticated, deeply analytical needs of the Congress. These 
entry-level positions would be able to handle a large number of 
the less complex requests, along with other CRS staff.

                          CRS IT MODERNIZATION

    Mr. Ryan. Okay. You were requesting $4 million this coming 
year and a total of $20 million over the next five years to 
invest in the integrated research and information system?
    Dr. Mazanec. Yes.
    Mr. Ryan. Can you explain, in concrete terms, what this new 
system would allow to you do that you can't do today. So let's 
say a congressional office requests a report on some new 
defense project or report on benefits for service-disabled 
veterans, what would be different under the IRIS system from 
our vantage point? And how we kind of think about this, how 
would it be different?
    Dr. Mazanec. Let me start by saying that our current system 
is a legacy system that is aging. It is highly complex. It was 
highly customized when it was designed. It is becoming more and 
more difficult to maintain. It is in dire need of being 
modernized. Technology has advanced since the system was 
created.
    Mr. Ryan. When was that created?
    Dr. Mazanec. It has been about 10 years. It is a 
multicomponent system. It is our authoring and publishing 
system, and our client or customer management system. There is 
also new technology that would allow us to better analyze and 
do research on large data sets. The current authoring and 
publishing system is somewhat difficult to use by the analysts 
who create the content, and we are hoping that we can test 
technology that is available, and identify what new systems 
could be put in place. That is what we are already starting to 
do. We are reviewing RFIs, requests for information, and we 
will demo test and evaluate systems this year. A new system 
will free up time of the analysts, so that they can do more of 
the analytical work, and spend less time on the production and 
publication the content.
    Mr. Ryan. Okay. And you think the 5-year plan is doable, $4 
million a year?
    Dr. Mazanec. I think it is doable. Now I am not a 
technology expert. This proposal, this programmatic increase, 
was put together in collaboration with the CIO, Bud Barton, who 
has reviewed it and endorsed it. It is also part of the 
Library's modernization plan.
    Mr. Ryan. Okay.
    Dr. Hayden. If I may----
    Mr. Ryan. Yes, of course.
    Dr. Hayden [continuing]. Add to that. What the general 
Library modernization allows units like CRS and Copyright to do 
is focus on their particular IT needs. Dr. Mazanec mentioned 
that she is working with Mr. Barton. And we have developed, as 
part of IT centralization, a project management office that 
will help all units reach our proposals and look at what their 
needs are, specific to their mission and work with the general 
IT office. And so that also provides another level of support 
for them and this system is one of the IT challenges that the 
Library has and is mentioned quite frequently in the GAO 
report, Copyright and CRS.
    Dr. Mazanec. Can I add one more feature of the new system, 
which is a priority of mine? This new system would allow us to 
capture our work product and create an institutional memory. As 
staff retire and roughly about 25 percent of our staff will be 
eligible to retire in the next fiscal year--we will have the 
institutional memory preserved.
    Mr. Ryan. I yield back.

                      ACCESS TO LIBRARY RESOURCES

    Mr. Yoder. Thank you, Mr. Ryan. Ms. Lowey.
    Mrs. Lowey. Thank you again for being here, and I know that 
all of us are so impressed with the incredible collection at 
the Library of Congress. And I know you have been very 
interested in making sure that people around the country can 
avail themselves of these incredible resources; not everyone 
can come to Washington, D.C. Can you give us an idea what you 
are doing and what you are planning to do?
    Dr. Hayden. This is one of the most exciting aspects of my 
tenure, and really, what makes being at the Library of Congress 
at this time so exciting, because of the information 
technology, the modernization that the Library is embarking on 
that will help improve services. People will be able to--for 
instance, with the Veterans History Project, we are developing 
a mobile application, an app, so that anyone with their phone 
anywhere can start recording their services.
    We are actually live-streaming programming from Capitol 
Hill and the Jefferson Building and other wonderful programming 
that the Library has that you referred to will be available--
and we tested it out, it works. We link the live-stream to 
schools and any facility, any public place throughout the 
country at the same time. People will be able to interact with 
us with traveling exhibits. We have plans for three 18-
wheelers, West Coast, East Coast, Midwest to be able to take 
the Library into communities as well with interaction with the 
staff members here.
    We also are looking at making sure that we digitize as many 
unique collections that we can. For instance, Teddy Roosevelt's 
papers and Woodrow Wilson's papers in the next few years, 
because of World War I, so those will be available. We have 
already started with that. And we are making sure that when we 
do any programming, or think of anything here, we are thinking 
about how can we get it out to as many people as possible. So 
we have expanded our education programming, Teaching with 
Primary Sources and combined that with the Young Readers 
Center, which will be expanded as well.
    Mrs. Lowey. How----
    Dr. Hayden. Actually down to 6 months.
    Mrs. Lowey. You are competing with Sesame Street.
    Dr. Hayden. Not quite. Well, we actually have had Clifford 
the dog. We are going from the earliest, we are growing. We 
want to grow readers, and also make sure that people have 
access to primary sources as soon as possible. We are working 
with the National Archives and the Smithsonian, so the three 
institutions are looking at ways we can have joint exhibits and 
joint programming as well. There is one program called Citizen 
Archivist, we are expanding it to be Citizen Historian, because 
a lot of young people are not able to read the manuscripts, the 
original manuscript in cursive so we are going have 
translations for that and invite people to do that.
    That has been an interesting aspect of making historical 
documents accessible, but if they can't read them, that is 
difficult. For instance, the draft of the Declaration of 
Independence, we have it digitized, but if they can't read 
those wonderful words, these are just some of the ideas, and 
they are just expanding all the time.

                            LIBRARY VISITORS

    Mrs. Lowey. Very exciting. Just curious, because Members of 
Congress come over there a couple of times a year and you bring 
out some of the most exciting exhibits. How many people just 
walk off the street and say, I think I will go to the Library 
of Congress today?
    Dr. Hayden. Quite a few. Several years ago, my predecessor, 
Dr. Billington, worked very diligently with the Architect of 
the Capitol to have an actual tunnel connecting the Capitol 
Visitors Center to the Jefferson Building. And we get a number 
of people that come in for tours and things like that that come 
into the Jefferson Building and the connections that are made 
there.
    We just hired a new exhibit director who will work on the 
visitor experience. And, so, what will people experience on 
their way to the Library of Congress, and then when they get 
into the Jefferson Building. So there is going to be quite a 
bit more of engaging people with that.
    And then we are reaching out to the public, social media, 
all types of ways to let them know what the Library has 
already, what they can see online. So you will be hearing 
more--we are not going to be quiet anymore. We are going to let 
everybody know.
    Mrs. Lowey. Thank you. Thank you, Mr. Chairman.
    Mr. Yoder. Thank you, Mrs. Lowey. Mr. Moolenaar.

                           MODERNIZATION PLAN

    Mr. Moolenaar. Thank you, Mr. Chairman, and thank you for 
being here. And also, thank you for the tour you gave us a 
while back and for the work you are doing. Everybody who 
experiences the Library of Congress, I think, just has an awe 
of the work that is being done, so thank you for that.
    I wanted to explore a little bit about modernization. I 
just wondered if you had some benchmarks that you are looking 
at where you would say, okay, here is step 1, here is step 2, 
and here is step 3. And you may have covered some of that, but 
I just wondered if you have kind of a modernization plan in 
mind for that?
    Dr. Hayden. There is a general Library-wide modernization 
plan. And thank you also for the multiyear funding to support 
that and get that going. The first part, of course, is really 
strengthening the infrastructure, and that includes data 
storage and security of the assets that the Library has and the 
capacity. Mr. Barton will get more into the weeds about some of 
that. The other part, though, in terms of modernization, the IT 
modernization plan has aspects for scheduling copyright 
modernization as a unit of that and CRS and their efforts. You 
will see in the submission about adding specific IT staff for 
those type of things. So there is a timeline, and it is being 
revised as we move forward, but Mr. Barton might want to 
elaborate on that. But there is a definite plan, road map, I 
mentioned the GAO before, and that is also giving us guide 
points along the way. So it is moving quite rapidly, I would 
say.
    Mr. Barton. If I may add, really, we are looking at three 
phases: The first phase is stabilizing our current environment; 
the next phase would be transitioning as much of our production 
services as possible to what we would call a tier three level 
capability. And what tier three level capability does more is 
it provides more redundant power and cooling and heating. So 
that in the event that maintenance needs to be done on those 
systems, you don't have to bring down your application or your 
capabilities.
    The next part is really modernizing applications across the 
service units. We have been very successful over the last 
several years with congress.gov and loc.gov, modernizing those 
applications, using very state-of-the-art technology stacks, if 
I could use a little technical term there. And that is going to 
allow us to be very modular in how we develop our applications. 
I think it is important for us to be able to not position 
ourselves where we are now where we have legacy systems that 
are built on applications and technology that are no longer 
supported by the vendors that originally created them. So the 
idea is that we create all of our applications in a manner that 
allows us to expand, upscale, or even, if necessary, to serve 
our purpose, to decommission them in a very logical and time-
sensitive manner, as well as being able to update the system at 
the same time.
    So pushing forward on the IT areas that we are is 
difficult, because we are trying to change every aspect of IT 
across the Library, from management to security, to project 
management to investment, to monitoring, to the actual 
development of software. We are doing it. We are making it all 
happen at the same time. And I am very proud of the people who 
are making that happen.

                          INTERNATIONAL ACCESS

    Mr. Moolenaar. If I may, Mr. Chairman, when you do that 
expansion and make more things available online, and you are 
obviously expanding the reach, as you had mentioned, 
nationally. How does that fit internationally? Can people 
access resources internationally?
    Dr. Hayden. Yes.
    Mr. Moolenaar. Does that compound some of the security 
issues that you are working on?
    Dr. Hayden. Before I turn it over to Mr. Barton, I have to 
say that in my experience, career, IT modernization is 
something that most libraries share the need for. When you have 
the world's largest library, with more formats than any other 
library in the world, and unique items. I mentioned Teddy 
Roosevelt's papers, you have diaries, you have so many types of 
materials to be put on online. And it has the specialized units 
as well. This is, frankly, one of the aspects of modernizing 
the Library of Congress that people and other institutions all 
over the world are looking at, because they know about the 
complexity of the Library of Congress. And so we are, in some 
ways, a model for other libraries in seeing that.
    So it is complex, it definitely is challenging, but I feel 
that we have--it is one of my top priorities to get this part 
of it together, parallel to letting people know about what we 
have in that as we create more interest in the Library, we are 
also seeing that there is a clamor for us to put more online, 
to be available, to not go down, to do all these types of 
things. So Mr. Barton has quite a job.
    Mr. Moolenaar. Thank you, Mr. Chairman.
    Mr. Yoder. Thank you, Mr. Moolenaar. Ms. McCollum.

                      PUBLIC ACCESS TO CRS REPORTS

    Ms. McCollum. Thank you. Perfect setup for what I am going 
to ask. Quite often, when we are in the middle of marking up 
this particular bill, a colleague of ours, Mr. Quigley, has an 
amendment to make all the CRS reports available to the public 
online. And there have been different conversations that 
Members have had around the table. Maybe it makes sense for 
some of them, but it should be up to the Library what reports 
it makes public. There are actually groups that publish CRS 
reports of--I just found a website, Congressional Research 
Service Reports on Conventional Weapons, I just found that 
online. Some scientific organization has uploaded the report. 
Sometimes you are developing reports specifically for Members 
who are looking at doing legislation, and so there is a 
confidentiality and a privacy aspect of it.
    Could you maybe tell us what the Library's opinion is--
because I am sure this amendment is going to come up again, and 
we usually have this discussion kind of on the fly. But let's 
pretend the amendment is being offered right now, I would be 
interested in knowing the Library of Congress' opinion on 
making CRS reports available to the public, whether it makes it 
cost prohibitive, whether it is a security issue, whether it is 
just something that you--until Congress says otherwise, you 
think should be internally held?
    Dr. Hayden. The Library has no opinion about the 
publication of the reports, and what we are focused on is the 
efficiency making sure that we are retaining the level of 
service to Congress, and part of that modernization effort is 
to make sure that we are able to serve Congress. And so, there 
are a number of elements in terms of providing that service. 
You mentioned confidentiality, security of the information 
itself. And so, we know that there are a lot of possible 
concerns, and we will be able to provide any information to 
Congress as you consider all of the elements.
    Ms. McCollum. Part of the argument goes, I can request a 
CRS report on what is trending with Lyme disease. I could 
request it. I could hand it to a constituent, but a constituent 
couldn't call and ask for that report. So it is public, but yet 
it is not public.
    Dr. Hayden. I spent a number of years in the public library 
as well--and the Library of Congress, it serves Congress, that 
is where they are the Special Forces, and they specifically 
reference analysts that answer to Congress, and Congress' 
reference needs. There are public questions in reference 
questions in reference, I think I mentioned in my opening 
remarks, that the public can directly contact the Library of 
Congress. The CRS is specifically for Congress, so that is why 
it is a decision of Congress, how much public input--not public 
input, but public product CRS has.
    Ms. McCollum. Well, I thank you for that. I think you draw 
a good distinction. The Library of Congress is open to the 
public, and they can go on and they can do research, and they 
can even request something from the Library, where CRS, is 
dedicated and set aside to help us be more effective and 
efficient in our jobs. As we see fewer staff available to us, 
and we see your staff being reduced over the years, there is a 
pressure point at which, I think, some of us are very worried 
that you won't be able to do your job as effectively and as 
efficiently as you would like to.

                    INFORMATION TECHNOLOGY SECURITY

    I am also a little concerned, and I am probably showing my 
limited knowledge of technology, that any time you start 
opening up more of your system to the public to easily get in, 
documents can be manipulated; things can happen to them, even 
on the internet. Is that part of the concern as well? You are 
trying to protect your IT system, but there are more people 
going in?
    Dr. Hayden. Yes. That is also a concern in terms of having 
a number of different service units that have different systems 
that is part of building a unified infrastructure for IT that 
helps you lessen not only duplication and waste and expense in 
terms of basic commodities and printers and things like that 
you purchase in bulk, it also gives you more security and 
control when you have all of the units having a basic 
infrastructure. And the more--and Mr. Barton can definitely 
speak in more detail about that, the more exposure you have 
moving from the tier one to the tier three, being able to have 
a more secure data center helps with our security.
    Ms. McCollum. So Mr. Barton, so right now, if my staff is 
requesting something with the Library of Congress, all the 
servers are recognizing each other, that this is coming from 
one secure site to another secure site?
    Mr. Barton. That is correct.
    Ms. McCollum. It is kind of scary that I understand that 
much.
    Mr. Barton. You hit all three of the primary concerns 
regarding security. The three areas are confidentiality, 
integrity, and availability. Integrity goes to is the product 
what you originally put up there. So CRS is publishing a 
report. Is that report the same report that they originally 
published? That is something that if you find it out on the 
open internet, there is no guarantee that that is the same 
product that was published by CRS.
    Availability that goes to the tier three setup that we 
asked for funding for, that means, no down time for the 
servers. And then confidentiality, that is the point where only 
people who are authorized to see a specific piece of 
information see that information. The way that we are designing 
the data centers and our information structures, our data 
structures these days, allows us to make those distinctions at 
several different points within the infrastructure. So I am 
confident that once we understand what the owner of the data 
wants to be made available, we can do that in a manner that 
makes sure only the people who are allowed to see it, see it.

                      PUBLIC ACCESS TO CRS REPORTS

    Ms. McCollum. Thank you. And thank you, Mr. Chair, for 
indulging me in this line of questioning. We know it keeps 
coming up, and people ask, what is the big deal? I can order a 
report online or see if you have already written one and I can 
share it with a constituent. I think sometimes it sounds too 
good to be true. Therefore, I think it is too good to be true. 
So thank you very much for helping me understand.
    Dr. Hayden. Mr. Newlen.
    Mr. Newlen. I just wanted to say that the Library, as Dr. 
Hayden has just said, is prepared to implement any 
congressional directive about the dissemination of the CRS 
reports. But what we care most about at the end of the day is 
that you have confidence in the integrity of CRS reports, and 
work products.
    Ms. McCollum. That is why I wanted to have an enlightened 
discussion where we weren't voting in 2 seconds.
    Dr. Hayden. Mr. Newlen is a veteran of CRS. There is a 
special place for him.
    Mr. Yoder. Thank you for your input. Ms. Wasserman Schultz.

                             CRS PERSONNEL

    Ms. Wasserman Schultz. Thank you, Mr. Chairman. Along the 
same lines with CRS, maybe the director could come back up to 
the table. I can see the value in raising up the next 
generation of CRS expertise, because you are about to have such 
a huge export of your tenured professionals. But in your 
testimony, Dr. Hayden, you say that you would be reducing staff 
capacity in areas that are no longer in demand. How would it be 
determined what areas are no longer in demand, especially given 
that Congress drives your demand?
    Dr. Hayden. Dr. Mazanec can get into more of the details of 
how they track the number of requests and keep up with what are 
the high-demand areas. And that is something that CRS does 
regularly and makes sure that, for instance, health, education, 
there are some perennial topics that they know have high 
demand, and then they have to be flexible for topics that are 
more current, or that are of the time. I will turn it over to 
you now.
    Dr. Mazanec. Thank you. As was stated, our staffing levels 
are down 13 percent since 2010. We have prioritized the 
analytical capacity in the service, and the analyst levels are 
down 8 percent. We are at the point in the current budget 
climate, where we can not immediately fill behind someone that 
departs. What we have done is taken their portfolio and 
reassigned their issues so that there is coverage. We are 
dedicated to providing the full coverage of congressional 
issues and process and procedure.
    We are not looking to eliminate coverage in any area. What 
we are trying to do is reinforce areas that have a very high 
number of requests, and do it in a way that allows us some 
flexibility. That is why we are requesting these eight 
temporary appointments in the five high volume areas. It would 
be a temporary appointment for three to five years. It could be 
renewed if the demand continues, but it could also allow us to 
pivot to other areas of congressional focus that need 
additional support.
    Ms. Wasserman Schultz. If you had your druthers, would you 
prefer that we give you full-time----
    Dr. Mazanec. Yes.
    Ms. Wasserman Schultz. FTEs, to fulfill the needs that you 
are currently lacking?
    Dr. Mazanec. Well, we are authorized for 651 FTEs. Our 
current budget, our current resources will support around 582, 
583 persons. I am very concerned that although my staff is very 
dedicated, very motivated, and they love working for Congress, 
we keep on asking them to do more and more. We are at a point 
where I want to make sure that we continue to support the 
Congress with high-quality work. So we are coming up with other 
ways to staff that allows us some flexibility.
    Ms. Wasserman Schultz. So, Mr. Chairman, I would ask that 
you consider when you prepare your chairman's mark, this as an 
example of where we are shortchanging our own needs by not 
having the kind of expertise over a long extended period of 
time at CRS, and continually adding more and more Capitol 
Police officers. It is a tradeoff. Over the last number of 
years, we have dramatically increased the Capitol Police 
budget, giving them more personnel. And we are shortchanging 
and causing CRS--this is a good idea, I think, but it is not 
the way--it is a good idea because they are basically trying to 
put their fingers in the holes where the dike is leaking, the 
dam is leaking. And so, when you are thinking about the whole 
picture of the leg branch budget, this is something that we 
should consider because we have been shortchanging ourselves 
for far too long, in my opinion.

                        COPYRIGHT MODERNIZATION

    I wanted to just shift gears and ask the Librarian a little 
bit about the Copyright Office. The 2017 omnibus bill, omnibus 
report directs the Library to defer to the Register of 
Copyrights expertise when it comes to copyright specific IT 
systems and some of the larger copyright issues. Do you foresee 
any challenges to meeting that commitment?
    Dr. Hayden. No. And the policy and the advice to Congress 
on copyright matters law is intact, and I just want to take 
this opportunity to thank Ms. Claggett for being the acting 
Register and the work that she has done. She has worked 
collaboratively with Mr. Barton on making sure that the IT 
modernization effort continues and is strengthened.
    Ms. Wasserman Schultz. Thank you. What formal direct role 
does the Register of Copyrights have in managing of the 
Copyright Office's IT systems, or in planning and implementing 
any modernization efforts?
    Dr. Hayden. The job of the Register, beyond the policy, is 
to manage the process. And part of that is to be not only part 
of a Library-wide technology committee, basically, and to 
have--make very well known the mission-specific IT requirements 
to the Library, and that we depend on the service units to give 
the information of what are your specific IT needs and how can 
we support those?

                            PUBLIC OUTREACH

    Ms. Wasserman Schultz. Thank you. And lastly, I just want 
to commend you and your entire team on the significant advances 
you have made in public outreach, particularly for children. I 
won't bore anybody with the story, but from the time I came 12 
years ago to now, there is a dramatically different ability for 
children to get access to the Library of Congress. And your 
staff should get full credit for the really excellent job that 
they have done in taking us through that process.
    Dr. Hayden. The Young Readers Center is now open on 
Saturdays and we have seen a marked increase in the number of 
people who live locally that come to the Library. We also have 
requests for more reference services in connecting to the 
collections for people under 16. They can get a readers card at 
16. People are saying what about the 12-year-old that wants to 
do that? I mentioned the 6-month old. There is a Friday morning 
story time as well with the stroller park. And plans now to 
expand the Readers Center to be a youth center with learning 
labs and ways to connect to collections.
    Ms. Wasserman Schultz. Just so you know, the 5-year olds 
that helped cut the ribbon on the Young Readers Center are 
graduating from high school in 2 weeks.
    Thank you. I yield back.

                       CHAIRMAN'S CLOSING REMARKS

    Mr. Yoder. Thank you, Ms. Wasserman Schultz.
    Dr. Hayden, thank you for your testimony today. I think 
pretty much everyone has gotten a chance to ask their questions 
and we have votes on the floor. So we are going to let you off 
the hook a little bit. But as we work through our deliberations 
on how to best allocate resources in 2018, your testimony will 
be very important to us, and we will continue that dialogue to 
make sure that we have all the information before us and that 
you will be given the resources you need to do your job. So 
thank you for your testimony today and thank you for your 
service to our country, Mr. Newlen and Mr. Barton. And thank 
you to the rest of the staff, thank you so very much.
    And at this time, the subcommittee stands in recess subject 
to the call of the chair.
    [Additional prepared statements and questions for the 
record follow:]

               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 







                               I N D E X

                              ----------                              

 Testimony of Members of Congress and Other Interested Individuals and 
                             Organizations

American Association of Law Libraries............................    88
Center for Data Innovation.......................................    82
Civic Impulse, LLC...............................................    17
Congressional Research Employees Association.....................    99
Copyright Alliance...............................................    41
Crown Castle.....................................................    57
Data Coalition...................................................    75
Demand Progress..................................................    23
Information Technology and Innovation Foundation.................    68
Preservation Technologies........................................    93
R Street Institute...............................................    31
Tom Lantos Human Rights Commission...............................     1

                     U.S. House of Representatives

Bulk Data Task Force.............................................   156
Capitol Police Board and the Chief of the Capitol Police.........   170
Chairman Closing Remarks.........................................   175
Chairman Outlines Proceedings....................................   107
Chief Administrative Officer Abbreviated Testimony...............   124
Chief Administrative Officer Projects and Programs...............   124
Clerk of the House Abbreviated Testimony.........................   107
Clerk Projects and Programs......................................   107
Comparative Print Rule Project...................................   156
Cost of Food in House Cafeterias.................................   173
Current Structure of Members' Dining Room........................   174
District Office Security.........................................   157
DOCS.HOUSE.GOV Website...........................................   157
Food Choices.....................................................   174
Food Services and the Food Services Contract.....................   159
FY2018 Chief Administrative Officer Budget Request...............   124
FY2018 Clerk Budget Request......................................   108
FY2018 Cybersecurity Request and Policy Changes..................   165
FY2018 Sergeant at Arms Budget Request...........................   116
Garage Security Initiative.......................................   166
Health and Wellness Program for the House........................   159
House Cybersecurity Program......................................   161
House IT Security Policies.......................................   163
House of Representatives Childcare Center........................   167
House of Representatives Childcare Center Waiting List...........   173
House Policies Regarding Technology..............................   169
House Rule on Comparative Prints.................................   168
House Security for Parking Lots, Garages and Kiosks..............   169
The O'Neill House Office Building................................   168
Opening Statement of Hon. Kevin Yoder, Chairman..................   105
Opening Statement of Hon. Tim Ryan, Ranking Member...............   106
Personal Equipment on the House Platform.........................   164
Questions for the Chief Administrative Officer...................   158
Questions for the Clerk..........................................   156
Questions for the Senate Sergeant at Arms........................   157
Review of House Cybersecurity Program............................   162
Sergeant at Arms Abbreviated Testimony...........................   116
Sergeant at Arms Projects and Programs...........................   116
Standardized Access Control System...............................   157
Statement of Hon. Karen Haas, Clerk, U.S. House of 
  Representatives................................................   109
Statement of Hon. Paul Irving, Sergeant at Arms, U.S. House of 
  Representatives................................................   118
Statement of Hon. Philip Kiko, Chief Administrative Officer, U.S. 
  House of Representatives.......................................   126
Training and Recruiting for the Next Generation..................   160
Use of IT Applications...........................................   162
Voting Card Changes..............................................   171
Wounded Warrior Program..........................................   161
Wounded Warrior Program Information Campaign.....................   172

                     Architect of the Capitol (AOC)

Cannon House Office Building Renewal.............................   217
Capitol Power Plant..............................................   225
Chairman Remarks.................................................   209
Construction Project Financing...................................   220
Deferred Maintenance Backlog.....................................   226
Duck Ramps.......................................................   223
House Historic Buildings Revitalization Trust Fund...............   221
Lead in Water Testing............................................   223
O'Neill House Office Building....................................   225
Prepared Statement of Stephen T. Ayers...........................   212
Project Prioritization Process...................................   226
Questions for the Record.........................................   228
    Cannon House Office Building Renewal Project.................   228
    Capitol Power Plant..........................................   233
    Deferred Maintenance List....................................   234
    O'Neill Building.............................................   232
    Rayburn Garage Rehabilitation................................   231
Ranking Member Remarks...........................................   210
Rayburn Garage...................................................   224
Summary Statement of Stephen T. Ayers............................   210
Tree Management..................................................   227
Urban Agriculture................................................   219

                      United States Capitol Police

Additional Positions Requested in Fiscal Year 2018...............   246
Alternative Command Center.......................................   254
Capitol Police Board Role in Mission Assignment..................   265
Civilianized Positions...........................................   247
Communications and Metro.........................................   264
Cost to Train an Officer.........................................   248
Diversity in the Workforce.......................................   268
House Garage Security............................................   246
Impact of New Officers on Overtime...............................   259
Keeping Threats Outside of the Capitol...........................   257
Lost Equipment Return Policy.....................................   276
Mandatory Budget Items...........................................   266
Mandatory Retirement & Re-hiring Sworn in Civilian Positions.....   250
New Command Center...............................................   258
Non-Reimbursable Overtime Events.................................   253
Officer Morale...................................................   262
Officer Morale...................................................   267
Optimal Staffing Level for USCP..................................   261
Overtime Cap.....................................................   256
Percentage of Overtime Funding Attributed to Training............   254
Qualification Standards Required for New Hires...................   248
Questions for the Record, Chairman Yoder.........................   278
Questions for the Record, Ranking Member Ryan....................   249
Role of USCP in Determining Door Closures........................   251
Salaries Funding for House Garage Security.......................   254
Special Events Planning Coordination.............................   252
Statement of Chairman Kevin Yoder................................   235
Statement of Ranking Member Tim Ryan.............................   236
Sworn Staffing Planning..........................................   254
Testimony of Chief Matthew R. Verderosa..........................   238
USCP Coordination with District Offices..........................   259

                          Library of Congress

Access to Library Resources......................................   293
Chairman's Closing Remarks.......................................   300
Congressional Research Service:
    CRS IT Modernization.........................................   292
    CRS Personnel................................................   298
    CRS Staffing Request.........................................   291
    Public Access to CRS Reports...............................296, 298
Copyright Office:
    Copyright Modernization......................................   299
    Copyright Processing Time....................................   290
Information Technology Management................................   290
Information Technology Security..................................   297
International Access.............................................   295
Library Visitors.................................................   294
Modernization Plan...............................................   294
Opening Statements:
    Chairman Yoder...............................................   283
    Librarian of Congress........................................   285
    Mrs. Lowey...................................................   284
    Ranking Member Ryan..........................................   284
Public Outreach..................................................   300
Questions for the Record from the Chairman:
    Availability/Disaster Recovery...............................   328
    Big Data.....................................................   328
    Cloud Computing..............................................   327
    Collection Storage...........................................   324
    Congressional Research Service...............................   320
    Copyright Modernization......................................   317
    Copyright Office.............................................   319
    Gallup Survey................................................   323
    Information Technology Management............................   315
    National Library Service.....................................   325
    Primary Computing Facility...................................   316
    Server Consolidation.........................................   327
Written Statements:
    Librarian of Congress........................................   287
    Director, Congressional Research Service.....................   307
    Acting Register of Copyrights................................   301

                                  [all]
</pre></body></html>
